                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250
November 13, 2006



REPLY TO
ATTN OF:       06401-21-FM

TO:            Board of Directors
               Commodity Credit Corporation

               Kristine Chadwick, Controller
               Commodity Credit Corporation

ATTN:          T. Michael McCann, Director
               Operations Review and Analysis Staff
               Office of Business and Program Integration
               Farm Service Agency

FROM:          Robert W. Young             /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Commodity Credit Corporation’s Financial Statements
               for Fiscal Years 2006 and 2005


This report presents the auditors’ opinion on the Commodity Credit Corporation’s (CCC)
principal financial statements for the fiscal years ending September 30, 2006 and 2005. Reports
on CCC’s internal control structure and its compliance with laws and regulations are also
provided.

KPMG LLP, an independent certified public accounting firm, conducted the audits. We
monitored the progress of the audits at all key points, reviewed audit documentation, and
performed other procedures, as we deemed necessary. We determined the audits were conducted
in accordance with generally accepted auditing standards, Government Auditing Standards
(issued by the Comptroller General of the United States), and the Office of Management and
Budget Bulletin No. 06-03, “Audit Requirements for Federal Financial Statements.”

It is the opinion of KPMG LLP, that the financial statements present fairly, in all material
respects, CCC’s financial position as of September 30, 2006 and 2005; and its net costs, changes
in net position, budgetary resources, and reconciliation of net costs to budgetary obligations for
the years then ended, in conformity with generally accepted accounting principles.
Board of Directors et al.                                                                    2


The KPMG LLP report on CCC’s internal control structure over financial reporting identified
five reportable conditions. Specifically, KPMG identified weaknesses in CCC’s:

   •   Information security controls;
   •   financial system functionality and funds control;
   •   financial accounting and reporting policies and procedures;
   •   producer monitoring procedures; and

   •   management’s review procedures related to the development, implementation, and
       maintenance of credit reform cash flow models.

KPMG considered the first three reportable conditions to be material weaknesses. The results of
KPMG’s tests of compliance with laws and regulations disclosed instances of noncompliance
with the Federal Information Security Management Act and the Federal Financial Management
Improvement Act of 1996.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, including the timeframes to address the
report’s recommendations. Please note the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance.
                             U.S. DEPARTMENT OF AGRICULTURE –
                             COMMODITY CREDIT CORPORATION
                                           September 30, 2006


                                           Table of Contents



                                                                                              Page

Independent Auditors’ Report                                                                    1

Exhibit 1 – Material Weaknesses                                                               1–1

Exhibit 2 – Reportable Conditions                                                             2–1

Exhibit 3 – Status of Prior Year Noncompliance and Other Matters                              3–1

Exhibit 4 – Status of Prior Year Material Weaknesses                                          4–1

Exhibit 5 – Status of Prior Year Reportable Conditions                                        5–1

Exhibit 6 – Management’s Response to Findings Contained in the Independent Auditors’ Report   6–1

Consolidated Financial Report
INDEPENDENT AUDITORS’ REPORT
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                            Independent Auditors’ Report


To the Inspector General,
U.S. Department of Agriculture:

To Commodity Credit Corporation:

We have audited the accompanying consolidated balance sheets of the Commodity Credit Corporation
(CCC) as of September 30, 2006 and 2005, and the related consolidated statements of net cost, changes in
net position, and financing and the combined statements of budgetary resources for the years then ended
(hereinafter referred to as the consolidated financial statements). CCC is a wholly owned government
corporation within the U.S. Department of Agriculture (USDA). The objective of our audits was to express
an opinion on the fair presentation of these consolidated financial statements. In connection with our fiscal
year 2006 audit, we also considered CCC’s internal controls over financial reporting and performance
measures, and tested CCC’s compliance with certain provisions of applicable laws, regulations, contracts,
and grant agreements that could have a direct and material effect on these consolidated financial
statements.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that CCC’s consolidated
financial statements as of and for the years ended September 30, 2006 and 2005, are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1 to the consolidated financial statements, CCC changed its method of accounting for
and reporting stewardship land in fiscal year 2006 to adopt the provisions of SFFAS No. 29, Heritage
Assets and Stewardship Land.

Our consideration of internal control over financial reporting and performance measures resulted in the
following conditions being identified as reportable conditions:

x   Improvement needed in information security controls;
x   Improvement needed in financial system functionality and funds control;
x   Improvement needed in financial accounting and reporting policies and procedures;
x   Improvement needed in producer monitoring procedures; and

x   Improvement needed in management’s review procedures related to the development, implementation,
    and maintenance of credit reform cash flow models.
We consider the first three reportable conditions, above, to be material weaknesses.




                                  KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                  member firm of KPMG International, a Swiss cooperative.
The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed the following instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards, issued by the Comptroller General of the United States,
and Office of Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal
Financial Statements:

x   Federal Information Security Management Act (FISMA); and
x   Federal Financial Management Improvement Act of 1996 (FFMIA).

The results of our tests of FFMIA disclosed instances, described in more detail in Exhibit 1, where CCC’s
financial management systems did not substantially comply with Federal financial management systems
requirements or applicable Federal accounting standards. The results of our tests of FFMIA disclosed no
instances in which CCC’s financial management systems did not substantially comply with the United
States Government Standard General Ledger (USSGL) at the transaction level.

The following sections discuss our opinion on CCC’s consolidated financial statements; our consideration
of CCC’s internal controls over financial reporting, and performance measures; our tests of CCC’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements; and
management’s and our responsibilities.

Opinion on the Consolidated Financial Statements
We have audited the accompanying consolidated balance sheets of the Commodity Credit Corporation
(CCC) as of September 30, 2006 and 2005, and the related consolidated statements of net cost, changes in
net position, and financing and the combined statements of budgetary resources for the years then ended.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of CCC as of September 30, 2006 and 2005, and its net costs, changes in net
position, budgetary resources, and reconciliation of net costs to budgetary obligations, for the years then
ended, in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1 to the consolidated financial statements, CCC changed its method of accounting for
and reporting stewardship land in fiscal year 2006 to adopt the provisions of SFFAS No. 29, Heritage
Assets and Stewardship Land.

The information in the Management Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by U.S. generally accepted accounting principles and OMB Circular No. A-136, Financial
Reporting Requirements. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this information.
However, we did not audit this information and, accordingly, we express no opinion on it.

Internal Control over Financial Reporting
Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect CCC’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the consolidated financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements caused by
                                                       2
error or fraud, in amounts that would be material in relation to the consolidated financial statements being
audited, may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. Because of inherent limitations in internal control, misstatements due
to error or fraud may nevertheless occur and not be detected.

In our fiscal year 2006 audit, we noted certain matters, described in Exhibits 1 and 2, involving internal
control over financial reporting and its operation that we consider to be reportable conditions. We believe
that the reportable conditions presented in Exhibit 1 are material weaknesses. Exhibit 2 presents the other
reportable conditions. Summaries of the status of prior year material weaknesses, reportable conditions,
and management’s response to our findings are included as Exhibit 4, 5 and 6, respectively.

We also noted certain additional matters that we reported to the management of CCC in a separate letter
dated November 13, 2006.

Internal Controls over Performance Measures
Under OMB Bulletin No. 06-03, the definition of material weaknesses is extended to other controls as
follows. Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that misstatements caused
by error or fraud, in amounts that would be material in relation to a performance measure or aggregation of
related performance measures, may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. Because of inherent limitations in internal control,
misstatements due to error or fraud may nevertheless occur and not be detected.

Our consideration of the internal control over the design and operation of internal control over the
existence and completeness assertions related to key performance measures would not necessarily disclose
all matters involving the internal control and its operation related to the design and operation of the internal
control over the existence and completeness assertions related to key performance measures that might be
reportable conditions.

In our fiscal year 2006 audit, we noted no matters involving the design and operation of the internal control
over the existence and completeness assertions related to key performance measures that we considered to
be material weaknesses as defined above.

Compliance and Other Matters
Our tests of compliance with certain provisions of laws, regulations, contracts, and grant agreements, as
described in the Responsibilities section of this report, exclusive of those referred to in FFMIA, disclosed
one instance of noncompliance or other matters that is required to be reported under Government Auditing
Standards and OMB Bulletin No. 06-03, and is described below.

FISMA. FISMA, passed as part of the E-Government Act of 2002, requires that Federal agencies
(1) provide a comprehensive framework for ensuring the effectiveness of information security controls
over information resources that support Federal operations and assets; (2) provide effective
government-wide management and oversight of the related information security risks; (3) provide for
development and maintenance of minimum controls required to protect Federal information and
information systems; (4) provide a mechanism for improved oversight of Federal agency information
security programs; (5) acknowledge that commercially developed information security products offer
advanced, dynamic, robust, and effective information security solutions, reflecting market solutions for the
protection of critical information infrastructures important to the national defense and economic security of
the nation that are designed, built, and operated by the private sector; and (6) recognize that the selection of
specific technical hardware and software information security solutions should be left to individual


                                                       3
agencies from among commercially developed products. OMB Circular No. A-130, Management of
Federal Information Resources, provides further information security guidance.

We noted that during fiscal year 2006, the Farm Service Agency (FSA) and CCC have made much
progress with their information security program in order to meet FISMA and OMB Circular No. A-130
guidelines. (FSA provides and maintains the IT infrastructure supporting CCC’s general support systems
and major applications, hence the reference here, and later in this report, to FSA.) However, FSA/CCC
needs further improvement in its entity-wide security and contingency planning programs to fully meet
these guidelines. These matters are described in more detail in Exhibit 1.

The results of our tests of compliance with certain provisions of other laws and regulations, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported under Government Auditing Standards or OMB Bulletin No. 06-03.

FFMIA. The results of our tests of FFMIA disclosed instances, described in more detail in Exhibit 1,
where CCC’s financial management systems did not substantially comply with Federal financial
management systems requirements or applicable Federal accounting standards. The results of our tests of
FFMIA disclosed no instances in which CCC’s financial management systems did not substantially comply
with the USSGL at the transaction level.

FFMIA mandates that Federal financial management be advanced by ensuring that Federal financial
management systems can and do provide reliable, consistent disclosure of financial data and that they do so
on a basis that is uniform across the Federal government from year to year, consistently using accounting
principles generally accepted in the United States of America. Federal agencies need to comply with
FFMIA by adhering to policies established by OMB, such as OMB Circular No. A-127, Financial
Management Systems, and OMB Circular No. A-130, Management of Federal Information Resources.

A summary of the instances of FFMIA noncompliance noted in Exhibit 1 follows:

x   FFMIA requires that Federal agencies implement information security controls and contingency
    planning capabilities in accordance with OMB Circular No. A-130. As noted above, CCC needs to
    improve in these areas to be in compliance with OMB Circular No. A-130. For example, CCC needs to
    enhance its procedures in order to establish and maintain information security and contingency
    planning controls. FFMIA also requires that Federal agencies implement financial systems controls in
    accordance with OMB Circular No. A-127 and we noted that CCC needs to improve in this area. For
    example, CCC needs to improve its processes over funds control.
x   FFMIA requires that Federal agencies adhere to applicable Federal accounting standards. We noted
    instances where CCC needs to improve processes regarding financial reporting in order to comply with
    U.S. generally accepted accounting principles.
Responsibilities
Management’s Responsibilities. The United States Code Title 31 Section 3515 and 9106 requires
agencies to report annually to Congress on their financial status and any other information needed to fairly
present their financial position and results of operations. To meet these reporting requirements, CCC
prepares and submits consolidated financial statements in accordance with OMB Circular No. A-136.

Management is responsible for the consolidated financial statements, including:

x   Preparing the consolidated financial statements in conformity with U.S. generally accepted accounting
    principles;



                                                     4
x   Preparing the Management Discussion and Analysis (including the performance measures) and
    Required Supplementary Information;
x   Establishing and maintaining effective internal control; and
x   Complying with laws, regulations, contracts, and grant agreements applicable to CCC, including
    FFMIA.

In fulfilling this responsibility, management is required to make estimates and judgments to assess the
expected benefits and related costs of internal control policies.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2006 and 2005
consolidated financial statements of CCC based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and OMB Bulletin No. 06-03. Those standards and OMB Bulletin No. 06-03 require that we plan
and perform the audits to obtain reasonable assurance about whether the consolidated financial statements
are free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of CCC’s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

x   Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
    financial statements;
x   Assessing the accounting principles used and significant estimates made by management; and
x   Evaluating the overall consolidated financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2006 audit, we considered CCC’s internal control over financial
reporting by obtaining an understanding of CCC’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls in order to determine
our auditing procedures for the purpose of expressing our opinion on the consolidated financial statements.
We limited our internal control testing to those controls necessary to achieve the objectives described in
Government Auditing Standards and OMB Bulletin No. 06-03. We did not test all internal controls relevant
to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA). The objective of our audit was not to provide assurance on CCC’s internal control over financial
reporting. Consequently, we do not provide an opinion thereon.

As further required by OMB Bulletin No. 06-03, in our fiscal year 2006 audit, with respect to internal
control related to performance measures determined by management to be key and reported in the
Management Discussion and Analysis, we obtained an understanding of the design of internal controls
relating to the existence and completeness assertions and determined whether these internal controls had
been placed in operation. We limited our testing to those controls necessary to test and report on the
internal control over key performance measures in accordance with OMB Bulletin No. 06-03. However,
our procedures were not designed to provide an opinion on internal control over reported performance
measures and, accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether CCC’s fiscal year 2006 consolidated financial
statements are free of material misstatement, we performed tests of CCC’s compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a

                                                      5
direct and material effect on the determination of the consolidated financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 06-03, including certain provisions
referred to in FFMIA. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws, regulations, contracts, and grant agreements
applicable to CCC. However, providing an opinion on compliance with laws, regulations, contracts, and
grant agreements was not an objective of our audit and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 06-03 and FFMIA, we are required to report whether CCC’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the USSGL at the transaction level. To meet this
requirement, we performed tests of compliance with FFMIA Section 803(a) requirements.

Restricted Use
This report is intended solely for the information and use of CCC’s management, the USDA Office of the
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 13, 2006




                                                     6
                                                                                                    Exhibit 1
                              U.S. DEPARTMENT OF AGRICULTURE –
                              COMMODITY CREDIT CORPORATION
                                            Material Weaknesses



Introduction
The internal control weaknesses discussed in this report, and the Commodity Credit Corporation’s (CCC)
progress toward correcting these weaknesses, are discussed in the context of CCC’s existing statutory and
organizational structure. We recognize that any recommended information technology (IT) control
enhancements pertaining to CCC operations cannot be implemented solely by CCC, because CCC’s
applications are in many cases hosted on systems managed by the United States Department of Agriculture
(USDA) and the USDA Farm Service Agency (FSA). As a result, several of the IT control weaknesses
identified in this report will require the combined effort of USDA and CCC management.

Exhibit 1 describes the material weaknesses and Exhibit 2 describes the reportable conditions as of and for
the year ended September 30, 2006, and our recommendations thereon. The status of prior year material
weaknesses and reportable conditions are reported in Exhibits 4 and 5, respectively. CCC management’s
response to our findings is presented in Exhibit 6.

Material Weaknesses
The material weaknesses we identified as of and for the year ended September 30, 2006, are summarized
below.

(1)   Improvement Needed in Information Security Controls
      Information security management is a crucial component in protecting sensitive and critical CCC
      information resources and financial data. The citizens of the United States entrust the stewardship of
      Federal government financial resources and assets to government financial and program managers.
      Without effective information security controls over financial systems and supporting systems, there
      is substantial risk that the resources under stewardship may be exposed to unauthorized modification,
      disclosures, loss, or impairment.

      Information security weaknesses have been identified in FSA/CCC’s IT environment in prior year
      audits conducted by the USDA Office of the Inspector General (OIG), as well as in prior audits of
      CCC’s consolidated financial statements. In response to these findings, and to address Federal
      Information Security Management Act (FISMA) requirements, FSA/CCC has taken steps to improve
      its information security program. For example, during fiscal year 2006 FSA/CCC:

      x   Revised the current mainframe change control document, 14-ADM;
      x   Implemented supervisory review of the Guarantee Sales Manager (GSM) user community;
      x   Continued updating security risk assessments for key applications;
      x   Implemented a security and awareness training tracking mechanism; and
      x   Updated domain password settings to adhere to internal policy requirements.
      Despite these efforts, additional enhancements are needed to help improve FSA/CCC’s level of
      confidentiality, integrity, and availability of sensitive and critical information systems and resources.
      Specifically, as in prior year CCC consolidated financial statement audits, we noted several areas,


                                                    1-1                                           (Continued)
                                                                                              Exhibit 1
                        U.S. DEPARTMENT OF AGRICULTURE –
                        COMMODITY CREDIT CORPORATION
                                      Material Weaknesses



detailed below, where improvements are needed in establishing and maintaining information security
and contingency planning controls.

Information Security Program Management
Information security program management controls should be in place to establish a framework and
continuing cycle of activity to manage security risk, develop security policies, assign responsibilities,
and monitor the adequacy of IT security related controls. During our fiscal year 2006 IT control
testing, we noted that FSA/CCC has made progress with its security program management efforts.
However, as identified in prior year CCC consolidated financial statement audits, we also noted that
FSA/CCC’s information security program needs continued improvement. Noted below are specific
areas for improvement.
x   The existing risk assessment process needs to be more consistent. For example, FSA/CCC has
    taken steps to improve its security risk assessment process, but the risk assessments for the major
    applications supporting CCC’s operations have not been finalized. Maintaining consistent,
    current, and complete security risk assessments is a critical component of an organization’s
    security program, as the risk assessments drive other security related activities, such as planning
    for the implementation of technical security controls, as well as contingency planning efforts.
    Further, FISMA requires that security risk assessments be completed for agency systems and
    applications.

x   Updating risk mitigation plans to reflect current year status needs improvement. For example,
    four of seven application risk mitigation plans prepared by FSA/CCC have milestones with
    initial completion dates ranging from January 1, 2004 to March 30, 2005, that have not been
    updated to reflect the current fiscal year 2006 status. The four applications are the Financial
    Management System (FMS), Automated Cotton Reporting System (ACRS), Data Control
    System (DCS), and electronic Funds Control System (e-Funds).

x   Discrepancies between risk assessments and risk mitigation plans must be addressed more
    thoroughly. For example, discrepancies were found in five risk assessments that included risks
    not identified in the corresponding risk mitigation plans. The five applications with
    inconsistencies between the risk assessments and the risk mitigation plans were the Automated
    Price Support System (APSS), the CCC Core Accounting system (CORE), e-Funds, FMS, and
    DCS.

Technical Security Access Controls

In close concert with an organization’s security program management efforts, technical security
access controls for systems and applications should provide reasonable assurance that IT resources
such as data files, application programs, and IT-related facilities/equipment are protected against
unauthorized modification, disclosure, loss, or impairment. Technical access controls are facilitated
by an organization’s overall information security program. Inadequate technical security access
controls diminish the reliability of data and increase the risk of destruction or inappropriate
disclosure of information, both of which are significant risks from a financial audit perspective.


                                              1-2                                           (Continued)
                                                                                              Exhibit 1
                        U.S. DEPARTMENT OF AGRICULTURE –
                        COMMODITY CREDIT CORPORATION
                                      Material Weaknesses



The objectives of limiting access are to ensure that users have only the access needed to perform
their duties; that access to very sensitive resources, such as security software programs, is limited to
very few individuals; and that employees are restricted from performing incompatible functions or
functions beyond their responsibility.

A summary of the technical access control weaknesses we identified follows:
x   The immediacy of resolving “high risk” vulnerabilities needs improvement. We noted that in a
    six-month period during fiscal year 2006, the same “high risk” vulnerabilities were identified in
    consecutive monthly scan reports. This issue is significant for CCC, as the identified system
    weaknesses could be exploited by unauthorized personnel attempting to penetrate FSA/CCC’s IT
    environment to ultimately gain access to sensitive financial processing devices and applications.

x   Reviews of user access lists need improvement. For example, we found that a current listing of
    authorized county office AS/400 system users and their access authorizations is not consistently
    reviewed. In two cases AS/400 user accounts were still active despite the personnel not being
    assigned to that office for more than six months.

x   Management review of all physical access requests needs improvement. For example, we
    identified numerous access control documentation deficiencies for the Beacon facility server
    room.

Software Change/Configuration Management

The primary focus of an organization’s software change/configuration management program is to
control the software changes made to systems and applications in operation. Establishing controls
over the modification of software programs ensures that only authorized programs and authorized
modifications are implemented. This is accomplished by instituting policies, procedures, and
techniques to determine that all programs and program modifications are properly authorized, tested,
and approved, and that access to and distribution of programs is carefully controlled. Without such
controls, there is a risk that security features could be inadvertently or deliberately omitted or turned
off, or that processing irregularities or malicious codes could be introduced into the IT environment.

A summary of the software change/configuration management weaknesses we identified follows:
x   System security and configuration management procedures and documentation need
    improvement. For example, financial application software change request forms supporting
    changes made to the ACRS, APSS, CORE, DCS, e-Funds, FMS State and County Office
    Automation Project (SCOAP), and the Processed Commodities Information Management System
    (PCIMS) applications lacked consistently documented approvals and sign-offs.

x   Documentation of change management policies and procedures need improvement. For example,
    CCC has not implemented formal procedures to address identification, documentation review,
    and approval of emergency changes that occur in the application environment.



                                              1-3                                           (Continued)
                                                                                                 Exhibit 1
                         U.S. DEPARTMENT OF AGRICULTURE –
                         COMMODITY CREDIT CORPORATION
                                       Material Weaknesses



End-User Computing

End-user computing tools/programs (e.g., spreadsheets and other user-developed programs) provide
a unique set of general control needs within an organization. By its nature, end user computing
brings the development and processing of information systems closer to the user. This environment
may not be subjected to the same level of rigor and structure as an IT general controls environment.
During the FY 2006 CCC financial audit we found that end-user computing policies and procedures
need to be better documented. For example, CCC has not fully documented policies that address
standards or requirements for data encryption for CCC workstations, and program offices have not
documented procedures for controlling end-user computing.

Maintaining good IT controls is not only part of a sound management governance structure, it is also
required by Federal laws and regulations. For example, FISMA requires that Federal agencies follow
the security guidance issued by the National Institute of Standards and Technology (NIST). NIST
provides the following relevant guidance:

x    Special Publication 800-53, Recommended Security Controls for Federal Information Systems,
     guides that the organizations should maintain sufficient access controls to protect sensitive
     agency data.

x    Special Publication 800-12, An Introduction to Computer Security, guides that organizations, to
     effectively address security, should plan and manage security throughout a computer system’s
     life cycle, from initial planning, through design, implementation, and operation, to disposal.

x    Special Publication 800-14, Generally Accepted Principles and Practices for Security
     Information Technology Systems, guides that organizations should ensure effective
     administration of users’ computer access to maintain system security, including user account
     management and the timely modification or removal of access.

Further, CCC’s internal policies and procedures guide for the maintenance of sound IT controls. For
example:

x    CCC’s Administrative and Financial Applications Office (AFAO) Change Control Process
     provides criteria for documentation and approval of application changes.

x    The FSA 6-IRM Security Policy requires local management to bi-annually review all physical
     access requests.

Recommendations

In addition to recommendations 2 and 9 from our fiscal year 2005 report, we recommend that
FSA/CCC management, in cooperation with the FSA/CCC system owners:

1.    Identify and implement controls to better track outstanding risk mitigation plan milestones.

2.    Verify that risk mitigation plans incorporate all the risks identified in the risk assessments.


                                                1-4                                           (Continued)
                                                                                                    Exhibit 1
                              U.S. DEPARTMENT OF AGRICULTURE –
                              COMMODITY CREDIT CORPORATION
                                            Material Weaknesses



      3.    Develop a process to verify that systems identified with a high risk vulnerability do not show up
            on subsequent monthly vulnerability scan reports, unless they are verified and documented as a
            false-positive.

      4.    Establish and enforce a policy that requires physical access authorizations to be completed in
            their entirety, and physical access lists to the server room in the Beacon facility to be reviewed
            on a regularly scheduled basis, accompanied with appropriate management approval.

      5.    Implement an overall standard change control process, including a process for acceptance
            testing and emergency changes, so that application modifications are managed in a consistent
            manner.

      6.    Implement encryption on workstations and computing devices that are utilizing spreadsheets
            and localized access databases for processing of financial data.

(2)   Improvement Needed in Financial System Functionality and Funds Control
      Maintaining quality Federal financial management system functionality is critical to enhance the
      accountability of financial and program managers, to provide better information for decision making,
      and to increase the efficiency and effectiveness of services provided by the Federal government.
      Proper and reliable financial management systems must provide for:

      x    Accountability. Inform taxpayers, Congress, and agency personnel, in terms they can readily
           understand, on how the nation’s tax dollars are spent and how Federal assets are protected.
      x    Efficiency and Effectiveness. Provide efficient and effective service to the Federal agency’s
           internal and external customers (e.g., individuals, contractors, partnerships, State and local
           governments, other Federal agencies/organizations, the military, and foreign governments).
      x    Better Decision Making. Provide to Congress, agency heads, and program managers timely
           reports linking financial results and program data so that financial and program results of policy
           and program decisions can be identified, tracked, and forecasted more accurately1.

      As noted previously herein, not only are quality financial management systems important for the
      day-to-day management of organizational financial data and information, but also for complying
      with the Federal Financial Management Improvement Act of 1996 (FFMIA) and OMB Circular No.
      A-127. FFMIA mandates that Federal financial management be advanced by ensuring that Federal
      financial management systems and accounting standards be implemented to provide reliable,
      consistent disclosure of financial data. OMB Circular No. A-127 sets forth policies for establishing
      and maintaining Federal financial management systems in accordance with FFMIA.




1
  From the Joint Financial Management Improvement Program (JFMIP), (now known as the Financial Systems
Integration Office), Core Financial System Requirements, and its addendum, dated November 2001 and March 2004,
respectively.


                                                    1-5                                          (Continued)
                                                                                           Exhibit 1
                       U.S. DEPARTMENT OF AGRICULTURE –
                       COMMODITY CREDIT CORPORATION
                                    Material Weaknesses



During fiscal year 2006, CCC implemented corrective actions to improve controls and processes
supporting its financial processing environment. For example, CCC updated the direct and
guaranteed loans cash flow models implemented in fiscal year 2005 to address the issues noted
during last year’s audit that required manual adjustment. CCC is also either working on or has
already implemented new systems aimed at automating previously manual processes, thereby
achieving expected operating efficiencies and a better controlled environment. New systems
implemented in 2006 or at the end of 2005 include the electronic Loan Deficiency Payments (eLDP)
system, the electronic Milk Income Loss Contract (eMILC) system, and the Tobacco Transition
Payments Program (TTPP) system. In addition, the National Payment System (NPS) is used by CCC
to disburse payments on behalf of the systems that interface with NPS, such as eLDP, eMILC, and
TTPP. We understand that a new obligation Web service has been defined and programmed for farm
programs that are initiated through NPS; however, applications have not been developed for the
interface to update the obligation Web service.

As noted in the prior year’s audit report, CCC uses e-Funds, an intranet based application functional
at the national, state, and county office levels to help monitor daily program disbursements made at
CCC’s state and county offices. The system is designed to compare at a summary level the amount
of budgetary authority remaining for these programs to disbursements made without consideration
given to program obligations (specifically undelivered orders and delivered orders-unpaid). As such,
the e-Funds system does not provide the necessary management information to determine the true
status of net available program resources as disbursements are made.

During fiscal year 2006 CCC took additional steps to improve its manual processes to monitor funds
control. These steps included the documentation of management’s analysis of CCC’s programs by
funding type and obligation category, which allowed management to zero in on the funds control
process for apportioned programs and non-apportioned programs with spending limits. CCC also
documented guidance on how to account for obligations and accruals at the program category
(PCAT) level in the Obligations and Accruals Guidance Report (OAGR). In accordance with this
guidance, CCC implemented the following main manual controls to compensate for the lack of
integrated financial systems and processes related to monitoring and controlling net budgetary
resources:

x   The Program Account Analysis (PAA), which designates accountants who periodically (i.e.,
    monthly) monitor obligations for specific programs, subject to management review and approval.

x   The Monthly Reporting/Oversight module of the Financial Reporting Tool, which generates
    monthly reports, such as the Obligations Report, Undelivered Orders Aging Report, Budget
    Execution Report, designed to illustrate the obligated and unobligated balance at the PCAT level
    and monitor obligations, accruals, and disbursements. These controls are also subject to
    management review and approval.

While these manual controls help mitigate the risk of financial statement misstatement, they do not
fully address the risks arising from the lack of an integrated obligation and disbursement system
related to funds control. The enhanced control procedures documented above consist of after-the-fact
manual journal entries, reviews, and reconciliations and therefore would not be able to achieve

                                             1-6                                        (Continued)
                                                                                                  Exhibit 1
                             U.S. DEPARTMENT OF AGRICULTURE –
                             COMMODITY CREDIT CORPORATION
                                           Material Weaknesses



      proper funds control. Due to the fact that obligation information for CCC’s apportioned programs
      and non-apportioned programs with spending limits is not readily available to allow for a timely
      analysis of available program funding, there still remains a significant risk that funds could be
      disbursed or obligations and liabilities incurred with no or insufficient budget authority to fund the
      expense, obligation, or liability.

      Funds control is a vital component of any Federal government operation. It requires that an
      obligation be recorded prior to the disbursement of funds. In addition, the Anti-Deficiency Act
      (ADA) provides that an office or employee of the United States Government may not (a) make or
      authorize an expenditure or obligation exceeding an amount available in an appropriation or fund for
      the expenditure or obligation; or (b) involve the government in a contract or obligation for the
      payment of money before an appropriation is made, unless authorized by law. Section 1517a.2 of
      this Act further provides that an agency may not exceed the available amount of an administrative
      subdivision officially directed by the agency. The success of properly implementing and executing
      these requirements is dependent on the effectiveness of an agency’s funds control mechanism. In
      accordance with Part 4 of OMB Circular No. A-11, Instructions on Budget Execution, the purpose of
      funds control is to:

      x   Restrict both obligations and expenditures from each appropriation or fund account to the lower
          of the amount apportioned by OMB or the amount available for obligation and/or expenditure in
          the appropriation or fund account.
      x   Enable management to identify the person responsible for any obligation or expenditure
          exceeding the amount available in the appropriation or fund account, the OMB apportionment or
          reapportionment, the allotments of sub-allotments made by the agency, and statutory limitations
          or any other administrative sub-division of funds made by CCC.
      Based on our fiscal year 2006 audit results, CCC continues to experience significant funds control
      deficiencies and in this regard remains noncompliant with FFMIA.

      Recommendation

      We continue to recommend the need for CCC to further improve its system functionality regarding
      funds control as stated in our fiscal year 2003 report, recommendation no. 13 and in our fiscal year
      2005 report, recommendation no. 12.

(3)   Improvement Needed in Financial Accounting and Reporting Policies and Procedures
      CCC’s financial accounting and reporting policies and procedures should be strengthened to ensure
      that errors are prevented or identified and corrected timely and the management prepared financial
      statements are in accordance with U.S. generally accepted accounting principles. The issues we
      identified pertaining to CCC’s financial accounting and reporting policies and procedures affect both
      the form and content of CCC’s financial statements, as described below. The final September 30,
      2006 financial statements issued by CCC included corrections to all issues noted.




                                                   1-7                                         (Continued)
                                                                                             Exhibit 1
                       U.S. DEPARTMENT OF AGRICULTURE –
                       COMMODITY CREDIT CORPORATION
                                     Material Weaknesses



Preparation of the Financial Statements – Implementation of New Reporting Standard

CCC implemented certain provisions of SFFAS No. 29, Heritage Assets and Stewardship Land, and
the fiscal year 2006 reporting changes required by OMB Circular No. A-136. However, the
provisions of SFFAS No. 29 were not incorporated into the draft financial statements until brought to
management’s attention during the audit. Further, the draft financial statements needed to undergo
significant revisions in order to become compliant with the OMB Circular No. A-136 requirements.

Statement of Net Cost – OMB Circular No. A-136 requires agencies to disclose how programs
relate to agency strategic goals. We noted in the June 30 draft statements that the matrix presented by
CCC in the notes showed a comparison of CCC goals to the USDA departmental goals without
discussing programs and it did not support the related Statement of Net Cost. We also noted that
TTPP, an entitlement program implemented to compensate tobacco quota holders and producers for
losses incurred due to the devaluation of their quota assignments upon the termination of the tobacco
price support program, was incorrectly included within the Conserving Natural Resources and
Enhancing the Environment strategic goal. The same issues were also noted during our initial review
of CCC’s draft September 30, 2006 financial statements.

Stewardship Land – the draft June 30 financial statements did not contain information about
stewardship land, as CCC planned to compile that information only at year end. During our review
of the draft September 30 financial statements, we noted that CCC did not comply with Federal
reporting guidelines related to the implementation of SFFAS No. 29 requirements that became
effective in fiscal year 2006. Specifically, the Wetlands Reserve Program continued to be reported as
Required Supplementary Stewardship Information and was not presented as a basic financial
statement note disclosure. Further, the discussion provided did not address how the program relates
to the mission of the entity, nor did it describe the condition of the stewardship land, which is
required supplementary information per SFFAS No. 29.

Preparation of the Financial Statements – Statement of Financing

Our detailed procedures over the June 30, 2006 Statement of Financing (SoF) revealed that the
mapping used by CCC for several SoF reconciling line items was not in accordance with Treasury
and other related guidance, specifically the Implementation Guide to Statement of Financing in
SFFAS No. 7, Accounting for Revenue and Other Financing Sources: Detailed Information on the
Statement of Financing (Implementation Guide), and these departures from the guidance were not
adequately explained.

During our audit of CCC’s SoF as of June 30, 2006, we did not see evidence that management
performed a technical review of the statement compilation or evaluated the substance of the
reconciling items prior to providing the SoF to us for audit. When CCC management determined the
way the general ledger accounts were to be cross walked to the SoF line items, it did not develop an
audit trail that described the rationale behind the mapping logic. In addition, CCC’s SoF
Methodology Guide (the Guide) does not readily consider the technical justification for specific
statement line item treatment of transactions. Further, we noted that CCC’s Guide is not
comprehensive because it does not list all accounts or transaction identification codes that are used


                                             1-8                                          (Continued)
                                                                                               Exhibit 1
                        U.S. DEPARTMENT OF AGRICULTURE –
                        COMMODITY CREDIT CORPORATION
                                      Material Weaknesses



by CCC in the compilation of the SoF. As a result, in some instances we noted inconsistencies
between the Guide and the crosswalk used in the preparation of the SoF.

Our review of the June 30, 2006 SoF revealed the following discrepancies related primarily to
CCC’s Revolving Fund transactions:

x   $108 million in principal collections for short-term non-Credit Reform loans (accounting ID
    F3I5), $125 million in receivable collections arising from ocean freight differential costs
    (accounting ID F5HY), and $174 million in receivable collections arising from overpayment
    activity (accounting ID F5M1) were included on line 16, Other Resources or Adjustments to Net
    Obligated Resources that Do Not Affect Net Cost of Operations, whereas the Implementation
    Guide states that offsetting collection activity that does not affect net cost of operations should be
    recorded on line 14B, Budgetary Offsetting Collections and Receipts that Do Not Affect Net Cost
    of Operations.

x   $3.8 billion in principal loan collections for short-term non-Credit Reform loans (accounting ID
    F540) was included on line 15, Resources that Finance the Acquisition of Assets, whereas the
    Implementation Guide states that offsetting collection activity that does not affect net cost of
    operations should be recorded on line 14B, Budgetary Offsetting Collections and Receipts that
    Do Not Affect Net Cost of Operations. Further, $1.1 billion in transactions were included on line
    15 at a time when all assets acquired by CCC on behalf of other Federal agencies are not CCC
    assets, but simply reduce CCC’s custodial liability to these other agencies.

x   $140 million in accrued interest for Credit Reform funds (accounting ID F828) was included on
    line 25, Depreciation and Amortization, whereas the Implementation Guide states that increases
    in receivables for exchange revenue from the public over the reporting period should be recorded
    on line 22, Increase in Exchange Revenue Receivable from the Public.

Based on the results of our audit procedures over the SoF, CCC reclassified balances in excess of
$6.3 billion to properly reflect the account activity in the SoF prepared as of September 30, 2006. In
addition, corrections in the amount of approximately $5 billion were made to the SoF as late as
November 10, 2006.

Preparation of the Financial Statements – Disclosures Related to the Statement of Budgetary
Resources

The reconciliation of the 2005 Statement of Budgetary Resources to the President’s Program and
Financing Schedule (P&F) is a material component of note 16, Disclosures Related to the Statement
of Budgetary Resources. During our interim test work over this reconciliation, we noted that CCC
had presented a variance analysis that did not properly calculate or identify the portion of difference
resulting from reporting requirements. Per Section 9.33 of OMB Circular No. A-136, legitimate
reasons for differences could exist and this disclosure should be provided when comparable line
items differ between the P&F and the Statement of Budgetary Resources. We further noted that
certain explanations for the differences between the Statement of Budgetary Resources and the P&F
were inaccurate and unsupported.


                                               1-9                                           (Continued)
                                                                                            Exhibit 1
                       U.S. DEPARTMENT OF AGRICULTURE –
                       COMMODITY CREDIT CORPORATION
                                     Material Weaknesses



Given the issues noted in our review of CCC’s draft financial statements and related notes as well as
the SoF in fiscal year 2006, it does not appear that an effective technical review is being performed
prior to the distribution of the financial statements outside the Financial Management Division
(FMD).

Expense Accruals and Liquidation of Obligations for Producer Payment Programs

During fiscal year 2006, CCC documented its overall policies and procedures related to producer
payment program obligations and accruals by major program category, which also included a
discussion at the program level. We also noted an attempt to enhance the level of analysis performed
at the program level for many active programs. The documentation used to record producer payment
program accruals and liquidate related undelivered orders indicated supervisory review and approval;
however, we determined that a significant adjustment still needed to be made, as follows:

x   At September 30, 2006, we noted that CCC incorrectly accrued $1.483 billion for
    Counter-Cyclical Program (CCP) payments expected to be made in fiscal year 2007 related to
    the 2006 program year. Since these disbursements will occur in three installments based on
    timetables set by statute, CCC agreed that at September 30 it should only accrue for the first
    installment expected to be disbursed in the following fiscal year, which amounts to
    approximately 35% of the total annual expected payment. Thus, the accrual for the 2006 CCP
    was overstated by approximately $964 million and an audit adjustment was proposed to correct
    the amount initially reported.

The overstatement results because there was not an adequate analytical review performed by
management to evaluate the reasonableness of the amounts recorded.

Allowances for Loan Losses

CCC utilizes the expertise of FSA economists to determine the net realizable value of its outstanding
commodity loans. These individuals develop the net realizable values based on the loan redemption
for each outlet (i.e., forfeiture, repayment at market value for less than the loan principal, or full
repayment) or inventory disposition for each outlet (i.e., sale, donation, or destruction), and submit
this information to FMD by completing Form CCC-277, Allowance for Losses Report. During the
fourth quarter of fiscal year 2006, CCC improved two aspects of the loan allowance calculation
process by introducing a second level review and by improving the timeliness of information used in
recording general ledger amounts. First, after the preparer completes the CCC-277 forms, a second
economist reviews, dates, and signs the forms prior to submission to FMD. Second, the
September 30, 2006 allowance for loan losses was developed using general ledger data through
September 27, 2006. In prior periods, the economists developed the estimate using general ledger
data one month prior to the reporting month. Despite these improvements to the process, more needs
to be done to ensure reasonableness of the loan allowance estimates with respect to methodology.

CCC’s methodology of accounting for anticipated loan collateral forfeitures does not account for the
net realizable market value of forfeitures. Loan collateral forfeitures become part of CCC’s inventory
and, as such, may be sold or donated. If forfeitures are likely to be sold, they should be assigned a
non-zero unit rate, as all or a portion of the loan redemption loss may be recovered. Of the estimated

                                             1-10                                        (Continued)
                                                                                               Exhibit 1
                        U.S. DEPARTMENT OF AGRICULTURE –
                        COMMODITY CREDIT CORPORATION
                                      Material Weaknesses



loss of approximately $123 million recorded by CCC related to commodity loans outstanding at
June 30, 2006, approximately $108 million related to expected loan forfeitures. Approximately
$105 million of this amount related exclusively to expected peanut loan forfeitures and CCC
assigned a net realizable unit rate of zero to the peanut inventory without evaluating whether the
acquired inventory could be sold.

Similarly, approximately $58 million of the estimated loss recorded by CCC at September 30, 2006
related to anticipated loan collateral forfeitures. CCC assigned a net realizable unit rate of zero to the
commodities expected to be received into inventory without evaluating whether the acquired
inventory could be sold. The analysis we performed by taking into account the disposition outlet for
the commodities expected to be forfeited (peanuts, upland cotton, and soybeans) indicated that the
amount of overstatement ranged from $2 million (if all three commodities would be donated) to
$50 million (if all the commodities were sold). Given the sensitivity of the estimated loss to the
disposition outlet, we proposed an audit adjustment in the amount of approximately $26 million (the
midpoint of the range) to decrease the allowance for loan losses in order to account for the estimated
value of loan collateral expected to be acquired in inventory. Given the overall significance of the
allowance amounts to CCC’s consolidated financial statements, a significant risk of misstatement
related to the net commodity loans consolidated financial statement line item continues to exist due
to weaknesses identified.

Accounting Treatment of the Tobacco Transition Payments Program

As noted in the 2005 audit report, FMD management inappropriately applied certain accounting
standards related to TTPP. This program was implemented towards the end of fiscal year 2005 and,
with a magnitude of approximately $10 billion, was and continues to be significant to CCC’s
financial statements. This program is also complex due to its funding mechanisms and the fact that it
is accounted for in two separate Treasury fund symbols. During the fiscal year 2006 interim audit
procedures, we requested to review the posting models established and used by CCC to record the
business events for this program as well as the accounting entries that were posted to the general
ledger. However, the Accounting Memos (the formal documents used by CCC to document the
accounting policies and related posting models) provided were not up-to-date. Based on our review
of the Accounting Memos and the entries that were recorded in the general ledger, we concluded that
the posting models used during the year were not adequate to properly reflect the business events
related to TTPP as evidenced by multiple correcting entries recorded by CCC at year end to align the
balances in the two Treasury fund symbols. A proper posting model developed when the program
was first implemented would have eliminated the need for multiple manual correcting entries at year
end.

At the same time we were performing our independent review of the tobacco program
documentation, CCC management developed new posting models for the program based on business
events and recorded multiple adjusting entries to properly state the general ledger balances at
September 30, 2006. However, management did not perform an analytical analysis of the program
general ledger balances to determine their reasonableness. As a result, we proposed an audit
adjustment in the amount of approximately $226 million to properly state the receivable from the
tobacco industry for losses incurred by CCC in fiscal years 2005 and 2006.

                                               1-11                                          (Continued)
                                                                                             Exhibit 1
                        U.S. DEPARTMENT OF AGRICULTURE –
                        COMMODITY CREDIT CORPORATION
                                     Material Weaknesses



Recommendations

In addition to recommendation 14 from our fiscal year 2005 report, we also recommend that CCC
management:

7. Improve its policies and procedures regarding monitoring and implementation of new accounting
   and reporting standards. To this end, management should take steps to (i) monitor annually
   changes in authoritative requirements/guidance and (ii) implement a formalized process to be
   used internally to evaluate and document technical accounting issues and to discuss financial
   statement implications for both financial statement captions and related note disclosures.

8. Assess the overall process used to compile and review the financial statements and note
   disclosures in order to identify an effective review technique that incorporates analytical reviews
   and provides for a more efficient, accurate, and consistent financial reporting process.

9. Establish policies and procedures to require the periodic evaluation and refinement of the
   methodology used to estimate loss reserves. To this end, we recommend that management
   (i) revise the current methodology of accounting for anticipated loan collateral forfeitures to
   recognize that these commodities may be sold and quantify the related financial effect
   accordingly and (ii) perform an after-the-fact reasonableness analysis to determine whether the
   allowances estimated and recorded in the prior period were reasonable based on losses that
   occurred during the subsequent periods.

10. Enhance the formalized policies and procedures specific to each producer payment program to
    specifically describe the (i) mechanics of the accrual calculation and (ii) key program expense
    drivers that should be evaluated when performing the final program accrual analytical review
    (such as program disbursement timetables, program software changes, market trends, enrollment
    data, etc.). Further, review prior year’s list of post closing adjusting journal entries and audit
    differences to ensure that all issues identified in the prior year are corrected in the current year
    prior to closing.

11. Redefine the Accounting Requirements Memo preparation process to state the specific
    authoritative guidance (e.g., Treasury Financial Manual model entries) used in developing
    accounting requirements and general ledger posting models. Where applicable, update the
    Accounting Requirement Memos in a timely manner to ensure proper recording of business
    events throughout the year. If a program impacts more than one Treasury fund symbol, the
    Accounting Requirement Memos for the program should specifically describe the impact that
    each business event has on all impacted funds, as well as the interfund elimination entries that
    need to be recorded for consolidation purposes.

12. Ensure that personnel with financial accounting and reporting responsibilities related to the areas
    noted above attend specified training to gain or maintain the skills necessary for properly
    discharging their job responsibilities. This training should relate to selected technical topics
    specific to CCC and all new or upcoming accounting and reporting standards.



                                              1-12
                                                                                                  Exhibit 2
                             U.S. DEPARTMENT OF AGRICULTURE –
                             COMMODITY CREDIT CORPORATION
                                          Reportable Conditions



      The reportable conditions we identified as of and for the year ended September 30, 2006, are
      summarized below:

(4)   Improvement Needed in Producer Monitoring Procedures

      As noted in the previous year, producer monitoring procedures need improvement. Compliance with
      CCC’s producer monitoring requirements is necessary to deter program abuse and possible
      fraudulent actions committed against Federal resources.

      In accordance with CCC’s policies and procedures, benefit payments made to producers for loans
      and Loan Deficiency Payments (LDPs) may be based on the producer’s certification of the
      underlying production quantities. The certified amount is subject to evaluation by the county office
      personnel, who must determine the maximum eligible quantity of production based on the yield
      determinations made by the County Office Committee (COC) and the producer’s reported acreage.
      CCC policies require that county office personnel not allow the producer to receive a loan based on
      quantities in excess of 110% of the maximum eligible quantity, unless the COC reviews and
      approves the transaction. During the fiscal year 2006 site visits, we noted that for 3 of the 96 loans
      reviewed and 2 of the 107 LDPs reviewed, the producer’s underlying collateral exceeded the
      maximum eligible quantity of production and the benefit payment was made for the full amount
      claimed without prior COC approval. In addition, for 2 of the 12 counties reviewed, we did not see
      evidence that county office personnel reviewed the reasonableness of the producers’ collateral in
      light of the remaining eligible production prior to making loan and LDP disbursements. Three of the
      12 counties reviewed did not perform the required due diligence necessary to ensure that the eligible
      acreage entered in the system was supported by signed producer certifications or represented the
      most recent information available. For 1 of the 12 counties reviewed, we noted that the system did
      not appropriately add the producer’s acreage allocated to the planted commodities; therefore, the
      information that was used to perform the producers’ maximum production reasonableness analysis
      was not accurate. For 3 of the 12 counties reviewed, we noted that county office personnel did not
      appropriately update the yield determinations made by the COC; therefore, the information that was
      used to perform the producers’ maximum production reasonableness analysis was not accurate.

      In addition, the county offices must make production spot checks of randomly selected farm-stored
      loans and certified LDPs on a monthly basis and gather adequate production evidence. Adequate
      documentation must be maintained by the county office to support the spot check results. During our
      audit we noted that field office personnel did not always comply with these requirements. The results
      of our audit procedures determined that (1) 5 of the 12 county offices reviewed did not perform the
      production spot checks on a monthly basis; (2) in 3 of the 12 county offices reviewed, the producers
      selected for spot checks did not provide production evidence within nine months of the disbursement
      date and county office personnel did not take appropriate follow-up action or the production
      evidence obtained was not adequate; and (3) in 2 of the 12 county offices reviewed, there was no
      documentation evidencing that the county office staff or County Executive Director reviewed the
      spot check measurements performed to determine whether each loan or LDP listed was supported by
      sufficient production evidence.




                                                   2-1                                         (Continued)
                                                                                                 Exhibit 2
                             U.S. DEPARTMENT OF AGRICULTURE –
                             COMMODITY CREDIT CORPORATION
                                          Reportable Conditions



      There is an increased risk of making improper payments if county office personnel do not perform
      the required producer monitoring eligibility procedures. Also, if collateral reported by producers is
      not properly verified, there is a risk that loans will not be adequately collateralized, which may
      expose CCC to losses not supported by statutory requirements.
      Recommendations
      We continue to make recommendations 10, 11, and 12 from our fiscal year 2004 audit report.

(5)   Improvement Needed in Management’s Review Procedures Related to the Development,
      Implementation, and Maintenance of Credit Reform Cash Flow Models

      During fiscal year 2006, USDA OCFO created the Configuration Control Board (CCB or the Board)
      to lead the USDA’s annual credit reform model change procedures. The CCB consists of
      representatives from Accounting, Budget Division (BD), and OCFO. The CCB has established
      policies that require cash flow model changes proposed by USDA agencies to first be approved by
      the Board before the changes are implemented. We consider the creation of the CCB a significant
      improvement towards ensuring the quality and reasonableness of USDA agencies’ cash flow model.
      However, through our review of the cash flow model change control process, we noted additional
      opportunities for CCC to improve its review and approval process similar to those noted in fiscal
      year 2005.

      For instance, in fiscal year 2006, the CCB approved a series of changes for the CCC credit reform
      models for both the PL 480 and GSM programs. During our review of CCC’s model changes we
      noted issues related to the newly developed methodology for calculating PL 480 prepayments, a
      suggested modification that was identified during last year’s audit. As we reviewed the changes to
      the model, we noted conceptual issues with the model’s calculation of prepayments under very
      specific conditions in which the models were incorrectly calculating prepayments, default amounts,
      or offsetting entries. This issue is best illustrated by the example of a country which makes a
      payment that exceeds the total amount it owes. Although the model accurately identifies this as a
      prepayment, it does not create the correct offsetting and default entries for the years after the
      prepayment. In the example used, there should be no defaults in the years after the prepayment
      occurs because all the scheduled payments for the out years are prepaid. However, the PL 480 model
      applies its standard method to calculate defaults, thereby creating positive defaults (credits) for
      future years. As another example, the PL 480 model does not always accurately calculate
      prepayments when there are multiple prepayments occurring in non-consecutive periods. The dollar
      value of the misstatements caused by the above issues was immaterial with respect to the overall
      prepayments.

      The cash flow model changes noted above involved multiple steps. For example, changing the way
      prepayments were calculated required modifications of two macros and ten queries. According to
      BD personnel, the implementation of the model changes was performed by contractor support
      personnel and reviewed by analysts assigned to the programs, by the section head of Credit
      Programs, the CCB and the Director of the Budget Division. However, these reviews were not
      properly documented and the testwork was not sufficient enough to identify the issues noted above.
      Furthermore, BD does not have personnel with the technical expertise to properly asses and review

                                                   2-2                                        (Continued)
                                                                                             Exhibit 2
                        U.S. DEPARTMENT OF AGRICULTURE –
                        COMMODITY CREDIT CORPORATION
                                     Reportable Conditions



the implementation of changes to the cash flow models and as such a technical review of the model
changes by personnel within the BD is not practical.

Technical Release No. 6, Preparing Estimates for Direct Loan and Loan Guarantee Subsidies,
January 2004, paragraph 40 states:

“The cash flow estimation process, including all underlying assumptions, should be reviewed and
approved at the appropriate level including revisions and updates to the original model. Cash flow
models should be tested for reliability as part of the approval process by comparing estimated cash
flows to actual cash flows and assessing the model’s ability to replicate a credit program’s
performance.”

USDA’s Creating and Modifying Credit Reform Cash Flow Model, Discussion Draft, Version 1.1,
December 2005, Section 6 Testing states:

“The completed model will be provided to the end user for testing. The model should be tested for
both re-estimate and formulation. The end users will advise the configuration control board whether
the new or revised model should be accepted.”

As noted above, CCC through the CCB has not included in its Section 6 discussion draft policies that
require agency personnel to observe a proper segregation of duties during the change process. As
such, there is no requirement that personnel separate from those responsible for the oversight of
contractors making changes to the models are required to review, test, and approve implemented
changes. In addition, we noted that although end user personnel are required to report to the CCB
that changes were made to the models, the policies are not adequate in that they do not require
agency personnel to provide evidence that changes were independently tested and reviewed and that
the end user has approved the final model version.

The lack of policies requiring a proper segregation of duties during the change process increases the
risk that errors in the models will exist and not be detected by agency personnel. In addition a lack of
a policy requiring agency personnel to report change testing results to the CCB reduces the oversight
capabilities of the Board thereby reducing its effectiveness. As a result, there is an increased risk of
material misstatement to the financial statements and related disclosures.


Recommendations

We recommend that:

13. The BD and the CCB ensure that a thorough analysis of the functionality and results of the cash
    flow models is performed once implementation of changes to the models is completed. Such
    analysis should be performed by cash flow model specialists in conjunction with CCC’s budget
    analysts and financial management personnel.




                                              2-3                                          (Continued)
                                                                                Exhibit 2
                    U.S. DEPARTMENT OF AGRICULTURE –
                    COMMODITY CREDIT CORPORATION
                               Reportable Conditions



14. The test and review results should be communicated to the CCB and accompanied by the
    documentation evidencing that the proper reviews were performed and the related model
    documentation is complete.




                                        2-4                                   (Continued)
                                                                                                      Exhibit 3
                               U.S. DEPARTMENT OF AGRICULTURE –
                               COMMODITY CREDIT CORPORATION
                            Status of Prior Year Noncompliance and Other Matters


                                            Year First Reported
         Fiscal Year 2005 Finding                                           Fiscal Year 2006 Status
                                                by KPMG

Federal Information Systems                        2002           During fiscal year 2006 FSA/CCC took
Management Act (FISMA) – FSA/CCC                                  several actions to address prior year’s
needs to improve its level of compliance                          information security and contingency
with FISMA by implementing additional                             planning weaknesses. For example,
controls and processes supporting its                             FSA/CCC:
entity-wide security and contingency
                                                                  x   Revised the current mainframe change
planning programs.
                                                                      control document, 14-ADM;
                                                                  x   Implemented supervisory review of the
                                                                      Guarantee Sales Manager (GSM) user
                                                                      community;
                                                                  x   Continued updating security risk
                                                                      assessments for key applications;
                                                                  x   Implemented a security and awareness
                                                                      training tracking mechanism; and
                                                                  x   Updated domain password settings to
                                                                      adhere to internal policy requirements.

                                                                  However, additional weaknesses were
                                                                  identified in the areas of the information
                                                                  security program management, technical
                                                                  security access controls, software
                                                                  change/configuration management, and
                                                                  end-user computing.

                                                                  Therefore, in fiscal year 2006 the
                                                                  presentation of the issue was modified to
                                                                  reflect current year operations and
                                                                  continues to be reported as noncompliance
                                                                  with FISMA.




                                                    3-1                                             (Continued)
                                                                                                       Exhibit 3
                                U.S. DEPARTMENT OF AGRICULTURE –
                                COMMODITY CREDIT CORPORATION
                            Status of Prior Year Noncompliance and Other Matters


                                             Year First Reported
         Fiscal Year 2005 Finding                                            Fiscal Year 2006 Status
                                                 by KPMG

Federal Financial Management                        2002           During fiscal year 2006, CCC implemented
Improvement Act of 1996 (FFMIA) –                                  corrective actions to improve controls and
CCC was not in substantial compliance                              processes supporting its financial
with OMB Bulletin No. 01-02 (currently                             processing environment. For example, CCC
OMB Bulletin No. 06-03) and FFMIA as                               implemented several new systems aimed at
follows:                                                           automating previously manual processes. It
                                                                   also implemented manual controls related
x   Information security controls and                              to the recording of obligations. As such,
    contingency planning capabilities in                           CCC is currently in substantial compliance
    accordance with OMB Circular A-130,                            with the FFMIA requirement that
    Management of Federal Information                              transactions are recorded using the USSGL
    Resources                                                      at the transaction level. However, as
                                                                   reported in the Improvement Needed in
x   Financial systems controls in                                  Financial System Functionality and Funds
    accordance with OMB Circular A-127,                            Control section of Exhibit 1, additional
    Financial Management Systems                                   improvements are still needed to financial
                                                                   system functionality and related processes.
x   Federal accounting standards using the
    USSGL at the transaction level                                 Therefore, in fiscal year 2006 the
                                                                   presentation of the issue was modified to
                                                                   reflect current year operations and
                                                                   continues to be reported as noncompliance
                                                                   with FFMIA.




                                                     3-2
                                                                                                       Exhibit 4
                                  U.S. DEPARTMENT OF AGRICULTURE –
                                  COMMODITY CREDIT CORPORATION
                                    Status of Prior Year Material Weaknesses


       Fiscal Year 2005 Finding           Years Reported by KPMG/Type             Fiscal Year 2006 Status

(1) Improvement needed in                   2002 – Material Weakness       During fiscal year 2006, FSA/CCC
    information security controls                                          took several actions to address prior
                                            2003 – Material Weakness       years’ information security and
                                                                           contingency planning weaknesses.
                                                                           For example, FSA/CCC:
                                            2004 – Material Weakness
                                                                           x   Revised the current mainframe
                                            2005 – Material Weakness           change control document, 14-
                                                                               ADM;
                                            2006 – Material Weakness       x   Implemented supervisory
                                                                               review of the Guarantee Sales
                                                                               Manager (GSM) user
                                                                               community;
                                                                           x   Continued updating security
                                                                               risk assessments for key
                                                                               applications;
                                                                           x   Implemented a security and
                                                                               awareness training tracking
                                                                               mechanism; and
                                                                           x   Updated domain password
                                                                               settings to adhere to internal
                                                                               policy requirements.

                                                                           However, additional weaknesses
                                                                           were identified in the areas of
                                                                           information security program
                                                                           management, technical security
                                                                           access controls, software
                                                                           change/configuration management,
                                                                           and end-user computing.

                                                                           Therefore, in fiscal year 2006 the
                                                                           presentation of the issue was
                                                                           modified to reflect current year
                                                                           operations and continues to be
                                                                           reported as a material weakness, as
                                                                           well as noncompliance with the
                                                                           Federal Information Security
                                                                           Management Act of 2002 (FISMA).



                                                      4-1                                           (Continued)
                                                                                                    Exhibit 4
                                 U.S. DEPARTMENT OF AGRICULTURE –
                                 COMMODITY CREDIT CORPORATION
                                   Status of Prior Year Material Weaknesses


      Fiscal Year 2005 Finding           Years Reported by KPMG/Type            Fiscal Year 2006 Status

2) Improvement needed in financial         2002 – Material Weakness       CCC implemented several
   system functionality and related                                       corrective actions to improve
   processes                               2003 – Material Weakness       controls and processes supporting
                                                                          its financial systems during fiscal
                                                                          year 2006. For example, CCC
                                           2004 – Material Weakness
                                                                          implemented several new systems
                                                                          aimed at automating previously
                                           2005 – Material Weakness       manual processes. It also
                                                                          implemented manual controls
                                           2006 – Material Weakness       related to the recording of
                                                                          obligations. As such, CCC is
                                                                          currently in substantial compliance
                                                                          with the FFMIA requirement that
                                                                          transactions are recorded using the
                                                                          USSGL at the transaction level.
                                                                          However, as in prior year’s audit,
                                                                          we again noted that additional
                                                                          improvements are still needed with
                                                                          regards to financial system
                                                                          functionality and related processes.
                                                                          For example, CCC does not have a
                                                                          completely integrated obligation
                                                                          and disbursement system to track
                                                                          and govern the status of obligations
                                                                          and administrative limitations
                                                                          established by legislation or agency
                                                                          policy, and its funds control
                                                                          processes are dependent upon
                                                                          manual controls that require further
                                                                          enhancements to be effective.

                                                                          Therefore, in fiscal year 2006 the
                                                                          presentation of the issue was
                                                                          modified to reflect current year
                                                                          operations and continues to be
                                                                          reported as a material weakness and
                                                                          noncompliance with the Federal
                                                                          Financial Management
                                                                          Improvement Act of 1996 (FFMIA)
                                                                          related to the financial management
                                                                          system requirements.



                                                     4-2                                          (Continued)
                                                                                                     Exhibit 4
                                 U.S. DEPARTMENT OF AGRICULTURE –
                                 COMMODITY CREDIT CORPORATION
                                   Status of Prior Year Material Weaknesses


      Fiscal Year 2005 Finding           Years Reported by KPMG/Type            Fiscal Year 2006 Status

(3) Improvement needed over the            2002 – Material Weakness       In prior years we reported that CCC
    budget execution process                                              does not have a collection of
                                           2003 – Material Weakness       financial systems that allows
                                                                          management to monitor and control
                                                                          budgetary events at the transaction
                                           2004 – Material Weakness
                                                                          level and effectively monitor funds
                                                                          controls. Further, we reported
                                           2005 – Material Weakness       several issues related to CCC’s
                                                                          ability to properly record and report
                                           2006 – Material Weakness       certain budgetary transactions.
                                           (related to funds control –
                                          combined with finding no. 2)    In fiscal year 2006, CCC
                                                                          implemented manual controls
                                                                          related to the recording of
                                                                          budgetary transactions that help
                                                                          mitigate the risk of financial
                                                                          statement misstatement. Therefore,
                                                                          we consider the fiscal year 2005
                                                                          finding related to budgetary
                                                                          accounting and reporting closed.

                                                                          Effective funds control is dependent
                                                                          upon systems and the ability to
                                                                          compare program legislative
                                                                          limitations to disbursements made
                                                                          and obligations incurred. The
                                                                          manual controls implemented by
                                                                          CCC do not fully address the risks
                                                                          arising from the lack of an
                                                                          integrated obligation and
                                                                          disbursement system related to
                                                                          funds control. See Exhibit 1 for
                                                                          additional information.

                                                                          Therefore, in fiscal year 2006 the
                                                                          presentation of the funds control
                                                                          issue is combined with the financial
                                                                          system functionality issue into one
                                                                          material weakness reported as
                                                                          “Improvement Needed in Financial
                                                                          System Functionality and Funds
                                                                          Control”.

                                                     4-3                                          (Continued)
                                                                                                     Exhibit 4
                                  U.S. DEPARTMENT OF AGRICULTURE –
                                  COMMODITY CREDIT CORPORATION
                                    Status of Prior Year Material Weaknesses


       Fiscal Year 2005 Finding           Years Reported by KPMG/Type            Fiscal Year 2006 Status

(4) Improvement needed in financial         2002 – Material Weakness       CCC has taken steps to improve
    accounting and reporting policies                                      financial accounting and reporting
    and procedures                          2003 – Material Weakness       policies and procedures related to
                                                                           all areas, including the recording of
                                                                           program obligation and accrual
                                           2004 – Reportable Condition
                                                                           transactions and the overall
                                                                           financial statement preparation
                                            2005 – Material Weakness       process. However, in fiscal year
                                                                           2006, we continued to note the need
                                            2006 – Material Weakness       for improvement in the overall
                                                                           monitoring and review controls
                                                                           related to the preparation of the
                                                                           financial statements, particularly
                                                                           the Statement of Financing; the
                                                                           methodology for calculating loan
                                                                           allowance reserves; and the
                                                                           accounting treatment of the
                                                                           Tobacco Transition Payments
                                                                           Program. We also noted one
                                                                           instance of ineffective management
                                                                           review controls related to material
                                                                           producer payment accruals.

                                                                           Therefore, in fiscal year 2006 the
                                                                           presentation of the issue was
                                                                           modified to reflect current year
                                                                           operations and continues to be
                                                                           reported as a material weakness and
                                                                           noncompliance with FFMIA related
                                                                           to the applicable Federal accounting
                                                                           standards requirement.




                                                      4-4
                                                                                                   Exhibit 5
                             U.S. DEPARTMENT OF AGRICULTURE –
                             COMMODITY CREDIT CORPORATION
                               Status of Prior Year Reportable Conditions


Fiscal Year 2005 Finding    Years Reported by KPMG/Type                     Fiscal Year 2006 Status

(5) Improvement needed        2004 – Reportable Condition      CCC took steps to improve the
    in producer                                                implementation of its producer monitoring
                              2005 – Reportable Condition
    monitoring procedures                                      procedures. The Electronic Loan Deficiency
                              2006 – Reportable Condition      Payments (e-LDP) system, which in 2006
                                                               became the primary system for disbursing e-
                                                               LDP payments, automatically calculates the
                                                               producer’s remaining eligible production for
                                                               receiving loan and LDP benefits. However,
                                                               during the 2006 site visits, we noted that not
                                                               all the counties visited were appropriately
                                                               using these reports to monitor producers’
                                                               eligibility determinations. Further, some of
                                                               these reports did not accurately reflect the
                                                               producer’s maximum eligible production
                                                               either due to the use of incorrect County
                                                               Office Committe approved yields or crop
                                                               acreage. See Exhibit 2 for additional
                                                               information.
                                                               Therefore, in fiscal year 2006 the presentation
                                                               of the issue continues to be reported as a
                                                               reportable condition.
(6) Improvement needed        2005 – Reportable Condition      During fiscal year 2006, USDA OCFO
    in management’s                                            created the Change Control Board to lead
                              2006 – Reportable Condition
    review procedures                                          USDA’s annual credit reform model change
    related to the                                             procedures and ensure the quality and
    development,                                               reasonableness of USDA agencies’ cash flow
    implementation, and                                        model. However, we noted additional
    maintenance of Credit                                      opportunities for CCC to improve its review
    Reform cash flow                                           and approval process. See Exhibit 2 for
    models                                                     additional information.
                                                               Therefore, in fiscal year 2006 the presentation
                                                               of the issue continues to be reported as a
                                                               reportable condition.




                                                  5-1
United States
Department of
Agriculture

Farm and Foreign    TO:               Wanda Philippi
Agricultural                          Regional Inspector General
Services
                                      Office of the Inspector General
Commodity Credit
Corporation
                                      Mike Lippert
1400 Independence                     Senior Partner
Avenue, SW
Stop 0581                             Kylnveld Peat Marwick Goerdeler (KPMG)
Washington, DC
20250-0560          FROM:             Kristine M. Chadwick
                                      Controller
                                      Commodity Credit Corporation

                    SUBJECT:          Response to the Draft Combined Independent Auditors’ Report on
                                      the Commodity Credit Corporation’s (CCC) Fiscal Years 2006 and
                                      2005 Comparative Financial Statements

                    We have reviewed KPMG’s Draft Combined Independent Auditors’ Report dated
                    November 13, 2006 and generally agree with its content. CCC will develop an
                    implementation plan to address the findings and recommendations identified during the
                    audit. As we consider the required corrective actions, we will continue to work with
                    KPMG and the Office of the Inspector General in identifying the specific actions that
                    will assist us in successfully addressing the recommendations.

                    If you have any questions or require additional information, please contact Elizabeth
                    Russell at (703) 305-1283.
USDA – FARM SERVICE AGENCY
 Commodity Credit Corporation




Consolidated Financial Report


           FY 2006
                                                TABLE OF CONTENTS


Management’s Discussion and Analysis ...............................................................................................2
  Structure of the Commodity Credit Corporation........................................................................... 3
  CCC Program Areas .................................................................................................................... 5
  Future Effects of Demands, Events and Conditions .................................................................... 6
  Financial Highlights...................................................................................................................... 7

Management Controls, Systems, and Compliance with Laws and Regulations .............................10

Improper Payment Improvement Act Compliance ..............................................................................24

Performance Highlights Summary........................................................................................................25

Comprehensive Performance Section .................................................................................................26
  Program Area – Income Support and Disaster Assistance ....................................................... 27
  Program Area – Conservation ................................................................................................... 31
  Program Area – Commodity Operations and Food Aid ............................................................. 34
  Program Area – Market Expansion and Trade Building ............................................................ 37
  Program Area – Export Credit.................................................................................................... 38

Management Summary, Initiatives, Information and Issues…………………………………................40

Financial Section………………………………………………….…………………………………................43
  Financial Statements, Related Notes, and Required
  Supplementary Information




                                                                                                                                                 1
          Management’s Discussion and Analysis
                                            Mission
         The Commodity Credit Corporation (CCC) is a Government-owned and operated entity
         dedicated to:

    x   Stabilizing, supporting, and protecting farm income and prices.
    x   Maintaining balanced and adequate supplies of agricultural commodities and aiding in
        their orderly distribution.
    x   Conservation of soil, air, and water resources and protection and improvement of wildlife
        habitats.
    x   Developing new domestic and foreign markets and marketing facilities for agricultural
        commodities.




               History of the Commodity Credit Corporation
      stablished in 1933, the Commodity Credit Corporation (hereinafter CCC, Agency, or
E     Corporation) is a government-owned corporation within the U.S. Department of Agriculture
      (USDA), created to stabilize, support, and protect farm income and prices. CCC is also the
Federal government’s primary financing arm for many domestic and international agricultural
programs. CCC helps maintain balanced and adequate supplies of agricultural commodities and
aids in their orderly distribution.

CCC helps America’s agricultural producers through commodity and farm storage facility
loans, purchases, and income support payments. CCC works also to make available materials
and facilities required in the production and marketing of agricultural commodities. In addition,
CCC provides incentives and payments to landowners to establish conservation practices on their
land.

CCC provides agricultural commodities to other Federal agencies and foreign governments.
CCC also donates commodities to domestic and international relief agencies as well as foreign
countries. CCC assists in the development of new domestic and foreign markets and marketing
facilities for American agricultural commodities. CCC operates numerous domestic programs,
such as income support, disaster, and conservation programs. It also extends direct credits and
guarantees commodity sales to foreign countries throughout the world.

CCC has its own disbursing authority and utilizes the Federal Reserve Bank system and
United States Treasury to make payments. This disbursing authority allows CCC to make
payments quickly and provide financial support to America’s producers and farmers without
delay. CCC has multiple funding mechanisms. Most of the domestic programs are operated out
of a revolving fund, which has a $30 billion borrowing authority from the Treasury. This fund also
receives money from appropriated funding for costs incurred (i.e., realized losses), loan
repayments, inventory sales, interest income, and fees. Additionally, CCC receives direct
appropriations for specific programs, such as its Credit Reform programs, foreign grant and
donation programs, and disaster relief.


                                                                                                     2
                                     Commodity Credit Corporation
                                     Consolidated Financial Report
                                  Management’s Discussion and Analysis



                Structure of the Commodity Credit Corporation
A Board of Directors manages CCC, subject to the general supervision and direction of the
Secretary of Agriculture, who is an ex officio director and chairperson of the Board. The Board
consists of seven members, in addition to the Secretary. The President of the United States, with
the advice and consent of the Senate, appoints the board members to office. The members of
the Board and the Corporation’s officers are officials of USDA. CCC officers, directly or through
officials of designated USDA agencies, maintain liaison with numerous other governmental and
private trade operations1.

CCC has no actual employees; it carries out the majority of its programs through the personnel
and facilities of the Farm Service Agency (FSA) as well as other USDA agencies. Most of CCC’s
programs are delivered through an extensive nationwide network of FSA field offices, including
approximately 2,400 USDA Service Centers and 51 State offices (including Puerto Rico). This
network enables CCC to maintain a close relationship with customers, successfully addressing
their needs and continually improving program delivery.

Though FSA provides the staff for CCC, there are several CCC funded programs that fall under
the Foreign Agricultural Service (FAS) or Natural Resources Conservation Service (NRCS). FAS
has the primary responsibility for USDA’s international activities—market development, trade
agreements and negotiations, and the collection and analysis of statistics and market information.
It also administers USDA’s export credit guarantee and food aid programs, and helps increase
income and food availability in developing nations by mobilizing expertise for agriculturally led
economic growth.

NRCS is the primary conservation agent for the USDA. NRCS provides leadership in a
partnership effort to help America's private land owners and managers conserve their soil, water,
and other natural resources. NRCS provides financial assistance for many conservation activities.
NRCS reaches out to all segments of the agricultural community, including underserved and
socially disadvantaged farmers and ranchers to ensure that CCC’s programs and services are
accessible to everyone.




1
  As required by 5 U.S.C. 552 b (j), by filing this report, CCC is notifying the Congress of the United States that the CCC
Board did not hold any open or closed meetings this fiscal year. Additionally, there was no litigation brought against the
Board under the Government in the Sunshine Act this year. Similarly, there are no changes in policies or statutes
requiring notification under this subsection.

                                                                                                                         3
                            Commodity Credit Corporation
                            Consolidated Financial Report
                         Management’s Discussion and Analysis
                             CCC Board of Directors
Chairperson, Michael O. Johanns Secretary of Agriculture
Vice Chairperson, Charles F. Connor, Deputy Secretary of Agriculture
Member, Vacant, Under Secretary, Farm and Foreign Agricultural Services (FFAS)
Member, Thomas C. Dorr, Under Secretary, Rural Development (RD)
Member, Nancy Montanez-Johner, Under Secretary, Food, Nutrition, and Consumer Services
(FNCS)
Member, Charles R. Christopherson Jr., Chief Financial Officer, USDA
Member, Bruce I. Knight, Under Secretary, Marketing and Regulatory Programs (MRP)
Member, Mark E. Rey, Under Secretary, Natural Resources and Environment (NRE)

                                       CCC Officers

President, Floyd D. Gaibler, Acting Under Secretary, FFAS, USDA
Executive Vice President, Teresa C. Lasseter Administrator, Farm Service Agency (FSA)
Vice President, Glen L. Keppy, Associate Administrator, Programs, FSA
Vice President, Thomas B. Hofeller, Associate Administrator, Operations and Management, FSA
Vice President, Lloyd C. Day Administrator, Agricultural Marketing Service
Vice President, Michael W. Yost, Administrator, Foreign Agricultural Service (FAS)
Vice President, W. Kirk Miller, General Sales Manager, FAS
Vice President, Roberto Salazar, Administrator, Food and Nutrition Service
Vice President, Arlen Lancaster, Chief, Natural Resources Conservation Service (NRCS)
Deputy Vice President, Candace Thompson, Acting Deputy Administrator for Commodity
Operations, FSA
Deputy Vice President, John W. Willliams, Deputy Administrator for Management, FSA
Deputy Vice President, John A. Johnson, Deputy Administrator for Farm Programs, FSA
Deputy Vice President, Steven A. Connelly, Deputy Administrator, Field Operations, FSA
Deputy Vice President, Joy Harwood, Director, Economic & Policy Analysis Staff, FSA
Deputy Vice President, Dana D. York, Associate Chief, NRCS
Deputy Vice President, Thomas Christensen, Deputy Chief, Programs, NRCS
Deputy Vice President, Kevin J. Brown, Deputy Chief, Management, NRCS
Secretary, Steven N. Mikkelsen, Acting Executive Assistant to the Administrator, FSA
Deputy Secretary, Vacant, FSA
Assistant Secretary, Monique B. Randolph, Staff Assistant, FSA
Controller, Kristine M. Chadwick, Director, Financial Management Division (FMD), FSA
Treasurer, David Nichols, Deputy Director, FMD, FSA
Chief Accountant, Zayra I. Okrak, Chief, Financial Accounting and Reporting Branch, FMD, FSA

                                       ADVISORS
General Counsel, Marc Kesselman, Office of the General Counsel
Associate General Counsel, Thomas V. Conway, International Affairs, Commodity Programs
and Food Assistance Programs




                                                                                           4
                              Commodity Credit Corporation
                              Consolidated Financial Report
                           Management’s Discussion and Analysis
                                  CCC Program Areas
CCC funds many programs which fall under multiple agencies within the USDA. Each CCC
funded program helps to achieve parts of both the CCC mission and the strategic plan of the
agency under which the program falls. CCC’s mission and agency strategic goals are achieved
through the successful implementation of the following key programs:

x   Income Support and Disaster Assistance – Income support and disaster assistance
    programs provide financial assistance to protect farmers and ranchers from fluctuations in
    market conditions and unexpected natural or man-made disasters. Assistance is provided
    through Income Support programs and the Noninsured Crop Disaster Assistance Program
    (NAP). Assistance is also provided through ad hoc disaster programs that vary from year-to-
    year. FSA is responsible for administering Income Support and Disaster Assistance
    programs. FSA is redesigning the way it interfaces with farmers and producers in its
    traditional “safety net” programs by expanding on-line options while maintaining more
    traditional approaches. This has been a monumental challenge for the Agency. The
    performance discussion will cover the progress of the on-line initiatives.

x   Conservation – Strengthened by the 2002 Farm Bill, conservation programs offer farmers
    and ranchers a variety of financial and economic incentives to conserve natural resources on
    the Nation’s privately owned farmlands. Programs focus on reducing erosion, protecting
    streams and rivers, restoring and establishing fish and wildlife habitats, and improving air
    quality through several conservation incentive payments, technical assistance, and cost-
    share programs.

x   Commodity Operations and Food Aid – Commodity operations programs handle the
    procurement, acquisition, storage, disposition, and distribution of commodities, and the
    administration of the U.S. Warehouse Act (USWA). These programs help achieve domestic
    farm program price support objectives, produce a uniform regulatory system for storing
    agricultural products, and ensure the timely provision of food products for domestic and
    international food assistance programs and market development programs.

x   Market Expansion and Trade Building – Expanding markets for agricultural products is
    critical to the long-term health and prosperity of the U.S. agricultural sector and, with
    96 percent of the world’s population living outside the Unites States, future growth in demand
    for food and agricultural products will occur primarily in overseas markets. FAS’ international
    activities play a critical role in helping to open new markets and in facilitating U.S.
    competitiveness and, by doing so, help to secure a more prosperous future for American
    agriculture. Support for economic development and trade capacity building reinforces these
    efforts by helping developing countries to become economically stable and improve their
    prospects to participate in and benefit from expanding global trade in agricultural products.

x   Export Credit – CCC export credit guarantee programs, administered by FAS in conjunction
    with FSA, provide payment guarantees for the commercial financing of U.S. agricultural
    exports. These programs facilitate exports to buyers in countries where credit is necessary to
    maintain or increase U.S. sales, but where financing may not be available without CCC
    guarantees.




                                                                                                  5
                               Commodity Credit Corporation
                               Consolidated Financial Report
                            Management’s Discussion and Analysis
           Future Effects of Demands, Events and Conditions
Farm Bill Reauthorization – The Farm Bill is the primary instrument that authorizes CCC’s
domestic programs and policy actions. With the 2002 Farm Bill changes implemented, the CCC
and Agencies are focusing attention on the Farm Bill reauthorization expected to take effect in
Fiscal Year (FY) 2007. If the 2002 Farm Bill reauthorization is any indication, the effect of the
Farm Bill reauthorization to the CCC program outlays and Agency business processes and
systems could be significant. The leadership of USDA traveled the country last year to hear the
opinions of producers and other stakeholders on future farm policy in preparation for the Farm Bill
reauthorization. Fifty-two farm bill forums were held throughout the United States, while others
submitted comments through our website and through the mail. The Secretary of the USDA was
very pleased to personally host twenty-one of the forums. All totaled, USDA received more than
4,000 comments throughout this process.

Administrative Resource Constraints and Challenges - Although most CCC program outlays
are mandatory, the salaries and administrative expenses (S&E) for the Agencies responsible for
administering CCC programs are subject to a continuously constrained discretionary spending
environment. The Agencies are under significant pressure to modernize the service delivery
environment in order to provide more flexibility in responding to fluctuations in program demand.
In addition, there has been a recent increased risk of knowledge loss as experienced employees
retire. USDA and CCC are addressing this issue through a series of information technology
modernization initiatives coupled with human capital planning.

Economic Fluctuation and Volatility – Global and domestic economic volatility is causing
corresponding volatility to the CCC program portfolio. An example of this is increased production
by foreign producers, which may lower commodity prices and affect farmers’ and ranchers’ ability
to compete on the international market. Policy changes in foreign countries may create or reduce
trade and non-trade barriers that will affect American producers’ ability to market and sell their
products in overseas markets. The strength of the U.S. dollar relative to other currencies can
also affect the competitiveness of American products in foreign countries.

Additionally, recent high fuel prices affect farmers and ranchers by increasing the prices of inputs
required to produce goods. Increasing energy concerns are projected to have a significant effect
on farm economics, which may stall conservation decision making as implementing new practices
could further decrease farmers’ and ranchers’ bottom line.

Hurricane Katrina – USDA responded and provided assistance to people affected by the
hurricanes that impacted the Gulf Coast in 2005. USDA deployed over 6,000 personnel to provide
meals, housing, debris and animal carcass removal, logistical and technical support, and animal
rescue. Over 10,000 displaced residents were provided housing in USDA financed rural housing
units. More than 23 million pounds of commodities and baby food were provided to the affected
areas. Additional support to farmers is being provided through crop and livestock disaster
payments; watershed and farm clean-up; and the deferment of farm loan payments for one year.

Under the Emergency Conservation Program (ECP), the USDA shares the cost of carrying out
practices to assist and encourage farmers to rehabilitate farmland damaged by natural disasters.
In particular, it addresses those problems which if left untreated would: impair or endanger the
land, materially affect the productive capacity of the land, be so costly to rehabilitate that Federal
assistance would be required to return the land to productive agricultural use; and represent
damage that is unusual and would not recur frequently in the same area. For the past several
years, this program has been funded through emergency supplemental appropriations. The
Hurricane Disaster Assistance Act of 2005 provided $150 million for ECP and the 2006
supplemental appropriation for hurricane assistance provided $199.8 million.




                                                                                                         6
                              Commodity Credit Corporation
                              Consolidated Financial Report
                           Management’s Discussion and Analysis
                                  Financial Highlights
The Corporation’s financial statements report the financial position and results of operations of
CCC pursuant to the requirements of 31 U.S.C. 3515 (b). These statements have been prepared
from the accounting records of the Agency in FY 2006 and 2005 in accordance with generally
accepted accounting principles for Federal entities and policies prescribed in OMB Circular A-
136, Financial Reporting Requirements. The statements are in addition to the external financial
reports used to monitor and control budgetary resources, which are also prepared from CCC’s
general ledger. These financial statements are a component of the U.S. Government’s financial
statements, a sovereign entity. The Agency’s financial statements, which appear in the Financial
Section of this report, received an unqualified audit opinion for the fiscal years ended September
30, 2006 and 2005.

The agency has been committed to implementing the requirements outlined in OMB’s Circular
A-123, Management’s Responsibility for Internal Control, for the fiscal year ending 2006. The
management challenges that were imposed by the implementation are discussed in brief in the
Management Summary, Initiatives, Information and Issues section.

Assets: The Balance Sheet shows the agency had total assets of $16 billion at the end of
FY 2006. This represents a decrease of $3.5 billion (eighteen percent) over the previous year’s
total assets of $19 billion. Receivables decreased by fifteen percent compared to the prior year
due to the collections of $891 million from the tobacco industry, and $313 million related to
overpayments for counter-cyclical advances. Also, CCC received $1.1 billion of prepayments of
foreign loans from Russia during 2006.

                                                                                           %
(In Millions)                                     2006         2005       Variance      Variance
Fund Balance with Treasury                         $1,740      $2,781        -$1,041          -37%
Cash                                                   36          59            -23          -39%
Accounts, Loans & Credit Receivable, Net           13,773      16,253         -2,480          -15%
Inventory                                              55          29             26           90%
Property and Equipment, Net                            52          52
Other Assets                                           33          29              4           14%
Total Assets                                      $15,689     $19,203        -$3,514          -18%

The agency’s Fund Balance with Treasury decreased due to the fact that CCC disbursed more
funds this year for the Direct and Counter Cyclical Payments program and the Loan Deficiency
Payments program.

Liabilities: The agency had total liabilities of $39 billion and $46 billion in FY 2006 and 2005,
respectively. Accounts Payable decreased by eighty-eight percent due to the payable to the
United States Agency for International Development (USAID) being transferred out from CCC in
FY 2006. Half of the agency’s total liabilities at the end of FY 2006 are incurred from borrowings
from the Treasury. CCC may borrow interest-free up to the amount of its unreimbursed realized
losses. Debt to the Treasury decreased by sixteen percent due to the repayments to Treasury of
excess funds in the foreign financing funds. Other Liabilities decreased by eleven percent in FY
2006 due to the return of unused funds to Treasury in Pre-Credit Reform loans and collections in
the Export Guarantee Financing Fund. Further CCC’s liability for the tobacco transition payment
program was reduced by $938 million due to the 2006 program payment.




                                                                                                   7
                                  Commodity Credit Corporation
                                  Consolidated Financial Report
                               Management’s Discussion and Analysis



                                                                                               %
(In Millions)                                      2006        2005           Variance      Variance
Accounts Payable                                     $154       $1,288           -$1,134         -88%
Debt to the Treasury                               19,768       23,426            -3,658         -16%
Credit Guarantee Liabilities                          220          260               -40         -15%
Environmental and Disposal Liabilities                 11           11
Other Liabilities                                  18,668       21,051            -2,383         -11%
Total Liabilities                                 $38,821      $46,036           -$7,215         -16%

Ending Net Position: At the end of FY 2006 and FY 2005, the agency’s net position was
$23 billion and $27 billion, respectively. Net Position is the sum of the Unexpended
Appropriations and Cumulative Results of Operations.

RESULTS OF OPERATIONS

CCC categorizes the net cost of operations based on the agency’s strategic goals. Net cost of
operations is $21 billion and $23 billion at the end of FY 2006 and 2005 respectively. Overall
expenses decreased by twenty-nine percent and revenue decreased by sixty-two percent from
prior year. As shown in the table below, Supporting Productive Farms and Ranches expenses
underlie a majority of the costs in both FY 2006 and 2005. The activity that caused the fluctuation
in the Statement of Net Cost at the end of FY 2006 is from the following strategic goals:

   Supporting Productive Farms and Ranches – The majority of Crop Disaster Program
    payments were paid out or accrued for in late FY 2005, with few expenses incurred in early
    FY 2006. Further, in FY 2006 and there was a decrease in Direct & Counter-Cyclical
    expenses for sorghum, peanuts, upland cotton and rice.

   Supporting Secure and Affordable Food and Fiber – The increase in Net Cost in FY 2006 is
    due to large downward adjustments made in the allowance for inventory losses relating to
    wheat and nonfat dry milk in the prior year.

   Supporting International Economic Development and Trade Capacity Building – The majority
    is due to the revenue decrease in Public Law 480 Title II World Food Program and Voluntary
    Agency Program sales in year 2006.

                                  Summary of Net Cost of Operations
                                          Strategic Goals
                                             (In Millions)
                                                                                               %
                Strategic Goals                   FY 2006      FY 2005         Variance     Variance
Supporting Productive Farms and Ranches            $18,472        $21,887         -$3,415       -16%

Supporting Secure and Affordable Food and Fiber         28             -437          465      >100%

Conserving Natural Resources and Enhancing the
Environment                                          2,331            2,155          176         8%

Supporting International Economic Development
and Trade Capacity Building                            182             -346          528      >100%

Total Net Cost of Operations                       $21,013       $23,259          -$2,246       -10%




                                                                                                  8
                                 Commodity Credit Corporation
                                 Consolidated Financial Report
                              Management’s Discussion and Analysis
                              President’s Management Agenda

In FY 2002 the President laid out a plan to improve management and performance within the
federal government. This plan, the President’s Management Agenda, identified several key areas
where improvement was urgently needed. In order to implement the plan, the President asked
Cabinet Secretaries to designate a chief operating officer to manage the daily activities of
departments and agencies. The President also re-established the President’s Management
Council to support government-wide priorities and centralized management leadership. The table
below shows the CCC’s progress towards “green.”

The Stoplight Scoring System is located at the following internet web address:
www.whitehouse.gov/results/agenda/scorecard.html

The scorecard employs a simple grading system common today in well-run businesses:

    x    Green for success
    x    Yellow for mixed results
    x    Red for unsatisfactory


                                                                    Previous Final
                Initiatives             Self-Score    Final Score                     Status
                                                                        Score
Competitive Sourcing                       N/A           N/A             N/A            N/A
Strategic Management of Human Capital                                                Approved
Financial Management                                                                 Finalizing
E-Government                                          In Progress                    Finalizing
Budget and Performance Integration      In Progress   In Progress                    Self Score
Real Property                                         In Progress                    Finalizing
Improper Payments                       In Progress                                  Self Score
Faith-Based Initiative                     N/A           N/A             N/A            N/A
Research and Development                   N/A           N/A             N/A            N/A
Credit Programs                         In Progress                                  Self Score




                                                                                                  9
                               Commodity Credit Corporation
                               Consolidated Financial Report
                            Management’s Discussion and Analysis


         FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT
                                          OVERVIEW

The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires Federal agencies to
submit an annual report to the President and Congress reflecting the status of management
controls for program, financial, and administrative operations. The CCC FMFIA annual report,
which is a component of the USDA’s Performance and Accountability Report, contains the
Agency material weaknesses and reportable conditions.

In accordance with the requirements of the FMFIA, CCC has evaluated their management
controls for program, financial, and administrative operations as of September 30, 2006.
Although significant improvements were made in FY 2006, the internal controls are not
consistently functioning as intended, accordingly additional actions will be taken in FY 2007.


FY 2006 Results

In FY 2006, CCC achieved full compliance with the new OMB requirements as defined in Circular
A-123, Appendix A (A-123). This was a major undertaking complicated by the number and
complexity of CCC programs and lack of control documentation. In the process, internal controls
over financial reporting were documented, the design of key controls was assessed, the
effectiveness of controls assessed as being properly designed was tested, test results were
documented and evaluated, and corrective action plans (CAP) were developed to remediate
control deficiencies. The assessment covered seven cycles. Over 80 processes within the seven
cycles were assessed. Documentation was prepared, including Inherent Risk Assessments,
Cycle/Process memos, Risk and Control Matrices, Test Plans and Conclusions, Summary of
Aggregated Deficiencies (SAD) and, where applicable, Remediation Summary and CAPs. Over
900 Application Controls and General Computer Controls were documented in the process.

Based on the results of this evaluation, CCC identified four material weaknesses in its internal
control over financial reporting: Information Technology Controls, Funds Control Management,
Financial Reporting, and County Office (CO) Operations. Information Technology Controls,
Funds Control Management, and Financial Reporting are repeat conditions.

Corrective actions were completed in FY 2006 that met substantial compliance requirements with
the USSGL at the transaction level.

Summary of Material Weaknesses

Material Weakness 1: Improvement needed in information security controls

Description: This is a repeat condition under which CCC is collaborating with the Office of the
Chief Information Officer (OCIO) to identify and implement additional improvements needed to
enhance USDA’s general control environment. The complexity and level of effort required to
improve information security controls was greater than anticipated, compelling a revised
completion date. Weaknesses have been identified in information security program
management, technical security access controls, software change/configuration management,
and contingency planning.

Responsible Official: Kristine Chadwick, Controller, CCC; Director, FMD and Steven L.
Sanders, Director, ITSD


                                                                                                   11
                              Commodity Credit Corporation
                              Consolidated Financial Report
                           Management’s Discussion and Analysis



Critical Corrective Action Milestones:

    x   Information security program management

            o   Identify and implement controls to better track security training efforts.
            o   Formalize and better control the process by which employees who no longer
                need access to systems and applications have their access rights
                suspended/removed.
            o   Require periodic management review of AS/400 county office system users’
                access.
            o   Update application risk assessment documentation, and then ensure that the
                documentation is updated at least every three years (or when major system or
                application changes are made), to support CCC’s overall security program.

    x   Technical security access controls

            o   Perform more consistent vulnerability scans on all workstations, servers, routers,
                switches, and printers.
            o   Ensure that remediation controls are timely implemented as security
                vulnerabilities are identified.
            o   Implement additional controls to review access to production libraries, including
                periodic review of accounts by FSA/CCC security administrators, and the
                implementation of a software configuration management tool for the various
                FSA/CCC application platforms.
            o   Require domain and VPN passwords to comply with policy of three invalid
                attempts prior to locking the account (or obtain a waiver to this policy).

    x   Software change/configuration management

            o   Update 14-ADM or an equivalent policy guide to reflect the current IT processing
                environment and CCC’s software change management processes and controls.
            o   Provide training to applicable staff regarding the CCC software change
                management process.

    x   Contingency planning

            o   Update all application contingency plans with testing results, and ensure that the
                plans continue to be updated based on future testing efforts and any relevant IT
                environment changes or business process change.

Estimated Completion Date: FY 2008


Material Weakness 2: Improvement needed in financial system functionality and funds
control

Description: The e-Funds Control system monitors daily program disbursements made at the
state and county offices in summary level, but does not provide the necessary management
information to determine the true status of net available program resources as disbursements are
made. CCC does not fully address the risks arising from lack of an integrated obligation and
disbursement system related to fund control.

                                                                                                12
                             Commodity Credit Corporation
                             Consolidated Financial Report
                          Management’s Discussion and Analysis

Responsible Official: Kristine Chadwick, Controller, CCC; Director, FMD


Critical Corrective Action Milestones:

   x   Develop a fully integrated funds control system within a financial management
       system capable of interfacing with CCC CORE at the transaction level that
       provides management with timely information to periodically monitor and control
       the status of budgetary resources recorded in the general ledger.

   x   Continue with plans to implement additional financial systems and related
       process improvements, most notably in the areas of budgetary and funds control
       and financial accounting and reporting processes.

Estimated Completion Date: FY 2007


Material Weakness 3: Improvement needed in financial accounting and reporting
policies and procedures

Description: CCC’s financial accounting and reporting policies and procedures should
be strengthened to ensure that errors are prevented and corrected on a timely basis.

Responsible Official: Kristine Chadwick, Controller, CCC; Director, FMD

Critical Corrective Action Milestones:

   x   Improve CCC’s policies and procedures in accrual, obligation and implementation of new
       accounting and reporting standards. Formalize the internal review process and
       document technical accounting issues to address financial statement implications.

   x   Assess the overall process in compiling and reviewing the financial statements and note
       disclosures in order to identify an effective review technique that incorporates analytical
       reviews and provides for a more efficient, accurate, and consistent financial reporting
       process.

   x   Develop a formalized process to use in drafting the Statement of Financing (SoF).

   x   Establish policies and procedures to require the periodic evaluation and refinement of the
       methodology used to perform analysis.

   x   Enhance the formalized policies and procedures to describe the mechanics on business
       process and other factors in order to evaluate the final analytical review in program
       performance.

   x   Redefine the Accounting Requirements Memo preparation process.

   x   Ensure proper training in personnel to gain or maintain the skills necessary.

Estimated Completion Date: FY 2007




                                                                                                 13
                            Commodity Credit Corporation
                            Consolidated Financial Report
                        Management’s Discussion and Analysis
Material Weakness 4: Improvement needed in County Office Operations

Description: The risk of potential errors, misuse and fraud identified relative to segregation of
duties and compliance related issues yields more than a remote chance of occurrence within the
distributed nature of the CO operations structure. Moreover, given the size and volume of the
program outlays related to both benefits (such as Direct & Counter Cyclical Payments) and loan
programs (such as MALs and LDPs) administered in the COs, the ability for the limited resources
in these offices to actually detect erroneous transactions resulting from SoD or compliance issues
is a great challenge.

Responsible Official: Kristine Chadwick, Controller, CCC; Director, FMD

Critical Corrective Action Milestones:

    x   Implementing role based security across SCIMS and FS

    x   Implementing compensating controls at COs to allow the function to update producer
        information in the name and address database of record (SCIMS) to remain in the
        individual COs.

    x   Removing management of producer bank account information from the COs and
        centralizing the function outside of payment processing.

    x   Centralizing production of paper checks and removing that function and the associated
        check stock from the COs.

    x   Formalizing internal controls for collections processing for COs with fewer than two
        employees.

    x   Providing training of employees and improving accountability for compliance with
        administrative controls through performance based control testing.

    x   Centralizing password maintenance for the SCOAP system.


Estimated Completion Date: FY 2007




                                                                                                14
                                    Commodity Credit Corporation
                                    Consolidated Financial Report
                                 Management’s Discussion and Analysis




       Commodity Credit Corporation (CCC) and Farm Service
                         Agency (FSA)
                           Fiscal Year 2006 Fourth Quarter Remediation Plan

                                        As of 09/30/2006
Section 1
                                          Areas of Non-Compliance
   No                System Requirements                      Instance                    OIG Report #
   1.1       General System Control Environment Information Security Controls           06401-20-FM


                                             Corrective Actions Planned
                                                           OIG         Target      Revised       Actual
                                                          Audit      Completion   Completion   Completion
               Corrective Action Milestones*              Rec. #        Date         Date        Date
   1.1.1      Improvement needed in information         1-11        FY 2006 Q3    FY 2006
              security controls.                                                  Q4
                                                                                  FY 2007
        This is a repeat condition under which FSA                               Q3
         is collaborating with the OCIO to identify
         and implement additional improvements
         needed to improve USDA’s general control
         environment. The complexity and level of
         effort required to improve information
         security controls is greater than anticipated
         compelling a revised completion date of FY
         2007. This includes the following
         improvements needed in information
         security controls:

             Information security program
              management
             Technical security access controls
             Software change/configuration
              management
             Contingency planning




                                                                                                 15
                                  Commodity Credit Corporation
                                  Consolidated Financial Report
                               Management’s Discussion and Analysis

                                         Corrective Actions Planned
                                                       OIG        Target      Revised       Actual
                                                       Audit    Completion   Completion   Completion
         Corrective Action Milestones*                Rec. #       Date         Date         Date
   Information security program management          1-2, 6, 9 FY 2006       FY 2006 Q4
.                                                               Q3           FY 2007 Q3
       Identify and implement controls to                                                FY 2006 Q3
        better track security training efforts.

       Formalize and better control the                                     FY 2006 Q4   FY 2006 Q4
        process by which employees who no
        longer need access to systems and
        applications have their access rights
        suspended/removed.
                                                                             FY 2006 Q4
       Require periodic management review                                   FY 2007 Q2
        of AS/400 county office system users’
        access.                                                              FY 2006 Q4
                                                                             FY 2007 Q3
       Update application risk assessment
        documentation, and then ensure that
        the documentation is updated at least
        every three years (or when major
        system or application changes are
        made), to support FSA/CCC’s overall
        security program.

The complexity and level of effort involved to
improve information security program
management is greater than anticipated
compelling a revised completion date from
FY 2006 Q3 to FY 2006 Q4 to FY 2007 Q3.
x   Technical security access controls.             3-5, 10   FY 2006        FY 2006 Q4
                                                              Q3             FY 2007 Q1
       Perform more consistent vulnerability                                             FY 2006 Q3
        scans on all workstations, servers,
        routers, switches, and printers.

       Ensure that remediation controls are
        timely implemented as security
        vulnerabilities are identified.                                                   FY 2006 Q3

       Implement additional controls to review
        access to production libraries, including                            FY 2006 Q4
        periodic review of accounts by                                       FY 2007 Q1
        FSA/CCC security administrators, and
        the implementation of a software
        configuration management tool for the
        various FSA/CCC application
        platforms.
                                                                             FY 2006 Q4
       Require domain and VPN passwords to
        comply with policy of three invalid                                               FY 2006 Q4
        attempts prior to locking the account
        (or obtain a waiver to this policy).

                                                                                                   16
                                  Commodity Credit Corporation
                                  Consolidated Financial Report
                               Management’s Discussion and Analysis

                                      Corrective Actions Planned
                                                    OIG        Target      Revised       Actual
                                                    Audit    Completion   Completion   Completion
         Corrective Action Milestones*             Rec. #       Date        Date          Date

The complexity and level of effort involved to
improve technical security access controls is
greater than anticipated compelling a revised
completion date from FY 2006 Q3 to FY 2006
Q4 to FY 2007 Q1.
   Software change/configuration                 7-8      FY 2006                     FY 2006 Q3
    management                                             Q3
                                                                                       FY 2006 Q3
       Update 14-ADM or an equivalent policy
        guide to reflect the current IT
        processing environment and
        FSA/CCC’s software change
        management processes and controls.                                             FY 2006 Q3

      Provide training to applicable staff
       regarding the FSA/CCC software
       change management process.
   Contingency planning                          11       FY 2006                     FY 2006 Q3
                                                           Q3
       Update all application contingency                                             FY 2006 Q3
        plans with testing results, and ensure
        that the plans continue to be updated
        based on future testing efforts and any
        relevant IT environment changes or
        business process change.




                                                                                                17
                                  Commodity Credit Corporation
                                  Consolidated Financial Report
                               Management’s Discussion and Analysis

Discussion Supporting CCC’s Substantial Compliance Position

FMD has re-examined existing policies and analytical procedures in terms of Federal accounting
standards and CCC business practices, and has made the appropriate improvements to these processes
and documentation. Part of this re-examination process included reviewing all programs with
disbursement activity and determining their impact on the obligation and accrual recordation process.
Documented results are at a detailed program roll-up level in the Obligations and Accruals Guidance
Report (OAGR), including the obligation and accrual methodology performed for each program and is
available upon request. The OAGR provides comprehensive procedures and guidance for the following
areas of Budget Execution: budgetary authority, obligations, accruals and disbursements.

In addition, to provide comprehensive documentation of budget execution, the OAGR includes the
standard accounting entries as defined in the Treasury Financial Manual (TFM) or an explanation for
departures from that standard for all entries. One key component of this documentation process is
providing guidance to staff related to the budget execution process. Adhering to these policies and
procedures, in conjunction with monitoring CCC’s program (subsidiary) and financial systems, has
allowed management to control budgetary resources more effectively.

Moreover, FMD completed an assessment of CCC programs, business processes, corresponding
system(s)/interfaces, and defined the business events triggering accounting transactions, along with
procedural guidance to timely record obligation and accruals for all applicable programs.

To standardize and expedite the posting of obligations, a series of daily, weekly, and monthly reports
displaying detailed and summarized accounting information are generated out of the applicable program
and feeder application. To further standardize and expedite the process, CCC programs’ process flows
are categorized on the basis of common systems and manual processes. Below is a further detailed
discussion for these controls.

Despite the implementation of these compensating controls, sufficient controls are not yet in place to
demonstrate substantial compliance. Accordingly, additional strategies will be pursued.

Background
Prior to FY 2005, CCC largely recorded obligations, accruals and allowances in the general ledger only at
yearend. Budgetary events requiring the posting of budget authority were not consistently posted at the
time the accounting event occurred. To appropriately report financial balances for the interim financial
statements, the compilation staff made pen and ink changes to the face of the statements using the
Hyperion software. As a result of this practice, CCC was generating hundreds of accounting entries and
adjustments creating a high vulnerability to errors and omissions at the end of each FY.

Long-Term Plan
CCC’s long-term planned corrective actions include the Modernize and Innovate the Delivery of
Agricultural Systems (MIDAS) and the Department of Agriculture’s (USDA, hereinafter referred to as “the
Department”) Financial Management Modernization Initiative (FMMI). The Department will provide a
facility for agencies to implement web-enabled, integrated financial systems under FMMI, but because the
FMMI solution will not be available for several years, the Farm Service Agency (FSA)/CCC is developing
a customized Financial Web Services (FWS) application to support farm programs delivered through
MIDAS web-enabled developed applications. FWS includes e-Funds Control (e-FC) and the National
Payment Service (NPS). If funding is not available for MIDAS, legacy systems must still be modified to
transmit all required accounting transactions and data elements for Treasury and financial reporting to
both the current (CCC CORE) accounting system and FMMI enterprise solution.

Through the FWS, MIDAS initiative, FMD can achieve full compliance with FFMIA by resolving budgetary
execution deficiencies, streamlining current processes and implementing automated internal control
processes. Nevertheless, it is Management’s opinion that in the current year, sufficient controls over the
budget execution process are implemented to reduce the material weakness finding for funds control and


                                                                                                         18
                                            Commodity Credit Corporation
                                            Consolidated Financial Report
                                         Management’s Discussion and Analysis

   the system non-conformance to a reportable condition with a remediation plan developed and reported
   through the A-123 certification process.


Section 2
                                           Areas of Non-compliance
    No.                System Requirements                      Instance                            OIG Audit Report #
   2.1           SFFAS No. 5                        Recording accurate accrual                      06401-16-FM
                                                    estimates for producer payment
                                                    programs.                                       06401-17-FM

   2.2           OMB Circular A-136                          Recording financial business           06401-20-FM
                                                             events at the transaction level.



                                                 Corrective Actions Planned
                                                              OIG Audit                          Revised
                                                                               Target                          Actual
                                                               Rec. #                           Completio
                                                                             Completion                      Completion
                                                                                                 n Date
                 Corrective Action Milestones*                                  Date                           Date
   2.1.1         Improvement needed in financial             FY 2003        FY 2006 Q4                      FY 2006 Q3
                 accounting and reporting policies and       #16, 18
                 procedures.                                 FY 2004 #9
             x   Re-examine existing accrual policies        FY 2003        FY 2006 Q4                      FY 2006 Q3
                 and analytical procedures in terms of       #16, 18
                 Federal accounting standards and            FY 2004 #9
                 CCC business practices, determine
                 where improvements need to be
                 made, and implement improvements.
             x   Re-examine existing obligation policies                    FY 2006 Q4                      FY 2006 Q3
                 and analytical procedures in terms of
                 Federal accounting standards and
                 CCC business practices, determine
                 where improvements need to be
                 made, and implement improvements.*
   2.2.1         Improvement needed in controls to           FY 2005        FY 2006 Q4                      FY 2006 Q4
                 ensure transactions are properly            #12, 13
                 supported, recorded timely and
                 accurately in accordance with Federal
                 accounting standards using the U.S.
                 Standard General Ledger (USSGL) at
                 the transaction level.
         x       Document and evaluate current                              FY 2006 Q4                      FY 2006 Q3
                 system of budgetary accounting
                 controls, identify deficiencies, develop
                 and implement improved, well-defined
                 control processes.*
         x       As part of the OMB A-123 Appendix A                        FY 2006 Q4                      FY 2006 Q3
                 assessment of CCC’s internal controls
                 over financial reporting, testing will be
                 conducted on these newly improved,
                 well-defined controls and

                                                                                                                     19
                                     Commodity Credit Corporation
                                     Consolidated Financial Report
                                  Management’s Discussion and Analysis

                                            Corrective Actions Planned
                                                           OIG Audit                             Revised
                                                                               Target                              Actual
                                                            Rec. #                              Completio
                                                                             Completion                          Completion
                                                                                                 n Date
      Corrective Action Milestones*                                             Date                               Date
      processes for budgetary accounting
      transactions. If additional deficiencies
      are detected, a remediation plan to
      address the weaknesses will be
      promptly developed and executed. *
 x    Obtain contractor training for financial                              FY 2006 Q4                          FY 2006 Q3
      management staff in budgetary
      accounting and analysis.
 x    Transform the organizational structure                                FY 2006 Q4                          FY 2006 Q4
      to establish clear lines of authority,
      leverage expertise, and improve
      performance in the implementation
      and documentation of financial and
      budgetary accounting policy,
      budgetary and proprietary accounting
      analysis, reconciliations, and review.
 x    As an interim solution, analyze current                               FY 2006 Q4                          FY 2006 Q4
      feeder systems to determine
      compliance with financial data
      requirements, and if required financial
      data elements are not gathered for
      transmission to the core financial
      system, identify feeder system gaps.
      FMD has removed part of the
      corrective action to determine the
      costs to correct the deficiencies based
      on the relevancy of costs being a
      mitigating control.
* A decision was made to differentiate between two separate distinct corrective actions incorporating the same objectives in order to
address material weaknesses and implement mitigating controls in a much tighter timeframe.




                                                                                                                                  20
                                         Commodity Credit Corporation
                                         Consolidated Financial Report
                                      Management’s Discussion and Analysis



Section 3


                       U.S. Government Standard General Ledger (SGL) at the Transaction Level
        Classification of financial events for financial statements and required financial information provided to
        the Department of the Treasury and OMB is consistent with the account descriptions and posting rules
        approved by the SGL Board and published by the Treasury Department’s Financial Management
        Service in the Treasury Financial Manual.

Corrective actions were completed in FY 2006 that met substantial compliance requirements with the
USSGL at the transaction level. See Section 2 for the explanation.


                                                  Areas of Non-compliance
    No.                  System Requirements                             Instance                 OIG Audit Report #

              OMB Circular A-127 -Joint Financial
              Management Improvement Program                  Recording financial business
3.1                                                                                             06401-20-FM
              (JFMIP)                                         events at the transaction level



                                               Corrective Action Planned

                                                      OIG                         Revised
                                                                  Target
                                                     Audit                       Completion
                                                                Completion
                                                     Rec. #                        Date
        Corrective Action Milestones*                              Date                         Actual Completion Date
3.1.1 Improvement needed in controls to             FY 2005    FY 2006 Q4                       FY 2006 Q4
ensure transactions are properly supported,         #12
recorded timely and accurately in
accordance with the USSGL at the
transaction level.
x Document and evaluate current system                         FY 2006 Q 4                      FY 2006 Q3
    of budgetary accounting controls, identify
    deficiencies, develop and implement
    improved, well-defined control
    processes.*

x     As part of the OMB A-123 Appendix A                      FY 2006 Q4                       FY 2006 Q4
      assessment of CCC’s internal controls
      over financial reporting, testing will be
      conducted on these newly improved,
      well-defined controls and processes for
      budgetary accounting transactions. If
      additional deficiencies are detected, a
      remediation plan to address the
      weaknesses will be promptly developed
      and executed.
x     Obtain contractor training for financial                 FY 2006 Q4                       FY 2006 Q3
      management staff in budgetary
      accounting and analysis.
x     Transform the organizational structure to                FY 2006 Q4                       FY 2006 Q4
      establish clear lines of authority,
                                                                                                                     21
                                             Commodity Credit Corporation
                                             Consolidated Financial Report
                                          Management’s Discussion and Analysis


                                                     Corrective Action Planned

                                                            OIG                                Revised
                                                                            Target
                                                           Audit                              Completion
                                                                          Completion
                                                           Rec. #                               Date
         Corrective Action Milestones*                                       Date                               Actual Completion Date
    leverage expertise, and improve
    performance in the implementation and
    documentation of financial and
    budgetary accounting policy, budgetary
    and proprietary accounting analysis,
    reconciliations, and review.
As an interim solution, analyze current                                 FY 2006 Q4                              FY 2006 Q4
feeder systems to determine compliance with
financial data requirements, and if required
financial data elements are not gathered for
transmission to the core financial system,
identify feeder system gaps.

        * A decision was made to differentiate between two separate distinct corrective actions incorporating the same objectives in order to
        address material weaknesses and implement mitigating controls in a much tighter timeframe.




                                                                                                                                          22
                                      Commodity Credit Corporation
                                      Consolidated Financial Report
                                   Management’s Discussion and Analysis

Section 4


                             Information Security Policies, Procedures and Practices

      Information security policies, procedures, and practices meet the reporting requirements of the
      Federal Information Security Management Act.

NOTE: Corrective action plans and target dates are duplicative of Section 1 and will not be repeated in this
section.


Section 5

Identify official(s) responsible for corrective actions.

                                  Official(s) Responsible for Corrective Actions
                Name                                 Title                              Phone No.

     Kristine M. Chadwick           Controller, CCC; Director, FMD           703-305-1386
     Steven L. Sanders              Director, ITSD                           202-720-7796




                                                                                                               23
                                      Commodity Credit Corporation
                                      Consolidated Financial Report
                                   Management’s Discussion and Analysis



               Improper Payment Improvement Act Compliance (IPIA)
The President’s Management Agenda identified the reduction of improper payments as a key goal for
Government Agencies. The IPIA legislation requires that FSA, under the direction of the Department of
Agriculture, annually review programs and activities to identify if any are susceptible to significant improper
payments. The OMB is responsible for implementing IPIA. OMB defined programs as high risk if they have more
than 2.5 percent and $10 million in improper payments annually. Annually FSA completes risk assessments of
the programs identified by the OCFO. The risk assessment determines whether each program is at low or high
risk for making improper payments. Also, OMB during its review of the risk assessment documentation may
conclude that a program should be high risk. If a program is identified as high risk, FSA must complete a
statistically valid estimate to determine the actual annual amount of improper payments for the program or
activity. Based on the kinds of errors found in developing the statistical estimate, FSA must develop a plan for
reducing improper payments and establish performance goals.

The results of CCC’s improper payment risk assessments are included in the USDA’s Management Discussion
and Analysis section of its annual Performance and Accountability Report (PAR). The PAR is released annually
on November 15.

FSA completed the risk assessment of all CCC programs identified for review during the FY 2006 review cycle.
The results of those reviews identified two new programs as potentially at high risk for making improper
payments. Those programs were the Noninsured Assistance Program (NAP) and Direct and Counter Cyclical
Payment Program (DCP). OMB reviewed the risk assessments and added two additional programs to CCC’s
group of potentially high risk programs. Those programs were the Conservation Reserve Program (CRP) and
Disaster Programs (DCP). Statistical samples were completed for each of these programs and the results
indicate that these programs exceed the 2.5 percent maximum improper payment rate established by the
legislation. These four programs joined the three programs identified in prior year risk assessments or OMB
selections (Marketing Assistance Loans, Loan Deficiency Payments, and Milk Income Loss Contracts) as high
risk programs.

FSA identified actions it would take during FY 2007 to reduce the level of improper payments and established
both reduction targets and recovery targets for these improper payments. The Agency is committed to reducing
the level of improper payments through a combination of improved program and financial systems automating
internal controls and expanded reviews and certification of data supporting payments.




                                                                                                               24
                                       Commodity Credit Corporation
                                       Consolidated Financial Report
                                    Management’s Discussion and Analysis



                               Performance Highlights Summary
The CCC either met or exceeded all of its performance targets for FY 2006. CCC met its performance target for
the percentage of program benefits delivered through a Web environment, with 33 percent of relevant programs
being fully Web-enabled. One-third of these particular CCC programs offer software to producers and ranchers
for use in their home or office, helping to reduce the average processing time for delivering program benefits. The
Conservation Reserve Program (CRP) met its target for the number of acres of riparian and grass buffers enrolled
in the program during this fiscal year. The cumulative total of enrolled acres for FY 2006 is 1.86 million acres of
buffer areas, meeting and slightly bettering the program’s target of 1.85 million enrolled acres. CCC also
maintained the sales of targeted commodities from the previous year’s total thus meeting its target, while the
average time between warehouse examinations decreased significantly so that the FY 2006 target was exceeded.

There are a number of factors that may affect the CCC and its programs’ ability to meet their performance targets.
External factors include extreme weather events, such as widespread flooding, drought, or other natural disasters,
that can increase the amount of disaster assistance needed in any given year. Because it is impossible to predict
when natural disasters will occur, some years require little disaster assistance and others may require large
amounts of additional emergency assistance, such as in 2005 when additional funding was needed for recovery
from that year’s devastating hurricanes. In particular, the unexpected nature and intensity of many natural
disasters may require additional time and resources to quickly process and deliver emergency program benefits.
Natural disasters and weather-related events may also exacerbate or expand resource problems, eliminate
previous conservation gains, and may result in redirection of planned activities to provide emergency assistance.

Global trends and economic conditions can affect the ability of CCC to meet its performance targets. Growing
conditions here and abroad affect commodity prices for American farmers and ranchers. For example, increased
productions by foreign producers can lower world commodity prices and affects farmers’ and ranchers’ abilities to
compete internationally. Policy changes in foreign countries may create or reduce trade and non-trade barriers
that will affect American producers’ ability to access and sell their products in international markets. The
competitiveness of American products in other countries can also be determined by the strength of the U.S. dollar
relative to other currencies.

Recent high fuel prices affect farmers and ranchers by increasing the prices of inputs needed to produce their
goods. In addition to the resulting higher product prices, landowners may be more reluctant to enroll in new
programs, implement new conservation practices or adopt new technologies that could further decrease their
bottom line. Increasing energy concerns are projected to have a significant effect on farm economics, which may
stall conservation decision making.

Additional external factors with the potential to affect CCC programs include the macroeconomic conditions of the
U.S. and the potential for actions by a variety of Federal, State and local governments that can influence the
sustainability of the rural infrastructure. The technology and infrastructure of rural communities are also factors
that limit the speed and the extent to which CCC programs can quickly move to electronic payment systems to
deliver program benefits.




                                                                                                                 25
                                      Commodity Credit Corporation
                                      Consolidated Financial Report
                                   Management’s Discussion and Analysis



                             Comprehensive Performance Section
Given that CCC effectively has no employees and most of its services are carried out by the employees of other
USDA Agencies, CCC’s mission aligns to the strategic goals of the Department as well as those of FSA and FAS.
Strategic goals describe the outcomes that emerge from achieving CCC’s mission. Each of these strategic goals
in turn has outcome objectives that support the results the Agencies want to achieve. The performance measures
allow the CCC to tangibly measure how well it is achieving these objectives without creating a duplicate reporting
burden. The table below summarizes the relationship between the USDA Strategic Goal, the CCC program area,
the Agency’s strategic goal and the CCC mission element. The table also displays which USDA Agency
administers the strategic goal.

             CCC Program Alignment to USDA Performance and Accountability Report Goals

       USDA Strategic       CCC              USDA       Agency Strategic         CCC Mission Element
       Goal                 Program         Agency           Goal
                            Area
       Enhance the          Income          FSA         Supporting             Stabilizing, supporting, and
       Competitiveness      Support and                 productive farms       protecting farm income and
       and Sustainability   Disaster                    and ranches            prices.
       of Rural and         Assistance
       Farm Economies
       Enhance              Commodity       FSA         Supporting Secure      Maintaining balanced and
       Protection and       Operations                  and Affordable         adequate supplies of
       Safety of the        and Food Aid                Food and Fiber         agricultural commodities
       Nation’s                                                                and aiding in their orderly
       Agriculture and                                                         distribution.
       Food Supply
       Protect and          Conservation    FSA         Conserving Natural     Conservation of soil, air,
       Enhance the                                      Resources and          and water resources and
       Nation’s Natural                                 Enhancing the          protection and improvement
       Resource Base                                    Environment            of wildlife habitats.
       and Environment

       Enhance              Market          FAS         Expand the Global
                                                                               Developing new domestic
       International        Expansion                   Agricultural Trading
                                                                               and foreign markets and
       Competitiveness      and Trade                   System
                                                                               marketing facilities for
       of American          Building
                                                                               agricultural commodities.
       Agriculture
       Enhance              Export Credit   FAS         Expand the Global
       International                                    Agricultural Trading
       Competitiveness                                  System
       of American
       Agriculture




                                                                                                               26
                                         Commodity Credit Corporation
                                         Consolidated Financial Report
                                      Management’s Discussion and Analysis

                                      Program Area Performance Data:

Within each program area this report will provide a brief summary of the CCC program along with the
corresponding USDA Strategic Goal. Also provided are the recommendations resulting from the PART (Program
Assessment Rating Tool) process (if available for that program) and the status of implementing those
recommendations. The PART process was developed to assess and improve program performance so that the
Federal government can achieve better results. A PART review helps identify a program’s strengths and
weaknesses to inform funding and management decisions aimed at making the program more effective. The
PART therefore looks at all factors that affect and reflect program performance, including program purpose and
design; performance measurement, evaluations, and strategic planning; program management; and program
results. Because the PART includes a consistent series of analytical questions, it allows programs to show
improvements over time, and allows comparisons between similar programs. The USDA has 56 programs set for
the PART process through FY 2006. At this time not all programs have undergone the PART process or the
PART data is not fully available. If PART data is not fully available, this will be reflected in the text of the data that
is included. Performance Measures are also shown for each program area.

                      Program Area – Income Support and Disaster Assistance
                                     Program Area Summary
CCC is the financial instrument for millions of income support and disaster assistance payments each year to
agricultural commodity producers. These payments stabilize, support, and protect farm income and prices. CCC
payment volume for these programs is driven by commodity market prices, the incidence of disaster, and
payment eligibility rules established in public policy. CCC payment volume trends are best explained in the
context of a commodity crop year. Crop years do not directly correspond to financial statement reporting, so this
creates some unique challenges for discussing payment trends and performance. This performance discussion
will cover overall program effectiveness and the efforts made by the Agency to web-enable the business process
for administering these programs so that the CCC can be more agile in responding to the workload fluctuations
inherent in these programs.


                                Program Performance Scores and Status
Agricultural Crops Counter Cyclical Payments Program. The counter-cyclical payment program is one part of
the Government's "safety net" for farmers. It provides income support while minimally impacting trade and
production. The program protects farmers from low program commodity prices, and helps ensure farmers' cash
flow needs are met.
    x     USDA Strategic Goal Alignment - Enhance the Competitiveness and Sustainability of Rural and Farm
          Economies
    x     Lead Agency - FSA
                                  Agricultural Crops Counter-Cyclical Payments
        1.0 OMB            Develop an independent evaluation process to be conducted once every three years.
        Follow-up
        Action
        1.1.1 Milestone    Develop evaluation process to measure effectiveness of Direct and Counter-Cyclical
                           Programs (DCP).
        Target Date        09/30/2007
        Actual Date        09/30/2006
        Status             Completed: The current program legislation ends in FY 2007. Therefore, an
                           independent evaluation process every three years is not feasible for this program at
                           this time.
        2.0 OMB            Take measures to collect data to monitor program performance.
        Follow-up
        Action
        2.1.1 Milestone    Collect data for income derived from counter-cyclical payments.

                                                                                                                        27
                                       Commodity Credit Corporation
                                       Consolidated Financial Report
                                    Management’s Discussion and Analysis

        Target Date       01/31/2006
        Actual Date       12/31/2005
        Status            Completed: FSA developed new, outcome oriented performance measures as part
                          of the strategic planning process initiated in October 2003. A draft of the FY 2005-
                          2011 Strategic Plan was issued for public comment in April 2005. Performance
                          targets will be evaluated quarterly and annually, as appropriate. A new data
                          verification and validation checklist process will be put into place for all performance
                          measures. The Farm Programs staff, to validate all data related to strategic
                          performance measures, is currently using the draft checklist. FSA awaits
                          Departmental clearance prior to issuing the FSA 2005–2011 Strategic Plan in “final.”
                          FSA has finalized the Farm Programs portion of its Strategic Plan and aligned its
                          measures to the USDA FY 2005–2010 Strategic Plan. Data is being collected on an
                          annual basis on the percentage of farm income derived from counter-cyclical
                          payments. This data is useful in determining the producers' level of dependence on
                          government assistance, which can serve as an indicator of success. There is a
                          specific measure related to DCP participation, as well as performance measures
                          related to the percentage of farm income derived from non-governmental sources.
        3.0 OMB           Work to achieve its long-term performance goals.
        Follow-up
        Action
        Status            Completed: FSA developed new, outcome oriented performance measures as part
                          of the strategic planning process initiated in October 2003. A draft of the FSA FY
                          2005–2011 Strategic Plan was issued for public comment in April 2005.
                          Performance targets will be evaluated quarterly and annually, as appropriate. A new
                          data verification and validation checklist process will be put into place for all
                          performance measures. The Farm Programs staff, to validate all data related to
                          strategic performance measures, is currently using the draft checklist. FSA awaits
                          Departmental clearance prior to issuing the FSA 2005–2011 Strategic Plan in “final.”
                          FSA has finalized the Farm Programs portion of the Strategic Plan and aligned its
                          measures to the USDA Draft FY 2005–2010 Strategic Plan. Data is being collected
                          on an annual basis on the percentage of farm income derived from counter-cyclical
                          payments. This data is useful in determining the producers' level of dependence on
                          government assistance, which can serve as an indicator of success.

Agricultural Marketing Assistance Loan Payment Program - The purposes of this program are: 1) to provide
short term financing for marketing of program commodities (wheat, feed grains, cotton, rice, oilseeds, peanuts,
honey, wool, mohair, and pulses); and 2) to provide subsidies when market prices of program commodities are
relatively low.
    x     USDA Strategic Goal Alignment - Enhance the Competitiveness and Sustainability of Rural and Farm
          Economies
    x     Lead Agency – FSA


                               Agricultural Marketing Assistance Loan Payments
        1.0 OMB           Discrepancies between county offices in the delivery of services to producers should
        Follow-up         be addressed.
        Action
        1.1.1 Milestone   Conduct National/Regional Training and Clarify Handbooks.
        Target Date       09/30/2005
        Actual Date       09/30/2005
        Status            Completed: Program training has been done in recent years; FSA provides
                          National/Regional program training, as appropriate and within budget constraints.
                          Program policy handbooks and notices have been issued and updated to clarify CCC
                          Marketing Assistance Loan Repayment Policies.

                                                                                                                     28
                                       Commodity Credit Corporation
                                       Consolidated Financial Report
                                    Management’s Discussion and Analysis

                          FSA addresses problematic issues in service delivery on an on-going basis, and as
                          problems arise. The Price Support Division continues to update National handbook
                          policies and procedures for clarity and to ensure program implementation is uniformly
                          administered among States and County Offices.

                          The Price Support Division has also developed self-paced PowerPoint training
                          presentation using “Ready Talk” software. The LDP training modules were made
                          available to FSA State Offices in July, 2006. Future training modules will cover
                          performance and accountability issues and general MAL policies and procedures.
        2.0 OMB           More frequent external audits of program effectiveness ought to be conducted.
        Follow-up
        Action
        2.1.1 Milestone   Conduct statistical sampling.
        Target Date       04/2005
        Actual Date       09/2005
        Status            Completed: An independent contractor completed the statistical sample and the
                          final report was provided to FSA in September, 2005.
        3.0 OMB           That the House and Senate Agriculture Committees examine the issue of payment
        Follow-up         limits for marketing loan and LDP gains and how they could be tightened.
        Action
        3.1.1 Milestone   Propose payment limits for FY 2006 Budget.
        Status            Completed: The proposed FY 2006 Budget would have reduced the payment
                          limitation caps for all Farm Programs. The proposed legislation also suggested that
                          marketing loan gains would be based on historical payment yields instead of current
                          production.
        4.0 OMB           Conducting audits more frequently.
        Follow-up
        Action
        4.1 Milestone     Conduct an additional review of the program activity.
        Target Date       12/30/2006
        Actual Date       06/30/2006
        Status            Completed: OIG conducted an audit of the MAL program to determine if FSA had
                          adequate controls over farm stored nonrecourse MALs and a review of FSA’s
                          controls for ensuring the value of collateral temporarily stored on-ground (due to
                          Hurricanes Katrina and Rita). The audit was completed and a final report was
                          provided on June 27, 2006. FSA responded to the Audit 03601-47-TE on August 4,
                          2006 and September 20, 2006. FSA is in the process of providing applicable
                          documentation, as requested by OIG, to finalize FSA’s response to the OIG audit.
                          FSA will provide the requested documentation on or before November 17, 2006.
        5.0 OMB           Addressing payment limit loopholes through the regulatory process.
        Follow-up
        Action
        Status            Completed: The payment limitation amounts are statutory. The regulations reflect
                          and support the current legislations; therefore, no further regulatory action is
                          necessary. Legislative changes would be necessary before program regulations
                          could be amended to address issues pertaining to payment limitations. No further
                          action will be taken on this issue.
Direct Crop Payments Program. CCC provides direct payments (cash) to eligible crop farmers. The intent is to
provide a safety net for farmers, but to continue to allow them planting flexibility. Roughly 41 percent of farms
receive direct payments.
    x     USDA Strategic Goal Alignment - Enhance the Competitiveness and Sustainability of Rural and Farm
          Economies
    x     Lead Agency – FSA


                                                                                                                  29
                                   Commodity Credit Corporation
                                   Consolidated Financial Report
                                Management’s Discussion and Analysis



                                            Direct Crop Payments
   1.0 OMB            The limitations of the direct payment program will have to be dealt with legislatively.
   Follow-up          The Administration will reduce trade barriers through trade negotiations, to create
   Action             new markets for U.S. agricultural exports, so that farmers will be less reliant on
                      government income support.
   1.1.1 Milestone    Analyze input from the listening sessions.
   Target Date        09/30/2006
   Actual Date        03/31/2006
   Status             Completed: The Secretary of Agriculture conducted stakeholder listening sessions
                      to obtain input on the provisions of the next Farm Bill. FSA collected the input from
                      the listening sessions. USDA has been analyzing the input to identify any legislative
                      changes that can be proposed to address the limitations of this program.
   2.0 OMB            The program management has devised performance goals that are designed to
   Follow-up          improve the delivery of the program.
   Action
   Status             Completed: An important goal was to establish an electronic Direct and Counter-
                      Cyclical Program (DCP) service that allows agricultural producers to enroll online.
                      Producers can choose DCP payment options, assign crop shares, and sign and
                      submit their contracts from any computer with Internet access and no longer have to
                      travel to their local FSA office to complete these tasks. FSA developed and
                      incorporated an efficiency measure into the Quarterly Performance Report and
                      USDA’s Performance and Accountability Report to “maintain or increase percentage
                      of program benefits delivered through a Web environment,” which includes DCP.
   3.0 OMB            Requiring producers to purchase higher levels of crop insurance for all crops on
   Follow-up          which they receive direct payments; limiting the need for ad hoc disaster assistance
   Action             and maintaining farm income.
   3.1.1 Milestone    Analyze input from stakeholder listening sessions.
   Target Date        9/30/2006
   Actual Date        3/31/2006
   Status             Completed: The Farm Security and Rural Investment Act of 2002 (Farm Bill)
                      authorizes direct payments through 2007. Currently, statute provides no requirement
                      for purchasing crop insurance in order to receive program benefits. Therefore, the
                      requirements of the direct payment program will have to be dealt with legislatively.
                      See 1.1.1., above.
   4.0 OMB            Completed: (not a follow-up action in the 2006 budget.)
   Follow-up
   Action
   5.0 OMB            Reducing trade barriers through trade negotiations, to create new markets for U.S.
   Follow-up          agricultural exports, so that farmers will be less reliant on government support
   Action
   Status             Completed: After consultation with OBPA, FSA believes that this follow-up action
                      was misdirected towards this Agency. No further FSA action required.

Key performance measures:
   Key Performance          FY 2006          4th Quarter          4th Quarter       Actual Year       Result
   Measure                  Target           Estimated            Actual            to Date
                                             Performance          Performance       Performance
   Maintain or increase %   33%              33%                  33%               33%               Met
   of program benefits                                                                                Target
   delivered through a
   Web environment.



                                                                                                                30
                                        Commodity Credit Corporation
                                        Consolidated Financial Report
                                     Management’s Discussion and Analysis




Trends in Income Support and Disaster Assistance Programs

        Key Performance Measure              2002         2003          2004             2005          2006
        Maintain or increase % of program       NA           NA         NA (program         22%          33%
        benefits delivered through a Web                                 initiated in
        environment.                                                       FY05)


                                        Program Area – Conservation
                                          Program Area Summary
The Conservation program area provides incentives to producers to establish long-term, resource conserving
covers on eligible farmland. CCC makes annual rental payments based on the agriculture rental value of the
land, and it provides cost-share assistance for up to 50 percent of the participant's costs in establishing approved
conservation practices. Participants enroll in CRP contracts for 10 to 15 years, thus making a short-term
performance analysis of a contract difficult. Performance of these conservation programs should be evaluated at
the expiration of each contract.

                                Program Performance Score and Status
Conservation Reserve Program - The Conservation Reserve Program (CRP) safeguards natural resources by
paying farmers to take environmentally sensitive cropland out of production and plant long-term resource-
conserving covers (such as grasses and trees). These covers improve the quality of water and air, control soil
erosion, and enhance wildlife habitat.
    x     USDA Strategic Goal Alignment - Protect and Enhance the Nation’s Natural Resource Base and
          Environment
    x     Lead Agency – FSA

   Conservation Reserve Program

   1.0 OMB                 Improving FSA’s technical assistance accountability systems.
   Follow-up Action

   1.1.1 Milestone         Reengineer CRP business industry delivery of technical assistance; plan to utilize the
                           private sector for technical assistance delivery.

   Target Date             09/30/2006

   Actual Date             09/30/2006

   Status                  Completed: For FY 2006, FSA established a target of five percent of technical
                           assistance work that would be performed by the private sector. To achieve this target,
                           a pilot program in ten States was implemented during FY 2006, and training for these
                           States was completed. With this training, FSA staff can supervise, administer, and
                           maintain private sector and other non-Federal technical assistance contracts and
                           cooperative agreements. Over 140 counties in Idaho, Illinois, Kansas, Kentucky,
                           Missouri, Nebraska, North Carolina, North Dakota, Pennsylvania, and Washington
                           were trained.
                           For the next phase of deployment, FSA identified certain Signup 33 contracts in four of
                           these States (Kansas, Nebraska, North Dakota, and Washington) for which it planned
                           to utilize a private sector technical assistance provider to develop conservation plans.
                           A contract was awarded in the summer of FY 2006. The vendor is responsible for

                                                                                                                    31
                               Commodity Credit Corporation
                               Consolidated Financial Report
                            Management’s Discussion and Analysis

                   providing 390 conservation plans from this spring’s general signup.

2.0 OMB            Performing independent program evaluations to identify follow-up actions for improving
                   performance.
Follow-up Action

2.1.1 Milestone    Develop cooperative agreements.

Target Date        09/30/2006

Actual Date        09/30/2006

Status             Completed: FSA has cooperative agreements with U.S. Geological Survey (USGS)
                   and U.S. Fish & Wildlife Service (USFWS) to assess the effectiveness of the CRP on
                   restored wetlands and duck populations in the Northern Prairie. Additionally,
                   agreements with the Food & Agricultural Policy Research Institute (FAPRI), Mississippi
                   State University, West, Inc., and Washington State Department of Natural Resources
                   to assess the effect of CRP on the off field movement of sediment and nutrients, and
                   quail, pheasant and sage-grouse populations have been completed and are either
                   available on line or under final professional review. Similarly, FSA agreements with the
                   Iowa State University and USGS examining the potential for restoring wetlands to filter
                   nutrients from cropland runoff are completed and undergoing review. Oklahoma State
                   University’s examination of Great Plain Grasslands and alternative management
                   systems for better CRP grassland management is nearing completion. Each of the
                   above studies will be used to enhance program delivery and improve interagency
                   assessment of CRP.

3.1.1. Milestone   Develop and implement agreements with several scientific and educational institutions
                   to assess wildlife and wetland management plans and peer review CRP contract data.

Target Date        12/31/2006

Actual Date

Status             Action taken, but not completed: FSA has cooperative agreements with USGS and
                   USFWS to assess the effectiveness of the CRP on restored wetlands and duck
                   populations in the Northern Prairie. Additionally, agreements with FAPRI, Mississippi
                   State University, West, Inc., and Washington State Department of Natural Resources
                   to assess the effect of CRP on the off field movement of sediment and nutrients, and
                   quail, pheasant and sage-grouse populations have been completed and are either
                   available on line or under final professional review. Similarly, FSA agreements with the
                   Iowa State University and USGS examining the potential for restoring wetlands to filter
                   nutrients from cropland runoff are completed and undergoing review. Oklahoma State
                   University’s examination of Great Plain Grasslands and alternative management
                   systems for better CRP grassland management is nearing completion. Each of the
                   above studies will be used to enhance program delivery and improve interagency
                   assessment of CRP.

3.0 OMB            Continuing to collect performance data and using the data to improve the field-level
                   oversight of CRP contracts.
Follow-up Action

3.1.2. Milestone   Perform compliance checks on all expiring 2007–2011 contracts offered for re-
                   enrollment or extension.

Target Date        12/31/2006

                                                                                                          32
                                       Commodity Credit Corporation
                                       Consolidated Financial Report
                                    Management’s Discussion and Analysis


   Actual Date

   Status                 Action taken, but not completed: There are 317,172 CRP contracts on 27,530,739
                          acres expiring in FY 2007 through FY 2010 that were offered the opportunity to reenroll
                          or extend their contract. Traditionally, ten percent of CRP contracts are spot-checked
                          for compliance on an annual basis. To address concerns in regards to noxious weeds
                          on CRP lands and to ensure CRP land meets the goals and objectives of the program,
                          FSA is conducting a compliance review on each contract proposed for reenrollment or
                          extension. Eligible land must be in full compliance with the contract including the cover
                          requirements and the control of weeds, including noxious weeds, insects, and pests.
                          At the end of September, field checks were completed on more than 97 percent of the
                          expiring 2007 contracts who had accepted a reenrollment or extension offer. Field
                          reviews were completed on approximately 70 percent of the expiring 2008-2010
                          contracts. For contracts scheduled to expire between September 30, 2008 and 2010,
                          compliance reviews will be completed by December 31, 2006.



Key Performance Measures:
     Key                  FY 2006           4th Quarter         4th Quarter        Actual Year to      Result
     Performance          Target            Estimated           Actual             Date
     Measure                                performance         Performance        Performance
     Increase             1.85 million      1.86 million        1.86 million       1.86 million        Met Target
     Conservation         acres             acres               acres              acres
     Reserve Program
     (CRP) acres of
     riparian and
     grass buffers
     (million acres).


Trends in Conservation Programs
     Key Performance           2001           2002           2003           2004           2005            2006
     Measure
     Increase               0.95 million   1.24 million   1.45 million   1.65 million   1.75 million   1.86 million
     Conservation              acres          acres          acres          acres          acres          acres
     Reserve Program
     (CRP) acres of
     riparian and grass
     buffers (million
     acres).



                     Program Area – Commodity Operations and Food Aid
                                  Program Area Summary
Commodity Operations maintains the price of milk used for manufactured dairy products through the Dairy Price
Support Program and stores, handles and disposes Commodity Credit Corporation's owned commodities for
export and domestic commodity donation programs. Commodity Operations produces a uniform regulatory
system for the storage of agricultural products and ensures the timely provision of food products procured for
domestic and international food assistance programs and market development programs.



                                                                                                                      33
                                        Commodity Credit Corporation
                                        Consolidated Financial Report
                                     Management’s Discussion and Analysis

                               Program Performance Score and Status
Dairy Price Support Program. CCC is required to maintain the price of milk used for manufactured dairy
products above $9.90 per hundredweight (equivalent to about 85 cents per gallon); by purchasing nonfat dry milk,
butter, and cheese at established prices. Purchased commodities may be stored, sold or donated.
    x     USDA Strategic Goal Alignment – Enhance Protection and Safety of the Nation’s Agriculture and Food
          Supply
    x     Lead Agency – FSA

                        Milk (Dairy) Price Support Program (MPSP)

        1.0 OMB         Refine new long-term performance measures, develop corresponding baselines, and
                        performance targets for MPSP.
        Follow-up
        Action

        1.1.1           Work with OMB to determine a mutually satisfactory measure of MPSP performance
        Milestone       that appropriately tiers down from FSA's Draft FY 2005-2011 Strategic Plan.

        Target Date     09/30/2007 (New date for re-PART)

        Actual Date

        Status          Action Taken, but not completed: FSA developed new long-term, program specific,
                        performance measures that tier down from its draft Strategic Plan for FY 2005-2011.
                        The new measures were proposed to OMB during a re-PART review during FY 2006,
                        and one was accepted. Work continues to develop a second measure that is mutually
                        satisfactory.

        2.0 OMB         Identify program improvements and alternatives that could more directly address
                        current problems facing dairy producers.
        Follow-up
        Action

        2.1.1           Meet with Economic Research Service (ERS) officials, to discuss policy evaluation
        Milestone       results and challenges facing dairy producers.

        Target Date     12/31/2005

        Actual Date     12/30/2005

        Status          Completed: Discussions were held with ERS regarding research and the paper,
                        “Global Dairy Markets and Impacts of Policy Reform.” The research found that the US
                        dairy industry could benefit from more open global trade. Policies that limit foreign
                        competition are judged to be detrimental because new market opportunities are
                        foregone. Domestic programs that distort dairy markets can also cause the industry to
                        miss new market opportunities. Most ERS follow-up actions related to reducing global
                        export subsidies and import restrictions that lie outside FSA programs. Domestic
                        market distortion reductions could be achieved through better management of
                        purchase price levels under the Dairy (Milk) Price Support Program. Proposals for
                        these improvements were included in the legislative language that was submitted with
                        the FY 2007 budget.

        2.1.2           Meet with officials from other countries, as appropriate, to compare/contrast FSA dairy
        Milestone       programs.

                                                                                                                  34
                              Commodity Credit Corporation
                              Consolidated Financial Report
                           Management’s Discussion and Analysis


Target Date   12/31/2005

Actual Date   09/14/2005

Status        Completed: FSA is consistently researching ways to improve the MPSP. For
              example, in August 2005, FSA met with representatives of the Canadian Dairy
              Commission. The discussion included similarities and differences between FSA and
              Canadian Dairy Programs and methods used to evaluate the programs. The Agency
              will consider the lessons learned through these discussions in reassessing the
              program. In September, 2005, discussions were held with board members from
              Friesland Foods of the Netherlands. Discussion included policy impacts on dairy
              production and production innovation. In addition, discussions with the Congressional
              Budget Office led to a legislative proposal to alter operation of the program to make it
              more efficient. A proposal to modify legislative language to minimize expenditures by
              the CCC on butter and nonfat dry milk purchases was used to support FSA’s budget
              for FY 2007.

2.1.3         Develop follow-up actions for additional program improvements and appropriate
Milestone     changes in legislation.

Target Date   09/30/2005

Actual Date   09/15/2005

Status        Completed: Discussions with the Congressional Budget Office and OMB led to
              legislative proposal to alter operation of the program to make it more efficient. A
              proposal to modify legislative language to minimize expenditures by the Commodity
              Credit Corporation on butter and nonfat dry milk purchases was included in the Budget
              Year 2006 budget submission on February 7, 2005. Draft bills were transmitted for
              consideration of the Congress on August 22, 2005. Proposed legislative language to
              minimize the cost of the Dairy (Milk) Price Support Program was submitted with the
              2007 budget materials.

2.1.4         Meet with OMB to seek support of program and legislative changes.
Milestone

Target Date   09/30/2005

Actual Date   09/15/2005

Status        Completed: FSA met with OMB to discuss the program's performances measures
              and related issues. There was concurrence that program improvements through
              legislation would improve program operation and continued discussion on program
              alternatives was suggested. Proposed legislation was submitted with the FY 2007
              budget.

3.0 OMB       Identifying current issues facing the U.S. dairy industry and how these are impacted by
              the MPSP.
Follow-up
Action

3.1.1.        Identify U.S. dairy industry issues and concerns, as articulated in the Farm Bill listening
Milestone     sessions and other documents on dairy policy issues, and analyze how those concerns
              are impacted by MPSP.


                                                                                                            35
                                        Commodity Credit Corporation
                                        Consolidated Financial Report
                                     Management’s Discussion and Analysis


        Target Date     09/30/2006

        Actual Date     09/30/2006

        Status          Completed: Farm Bill Listening sessions called for continuation of MPSP as the most
                        effective safety net program and expressed interest in simplifying the program. Others
                        called for replacement of MPSP with a safety net program with more direct payments
                        and less market distortion. Calls for free-trade compliant programs were also made.
                        The National Milk Producers Federation state in the 2006 National Dairy Producer
                        Conclaves, Policy Issues and Concerns, that MSPS does “maintain a safety net for
                        dairy producers and cooperatives that minimizes market volatility, while balancing
                        supply and demand. The dairy price support program has performed effectively in that
                        regard and is the preferred safety net option. However, it may be necessary to
                        consider alternative programs which would accomplish the same policy goals as the
                        current program.”



Bioenergy- USDA's Bioenergy program, extended by the 2002 Farm Bill until 2006, was designed to expand
industrial consumption of agricultural commodities by promoting their use in the production of bioenergy (fuel
grade ethanol and biodiesel). The program provides financial assistance by subsidizing part of bioenergy
production costs.
    x     USDA Strategic Goal Alignment – Enhance Protection and Safety of the Nation’s Agriculture and Food
          Supply
    x     Lead Agency – FSA


                                                      Bioenergy
        1.0 OMB          Ensure a sufficient level of support to growing bio-diesel industry.
        Follow-up
        Action
        Status           Completed: FSA cannot address this follow-up action further due to the following: 1)
                         Ethanol and bio-diesel industries are experiencing record growth, while at the same
                         time Program funding was cut significantly for FY 2005. Combined, these factors
                         resulted in program payments being significantly reduced to approximately 60
                         percent for the first quarter, and 43 percent in the fourth quarter of FY 2005 to hold
                         them to available funding; 2) Program Agreements for the life of the program were
                         executed with participants before this follow-up action was made. The Agreement
                         provisions limit our ability to address this follow-up action. The program expired in FY
                         2006.
        2.0 OMB          Increase collaboration and coordination between related programs.
        Follow-up
        Action
        Status           Completed: The program manager participated in USDA-wide Bio-based Products
                         and Coordination Council planning sessions and maintained contacts with both
                         ethanol and bio-diesel industry trade groups.
        3.0 OMB          Tie program performance to budget requests in the 2005 President's Budget.
        Follow-up
        Action
        Status           Completed: Program performance is included in the budget submissions and
                         requests beginning with the FY 2005 budget.
        4.0 OMB          Assess performance targets to ensure they are ambitious and reasonable.
        Follow-up
        Action

                                                                                                                    36
                                       Commodity Credit Corporation
                                       Consolidated Financial Report
                                    Management’s Discussion and Analysis

        Status           Completed: FSA revised its performance targets, with OMB input, beginning with
                         the FY 2005 budget submission to reflect budget realities and program phase-out.



                       Program Area – Market Expansion and Trade Building
                                    Program Area Summary
The FAS promotes market expansion and trade building through cooperative agreements between CCC and
nonprofit agricultural trade commodity groups. USDA uses funds or commodities from CCC to encourage
development, maintenance and expansion of commercial export markets for agricultural commodities. This is
done through cost-share assistance to eligible trade organizations that implement a foreign market development
program.

                               Program Performance Score and Status
USDA Food Aid Programs - The USDA food aid programs address non-emergency food needs of developing
countries through donation and long-term low interest loans for the purchase of U.S. agricultural commodities.
    x     USDA Strategic Goal Alignment – Enhance International Competitiveness of American Agriculture
    x      Lead Agency – FAS




   Recommendations from PART                        Status of Implementing Recommendations
           Process
   FAS has developed and            FAS and USAID have had ongoing discussions to incorporate this
   continues to refine a new        common food aid measure. Using their Food Security Assessment Model,
   food security annual             ERS has analyzed 5 years' historical food aid data for FAS and several
   performance measure and          years' food aid data for USAID. FAS, ERS, OBPA, and USAID met on May
   baseline.                        11 to discuss and finalize the targeting assumptions to be used to
                                    determine the food aid targeting effectiveness ratio for both USDA’s and
                                    USAID’s programs. At that time, USAID stated that its restructuring and a
                                    requirement to develop new performance measures would prevent it from
                                    adopting a common performance measure at least at this time. FAS has
                                    agreed to use the targeting assumptions and will furnish revised
                                    spreadsheets to ERS for further analysis. Upon ERS’ completion, FAS will
                                    set both baseline and annual performance measures.
   Financial management             Completed
   improvements in the areas of
   credit reform, budget
   reporting and
   reimbursements are on-
   going.
   FAS has contracted for a         COMPLETED. BearingPoint, an information technology (IT) contractor,
   review of food aid information   completed in May 2005 an interagency study of IT systems used by FAS,
   and reporting systems that       USAID, FSA and MARAD for food aid data management and program
   will identify areas for          controls. The report provided recommendations on the potential for
   improvement in IT systems        consolidated reports, standardization of data fields and data transfer
   that will lead to program        protocols. A Memorandum of Understanding between the four food aid
   efficiencies down the road.      agencies to form a technical working group to develop such standards has
   This review is on-going.         been drafted and is being circulated for signature. FAS continues to make
                                    progress on its Food Aid Information System (FAIS) and has sought
                                    funding under the CCC Section 11 authority and updated its business case
                                    (OMB-300) justification.

                                                                                                                 37
                                       Commodity Credit Corporation
                                       Consolidated Financial Report
                                    Management’s Discussion and Analysis



USDA Foreign Market Development Programs - The purpose of these programs is to expand markets for U.S.
agricultural commodities. Government funds provided through FAS are used to help producers, exporters, private
companies, and other trade organizations promote U.S. agricultural commodities overseas.
   x    USDA Strategic Goal Alignment Enhance International Competitiveness of American Agriculture
   x    Lead Agency – FAS


Key Performance Measures:

   Key Performance Measure                      2001         2002         2003      2004       2005       2006
   Target Dollar value of actual sales for      $367.2*      $427.7*      $450*     $470*      $490*      $710**
   small companies (millions)
   *Target exceeded
   **Data not yet available

Key performance measures for the Market Expansion and Trade Building program area are noted above, with
targets established for FY 2006:

                                       Program Area – Export Credit
                                         Program Area Summary
CCC promotes exports of U.S. agricultural commodities through sales, payments, export credits, and other
related activities. Currently, CCC makes available export credit guarantees and export bonuses to promote
exports. These programs are administered by FSA and FAS on behalf of CCC.

                                 Program Performance Score and Status
Agricultural Export Credit Guarantee Programs – CCC’s Export Credit Guarantee programs encourage U.S.
agricultural exports by underwriting credit to pay for food and agricultural products sold to foreign buyers.
   x    USDA Strategic Goal Alignment – Enhance International Competitiveness of American Agriculture
   x    Lead Agency – FAS


     Recommendations from                          Status of Implementing Recommendations
          PART Process
   Develop a means of regularly     COMPLETED. In FY 2006, USDA's Office of the Inspector General (OIG)
   performing independent           stated in its business plan that it will conduct a review of the Export Credit
   evaluations to examine           Guarantee Program. For future years, we will work to achieve the objective
   program effectiveness.           of contracting, using FAS S&E funds, with USDA/ERS, OIG or another
                                    independent party to conduct an independent review of the Export Credit
                                    Guarantee Program prior to FY 2010.
   Provide funding in the Budget    COMPLETED. In FY 2005, CCC's Sec. 4 authority was used to provide up
   to improve claims recoveries.    to $2.085 million for a contract to improve recovery of private, foreign debt
                                    issued under the ECGP. Since mid-March 2005 when the contract went
                                    into effect, about $1.7 million in claims recoveries has been collected. For
                                    FY 2006, $1.965 million in funding under CCC's Sec. 4 authority is being
                                    provided for contracting legal services and investigators in overseas
                                    markets, claims processing and debt recovery. The FY 2006
                                    Appropriations Act also included $775,000 to continue claim recovery
                                    activities started in FY 2005.
   Include a reduction in           COMPLETED. All USDA credit programs, including the ECGP, adopted
   administrative costs in the      with OMB approval, an efficiency measure comparing program
   budget.                          administrative costs to the overall guarantees issued and outstanding. On
                                                                                                                     38
                                   Commodity Credit Corporation
                                   Consolidated Financial Report
                                Management’s Discussion and Analysis

    Recommendations from                       Status of Implementing Recommendations
        PART Process
                                 this basis, the ECGP demonstrated a high degree of efficiency, recording
                                 in FY 2004 an efficiency measure of .03% (= .0003 cents/$1 ECG) and
                                 .06% in FY 2005 (=.0006 cents/$1 ECG).
  Develop meaningful targets     COMPLETED. All USDA credit programs, including the ECGP, adopted
  for the efficiency measure.    with OMB approval an efficiency measure comparing program
                                 administrative costs to the overall guarantees issued and outstanding. On
                                 this basis, the ECGP demonstrated a high degree of efficiency, recording
                                 an efficiency measure of .03% (= .0003 cents/$1 ECG) in FY 2004
                                 and.06% (=.0006 cents/$1ECG) in FY 2005. An output measure may be
                                 another means of looking at administrative costs and efficiencies. Since
                                 the late 1990s, operations staff has processed 50% more applications
                                 (6,000 applic./year compared to 4,000 applic./yr) with fewer staff. In FY
                                 2005, the GSM online system became available, allowing bankers and
                                 exporters the ability to complete program applications online. We
                                 anticipate that increased use of this system should help decrease
                                 administrative time associated with taking program applications. We will
                                 continue to examine whether this approach of comparing the no. of
                                 processed applications to staffing could serve as an additional efficiency
                                 measure.
  Improve claims recoveries      COMPLETED. FAS has implemented a number of measures which should
  and reduce defaults.           reduce defaults under the ECGP. Beginning July 1, 2005, FAS set risk-
                                 based fees for the program so that transactions involving greater risk are
                                 charged a higher fee for program participation. FAS is also not issuing any
                                 export guarantees under the longer term GSM 103 program and has
                                 elected not to issue guarantees to those countries with the highest
                                 repayment risk (countries rated an E- or below). These actions should
                                 decrease default rates and improve the program's ability to achieve a
                                 breakeven point over time. In addition, the Supplier Credit Guarantee
                                 Program (SCGP) has not been announced for FY 2006; we are examining
                                 ways in which the program can be made more default-resistant before
                                 restarting it. For recoveries of prior claims, FAS secured funding in FY
                                 2005 and FY 2006 to contract for legal services and investigators in
                                 overseas markets, claims processing and debt recovery. Finally, we are
                                 working with the OIG and the Department of Justice to pursue claims
                                 recoveries.

Key Performance Measures:
  Key Performance Measure                                2001    2002    2003     2004    2005    2006
  Application Response Time—Food Aid                     N/A     N/A     N/A      N/A     N/A     90 days
  Estimated trade value resulting from USDA GSM          N/A     N/A     $3.63    $4.20   $2.91   $1.39
  export credit guarantee programs (billions)
  Administrative cost per loan -- measures USDA's        N/A     N/A     .04%     .03%    .06%    .10%
  efficiency of loan making and servicing




                                                                                                               39
                                      Commodity Credit Corporation
                                      Consolidated Financial Report
                                   Management’s Discussion and Analysis



                   Management Summary, Initiatives, Information and Issues

INITIATIVE: BUDGET AND PERFORMANCE MANAGEMENT SYSTEM

The Budget and Performance Management System (BPMS) is a management initiative led by the FSA in
collaboration with the FAS and other USDA Agencies. A primary objective of BPMS is to integrate and improve
management processes and information systems to enable the Agencies to better respond to administrative
resource challenges and constraints (noted in Future Effects of Current Demands, Events, and Conditions).
BPMS encompasses the management processes and information systems for CCC planning, budget formulation,
budget execution, managerial cost accounting and elements of financial statement preparation. BPMS has
already delivered a modernized budgeting platform and has defined a more integrated framework for reporting
CCC performance results. Future activities include the implementation of a CCC managerial cost accounting
model which will provide full program costs and other cost management reports and analyses. Each FSA
program area, including non-CCC program areas, are in the process of defining direct unit cost and indirect cost
metrics using a standard methodology, activity dictionary, and formulas. Implementation of the CCC managerial
cost accounting capability will be enabled by new labor data collection system, improvements to workload data
collection, and a commercial off-the-shelf (COTS) budgeting and cost accounting tool. The BPMS is the featured
initiative on the USDA Financial Data Integration Improvement Plan (FDIIP) for the Farm and Foreign Agricultural
Service (FFAS) business area. The FDIIP is the plan to get the USDA to green in Improved Financial
Management. Progress is reported on a quarterly basis to USDA through the FDIIP. Implementation is underway
and is expected to be completed by the end of FY 2009.


INITIATIVE: FINANCIAL MANAGEMENT - LINE OF BUSINESS (FM-LOB) AND FINANCIAL MANAGEMENT
MODERNIZATION INITIATIVE (FMMI)

The FM-LOB Initiative:
The FM-LOB Initiative is mandated by the OMB. It will identify Centers of Excellence for various business
functions performed in the Government. These Centers of Excellence will become the service providers for other
Government Agencies that perform similar lines of business. The goal is to reduce the redundancy of systems
development within the Government by consolidating services into those Centers of Excellence.

The FMMI Overview:
FSA/CCC in partnership with USDA’s OCFO is pursuing significant modernization of aging departmental and
agency financial systems in order to address challenges and opportunities in the rapidly changing federal financial
management and technology environment. The primary objective of the FMMI is to improve financial
management performance by efficiently providing USDA agencies with a modern, core financial management
system that both complies with federal accounting and systems standards and provides maximum support to the
Agencies’ mission.

FSA/CCC in partnership with USDA is undertaking the FMMI program for three main reasons:
Grants Management Line of Business: USDA is developing a strategy to implement the Grants Management Line
of Business (GMLoB) approach to managing grant activity as part of the President’s Management Agenda. The
GMLoB is an Office of Management and Budget initiative that will identify Centers of Excellence for various
business functions performed in the Government. These Centers of Excellence will become the service providers
for other Government Agencies that perform similar lines of business. The goal is to reduce the redundancy of
systems development within the Federal Government by consolidating services into those Centers of Excellence.
Support USDA Mission: To support all elements of the departmental mission, USDA officials require high-quality
financial and performance information to make and implement effective policy, management, stewardship, and
program decisions. The implementation, operations and maintenance of certified, technologically advanced, and
reliable financial systems will contribute to USDA’s mission, strategic goals, and objectives.


                                                                                                                40
                                        Commodity Credit Corporation
                                        Consolidated Financial Report
                                     Management’s Discussion and Analysis

Meet Legislative and Management Mandates: The FMMI program will enable FSA/CCC to meet its fiduciary
responsibilities, including accountability for U.S. tax dollars, and to comply with several legislative and regulatory
mandates. These mandates include regulations such as the Chief Financial Officer’s (CFO) Act, the Federal
Managers’ Financial Integrity Act (FMFIA), the Federal Financial Management Improvement Act (FFMIA), the
Clinger-Cohen Act, the Government Paperwork Elimination Act (GPEA), Financial System Integration Office
(FSIO, formerly the Joint Financial Management Improvement Program or JFMIP), the Government Performance
and Results Act (GPRA), the Federal Information Security Management Act (FISMA), and associated National
Institute of Standards and Technology (NIST) guidance in NIST SP 800-53.

Address Legacy System Support and Material Weaknesses: The CCC legacy accounting systems are no longer
supported by the vendor, and CCC must address material weaknesses in agency-specific general ledger
systems.

CCC intends to replace several legacy financial systems, including their current core financial management
system, Foundation Financial Information System (FFIS), administrative and program general ledger systems and
consolidate their data and business function with a new Federal Systems Integration Office/Joint Financial
Management Improvement Program (FSIO/JFMIP) compliant Commercial-Off-the-Shelf (COTS) accounting and
ledger system. To meet this objective, CCC, together with USDA and the vendor, will perform an analysis of all
CCC’s financial and program applications and their functionality to identify possible candidates for:

    x   Full replacement by the new system
    x   Partial replacement of only financial functionality by the new system
    x   Interfaces into the new system.


INITIATIVE: IMPLEMENTATION OF OMB CIRCULAR A-123

Circular No. A-123 is issued under the FMFIA and implemented by the OMB. OMB Circular A-123 provides
guidance to Agencies to ensure programs are managed appropriately and their financial statements accurately
reflect agency operations. A-123 requires that FSA assess its operational controls and document the
performance of those controls. Controls may be automated or manual, and may be in a FSA County office or in
the FSA National Office. Controls that do not perform as intended, or do not have verifiable mitigating controls,
must be reviewed. After review, a plan is implemented to strengthen control effectiveness as FSA assumes
accountability for ensuring that its programs are administered as intended and funding received for those
programs is expended as instructed.

FSA utilized the services of a contractor to help with portions of the A-123 implementation for FY 2006. The
contractor provided a systematic process to identify each control separating it from other processes. From the
identified controls, the contractor then defined those that are key to operations. Only key controls were tested for
their effectiveness.

The selection of the controls from other ordinary processes and the further narrowing of the testing to only include
key controls, posed the largest challenge for those in charge of the implementation. CCC cycle memos were
used as the basis for the testing and controls were selected from the text. While the contractors and FSA
employees shared the actual testing responsibilities, FSA employees were charged with ensuring that the testing
was accurate and the tested controls accurately reflected the actions taken by FSA in its operations.


INITIATIVE: REORGANIZATION OF FMD

One major challenge for the management of the FMD was the reorganization of the staff and office structure. To
accomplish the delivery of improved financial performance in accordance with the President’s Management
Agenda, the FMD needed to “Create and implement initiatives to actively engage the workforce, better align
resources and processes, strengthen communications, and develop succession plans and training strategies.”

                                                                                                                    41
                                      Commodity Credit Corporation
                                      Consolidated Financial Report
                                   Management’s Discussion and Analysis


The management of FMD sees financial improvement as being accomplished through performance
measurement, accountability and data integrity. FMD is facing a higher degree of accountability, while facing
shrinking budgets and an aging workforce that is rapidly approaching potential retirement.

The desired outcomes of the reorganization of FMD are numerous. First and foremost is the clarification of
FMD’s roles and responsibilities within FSA, FAS, CCC and USDA and the establishment of clear lines of
responsibility. FMD seeks to improve the delivery of its services while eliminating material weaknesses identified
by management and by the auditors. FMD desires to have satisfied customers with access to the financial
information they need to make decisions. The final desired outcome of the reorganization is to have satisfied and
skilled employees that know what is expected from them and are motivated to stay with FMD.

With FMD having established the goals for the reorganization, management worked to set strategies to achieve
these goals. The first strategy was to align with Agency and Department strategic plans and link responsibility
and accountability for all employees within FMD. FMD also sought to improve employee understanding of and
participation in the FMD mission and goals. Complete succession planning was deemed necessary to ensure the
transfer of knowledge within FMD. Finally, adequate preparation for the transition to FMMI was found to be
essential to the reorganization.

The reorganization was approved by the Deputy Administrator for Management on August 16, 2006. With these
goals and strategies in place, management is prepared for a smooth transition through the reorganization into the
new structure of FMD.




                                                                                                                42
CONSOLIDATED FINANCIAL STATEMENTS
                                                  COMMODITY CREDIT CORPORATION
                                                   Consolidated Financial Statements
                                                      Fiscal Years 2006 and 2005

Commodity Credit Corporation
Consolidated Balance Sheets

As of September 30, 2006 and 2005
(Dollars in Millions)

                                                                            2006                        2005
Assets:
  Intragovernmental:
    Fund Balance with Treasury (Note 2)                                         $    1,740                  $     2,781
    Accounts Receivable, Net (Note 3)                                                  174                          387
    Other                                                                                1                            1
  Total Intragovernmental Assets                                                $    1,915                  $     3,169

  Cash                                                                                  36                           59
  Accounts Receivable, Net (Note 3)                                                  6,396                        7,572
  Loans and Credit Program Receivables:
    Commodity Loans, Net (Note 4)                                  $    1,360                  $    1,031
    Credit Program Receivables, Net (Note 5)                            5,823                       7,237
    Other Foreign Receivables, Net                                         20                          26
  Subtotal                                                                      $    7,203                  $     8,294

  Commodity Inventories, Net (Note 6)                                                   55                          29
  General Property and Equipment, Net (Note 7)                                          52                          52
  Other                                                                                 32                          28

Total Assets                                                                    $   15,689                  $    19,203

Stewardship Land (Note 14)

Liabilities:
   Intragovernmental:
     Accounts Payable                                                           $        -                  $       819
     Debt to the Treasury (Note 8)                                                  19,768                       23,426
     Other:
         Resources Payable to Treasury                             $    3,599                  $    4,681
         Deposit and Trust Liabilities (Note 9)                           998                         739
         Other (Note 10)                                                  507                         926
     Subtotal                                                                   $    5,104                  $     6,346

  Total Intragovernmental Liabilities                                           $   24,872                  $    30,591

  Accounts Payable                                                              $      154                  $      469
  Credit Guarantee Liabilities (Note 5)                                                220                         260
  Environmental and Disposal Liabilities (Note 11)                                      11                          11
  Other Liabilities:
    Accrued Liabilities (Note 12)                                  $   13,505                  $   14,644
    Deposit and Trust Liabilities (Note 9)                                  1                          28
    Other (Note 10)                                                        58                          33
  Subtotal                                                                      $   13,564                  $    14,705

Total Liabilities                                                               $   38,821                  $    46,036

Commitments and Contingencies (Note 13)

Net Position:
  Unexpended Appropriations                                                     $       842                 $       714
  Capital Stock                                                                         100                         100
  Cumulative Results of Operations                                                  (24,074)                    (27,647)

Total Net Position                                                              $   (23,132)                $   (26,833)

Total Liabilities and Net Position                                              $   15,689                  $    19,203


The accompanying notes are an integral part of these statements.




                                                                                                                Page 1
                                              COMMODITY CREDIT CORPORATION
                                               Consolidated Financial Statements
                                                  Fiscal Years 2006 and 2005

Commodity Credit Corporation
Consolidated Statements of Net Cost (Note 15)

For the Fiscal Years Ended September 30, 2006 and 2005
(Dollars in Millions)

                                                                                   2006                2005
Strategic Goals:
Supporting Productive Farms and Ranches:
     Gross Cost                                                              $            22,778   $           34,537
     Less: Earned Revenue                                                                  4,306               12,650
     Net Goal Cost                                                           $            18,472   $           21,887

Supporting Secure and Affordable Food and Fiber:
    Gross Cost                                                               $               47    $             (375)
    Less: Earned Revenue                                                                     19                    62
    Net Goal Cost                                                            $               28    $             (437)

Conserving Natural Resources and Enhancing the Environment:
   Gross Cost                                                                $             2,366   $            2,157
   Less: Earned Revenue                                                                       35                    2
   Net Goal Cost                                                             $             2,331   $            2,155

Supporting International Economic Development and Trade Capacity Building:
    Gross Cost                                                               $             1,372   $              907
    Less: Earned Revenue                                                                   1,190                1,253
    Net Goal Cost                                                            $               182   $             (346)

Intra-entity Eliminations:
     Gross Cost                                                              $              (520) $              (733)
     Less: Earned Revenue                                                                   (520)                (733)
     Net Goal Cost                                                           $               -    $               -

  Total Gross Cost                                                           $            26,043   $           36,493
  Less: Total Earned Revenue                                                               5,030               13,234
  Net Cost of Operations                                                     $            21,013   $           23,259




The accompanying notes are an integral part of these statements.




                                                                                                              Page 2
                                          COMMODITY CREDIT CORPORATION
                                           Consolidated Financial Statements
                                              Fiscal Years 2006 and 2005




Commodity Credit Corporation
Consolidated Statements of Changes in Net Position

For the Fiscal Years Ended September 30, 2006 and 2005
(Dollars in Millions)
                                                                        2006                  2005


Capital Stock                                                      $              100     $             100

Cumulative Results of Operations:
Beginning Balances                                                 $           (27,647) $            (15,033)

Budgetary Financing Sources:
 Appropriations Used                                                           27,254                14,789
 Non-exchange Revenue                                                              17                     5
 Transfers in/out without Reimbursement                                        (3,293)               (4,447)

Other Financing Sources (Non-Exchange):
 Transfers in/out without Reimbursement                                          (533)                 (984)
 Imputed Financing                                                              1,141                 1,094
 Other                                                                              -                   188

Total Financing Sources                                            $            24,586 $              10,645
Net Cost of Operations                                                         (21,013)              (23,259)
Net Change                                                         $             3,573 $             (12,614)

Cumulative Results of Operations                                               (24,074)              (27,647)

Unexpended Appropriations:
Beginning Balance                                                                 713                 1,647

Budgetary Financing Sources:
 Appropriations Received                                                        27,220                14,546
 Appropriations Transferred in/out                                                 215                  (476)
 Other Adjustments                                                                 (52)                 (214)
 Appropriations Used                                                           (27,254)              (14,789)
 Total Budgetary Financing Sources                                 $               129 $                (933)
Total Unexpended Appropriations                                    $               842 $                 714


Net Position                                                       $           (23,132) $            (26,833)

The accompanying notes are an integral part of these statements.




                                                                                                     Page 3
                                                   COMMODITY CREDIT CORPORATION
                                                    Consolidated Financial Statements
                                                       Fiscal Years 2006 and 2005

Commodity Credit Corporation
Combined Statements of Budgetary Resources (Note 16)

For the Fiscal Years Ended September 30, 2006 and 2005
(Dollars in Millions)
                                                                                     2006                                        2005
                                                                                              Non-Budgetary                            Non-Budgetary
                                                                                              Credit Program                           Credit Program
                                                                       Budgetary            Financing Accounts      Budgetary        Financing Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1                    $                1,299 $              2,699 $                1,197 $           2,643
Recoveries of prior year unpaid obligations                                         4,945                    4                  2,836                 3
Budget authority:
 Appropriation                                                                     28,112                    -              15,444                    -
 Borrowing authority (Note 16)                                                     44,465                  824              45,357                  688
 Spending authority from offsetting collections:
   Earned:
     Collected                                                                     15,067                1,174              17,267                1,768
     Change in receivables from Federal sources                                        54                  (29)              (158)                (113)
   Change in unfilled customer orders:
     Advance received                                                              259                        -             (1,387)                   -
 Expenditure transfers from trust funds                                            891                        -                 899                   -
   Subtotal                                                        $            88,848 $                  1,969 $            77,422 $             2,343
Nonexpenditure transfers, net, actual                                          (1,872)                        -             (2,837)                   -
Permanently not available                                                     (50,152)                  (1,690)            (33,582)               (734)
Total Budgetary Resources                                          $            43,068 $                  2,982 $            45,036 $             4,255

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                           $                2,970 $              1,355 $             2,954 $              1,556
  Reimbursable                                                                     38,932                    -              40,782                    -
    Subtotal                                                       $               41,902 $              1,355 $            43,736 $              1,556
Unobligated balance:
  Apportioned                                                                         363                  748                 331                2,523
  Exempt from apportionment                                                           533                    -                 872                    6
    Subtotal                                                       $                  896 $                748 $             1,203 $              2,529
Unobligated balance not available                                                     270                  879                  97                  170
Total Status of Budgetary Resources                                $               43,068 $              2,982 $            45,036 $              4,255

Change in Obligated Balance:
Obligated balance, net, beginning of period
  Unpaid obligations, brought forward, October 1                   $                9,649 $                 49 $                6,975 $               88
  Less: Uncollected customer payments from Federal sources,
  brought forward, October 1                                                   (1,221)                    (203)             (1,379)                (316)
    Total unpaid obligated balance, net                            $             8,428 $                  (154) $             5,596 $              (228)
Obligations incurred, net                                                       41,902                    1,355              43,736                1,556
Less: Gross outlays                                                           (37,325)                  (1,325)            (38,011)              (1,591)
Obligated balance transferred, net
  Actual transfers, unpaid obligations                                                -                       -               (216)                     -
    Total unpaid obligated balance transferred, net                $                  - $                     - $             (216) $                   -
Less: Recoveries of prior year unpaid obligations, actual                      (4,945)                      (4)             (2,836)                   (3)
Change in uncollected customer payments from Federal sources                       (54)                      29                 159                  113
Total Change in Obligated Balance                                  $             8,006 $                   (99) $             8,428 $              (153)
Obligated balance, net, end of period:
  Unpaid obligations                                               $             9,281 $                    75 $              9,649 $                 50
  Less: Uncollected customer payments from Federal sources                     (1,275)                   (174)              (1,221)                (203)
Total, unpaid obligated balance, net, end of period                $             8,006 $                  (99) $              8,428 $              (153)

Net Outlays:
Gross outlays                                                      $            37,325 $                  1,325 $            38,011 $              1,591
Less: Offsetting collections                                                  (16,218)                  (1,174)            (16,780)              (1,768)
Less: Distributed Offsetting receipts                                                -                    (987)                   -                (723)
Net Outlays                                                        $            21,107 $                  (836) $            21,231 $              (900)



The accompanying notes are an integral part of these statements.




                                                                                                                                              Page 4
                                                COMMODITY CREDIT CORPORATION
                                                 Consolidated Financial Statements
                                                    Fiscal Years 2006 and 2005


Commodity Credit Corporation
Consolidated Statements of Financing (Note 17)

For the Fiscal Years Ended September 30, 2006 and 2005
(Dollars in Millions)


                                                                                                  2006                  2005

Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations Incurred                                                                        $          43,256     $          45,293
  Less: Spending Authority from Offsetting Collections and Recoveries                                    22,365                21,116
  Obligations Net of Offsetting Collections and Recoveries                                    $          20,891     $          24,177
  Less: Offsetting Receipts                                                                                 987                   723
  Net Obligations                                                                             $          19,904     $          23,454
Other Resources:
  Transfers In/Out without Reimbursement                                                      $            (533) $               (984)
  Imputed Financing from Costs Absorbed by Others                                                         1,141                 1,094
  Other                                                                                                     -                     188
  Net Other Resources Used to Finance Activities                                              $             608 $                 298

Total Resources Used to Finance Activities                                                    $          20,512     $          23,752

Resources Used to Finance Items not Part of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods,
     Services and Benefits Ordered but not Yet Provided                                       $             (128) $              (933)
  Resources that Fund Expenses Recognized in Prior Periods                                                   (97)                 479
  Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost
     of Operations
            Credit Program Collections which Increase Liabilities for Loan
               Guarantees or Allowances for Subsidy                                                        2,094                 3,287
            Other                                                                                          7,067                10,369
  Resources that Finance the Acquisition of Assets                                                       (13,224)              (18,587)
  Other Resources or Adjustments to Net Obligated Resources that Do Not
     Affect Net Cost of Operations                                                                        (1,650)                (539)

Total Resources Used to Finance Items Not Part of the Net Cost of Operations                  $           (5,938) $             (5,924)

Total Resources Used to Finance the Net Cost of Operations                                    $          14,574     $          17,828

Components of the Net Cost of Operations that will not Require or Generate Resources in the
  Current Period:
Components Requiring or Generating Resources in Future Periods:
  Upward/(Downward) Reestimates of Credit Subsidy Expense                                     $             233 $                 (992)
  Increase in Exchange Revenue Receivable from the Public                                                  (135)                (7,790)
  Other                                                                                                    (192)                 7,415
  Total Components of Net Cost of Operations that will Require or Generate Resources
     in Future Periods                                                                        $              (94) $             (1,367)
Components not Requiring or Generating Resources:
  Depreciation and Amortization                                                                             (28)                  114
  Revaluation of Assets or Liabilities                                                                      (76)                 (533)
  Other                                                                                                   6,637                 7,217
  Total Components of Net Cost of Operations that will not Require or Generate Resources      $           6,533 $               6,798

Total Components of Net Cost of Operations that will not Require or Generate Resources
      in the Current Period                                                                   $           6,439     $           5,431

Net Cost of Operations                                                                        $          21,013     $          23,259




The accompanying notes are an integral part of these statements.




                                                                                                                           Page 5
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005


                                         Glossary of Acronyms
ADP – Automatic Data Processing
AMAP – Agricultural Management Assistance Program
AMS – Agricultural Marketing Service
APHIS – Animal and Plant Health Inspection Service
BARC – Balances Approach Reestimate Calculator
BEHT – Bill Emerson Humanitarian Trust
CCC – Commodity Credit Corporation
CRP – Conservation Reserve Program
DOT – Department of Transportation
EQIP – Environmental Quality Incentive Program
FACTS II – Federal Agencies Centralized Trial Balance System II
FAS – Foreign Agricultural Service
FNS – Food and Nutrition Service
FRB’s – Federal Reserve Bank
FSA – Farm Service Agency
FSFL – Farm Storage Facility Loan
GMLoB – Grants Management Line of Business
GRP – Grassland Reserve Program
GSM – General Sales Manager
HIPC - Heavily Indebted Poor Countries
ICRAS - Inter-Agency Risk Assessment System
MAP – Market Access Program
NAP – Noninsured Crop Disaster Assistance Program
NNCA – No Net Cost Assessment
NPV – Net Present Value
NRCS – National Resources Conservation Service
OGC – Office of the General Counsel
OMB – Office of Management and Budget
P&F Schedule – Program and Financing Schedule
RMA – Risk Management Agency
SBR – Statement of Budgetary Resources
SCGP – Supplier Credit Guarantee Program
SFFAS – Statement of Federal Financial Accounting Standards
TTPP – Tobacco Transition Payment Program
USAID – United States Agency for International Development
USDA – United States Department of Agriculture
WRP – Wetland Reserve Program
WTO – World Trade Organization

                                                                        Page 6
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 1 - Significant Accounting Policies

The financial statements report the financial position and results of operations of the Commodity Credit
Corporation (CCC, the Corporation, or the Agency) pursuant to the requirements of 31 U.S.C. 3515 (b).
These statements have been prepared from the accounting records of the Agency for the years ended 2006
and 2005, respectively, in accordance with generally accepted accounting principles for Federal entities and
policies prescribed in Office of Management and Budget (OMB) Circular A-136, Financial Reporting
Requirements. The statements are in addition to the external financial reports used to monitor and control
budgetary resources, which are also prepared from CCC’s general ledger. These financial statements are a
component of the U.S. Government, a sovereign entity.

Reporting Entity
CCC is a Federal corporation operating within and through the United States Department of Agriculture
(USDA). It was established to stabilize, support, and protect farm income and prices; assist in the
maintenance of balanced and adequate supplies of agricultural commodities; and facilitate the orderly
distribution of those commodities.

CCC’s statutory authority for its operations is found in the CCC Charter Act, 15 U.S.C. 714, et seq. The
Corporation is managed by a Board of Directors, subject to the general supervision and direction of the
Secretary of Agriculture, who is an ex-officio director and chairperson of the Board. The members of the
Board and the Corporation's officers are officials of USDA.

CCC operations are financed through appropriated funds, as well as an authority to borrow from the U.S.
Treasury (Treasury). The Treasury also holds capital stock in the amount of $100 million with no obligation to
repay, on which the Corporation pays interest. CCC receives direct appropriations for some of its foreign
assistance programs and special activities, such as disaster aid. Permanent indefinite borrowing authority
exists for programs subject to the Federal Credit Reform Act of 1990, as amended (Credit Reform). Receipts
flowing through CCC's revolving fund include proceeds from the sale of CCC commodities, loan repayments,
interest income, and various program fees.

CCC has no employees or facilities. Its programs are administered through various agencies, including
USDA’s Farm Service Agency (FSA), the Agriculture Marketing Service (AMS), the Natural Resources
Conservation Service (NRCS), and the Foreign Agriculture Service (FAS); and the United States Agency for
International Development (USAID). The accompanying financial statements include an allocation, as
appropriate, of salaries and expenses (e.g., facility costs) incurred by these agencies. In other instances,
CCC reimburses the other agencies for their administrative costs.

Basis of Accounting
The accounting principles and standards applied in preparing the financial statements and described in this
note are in accordance with generally accepted accounting principles for Federal entities. The financial
statements and accompanying notes are presented in accordance with the form and content guidelines
established by OMB in Circular A-136.

Transactions are recorded on the accrual basis of accounting. Under the accrual method, revenues are
recognized when earned and expenses are recognized when a liability is incurred, without regard to receipt or
payment of cash. The financial statements include all Treasury funds of CCC, which encompass its domestic
and foreign activities. In consolidation, intra-agency activities and balances have been eliminated, except for
the Statement of Budgetary Resources (SBR), which is presented on a combined basis as required by OMB
guidance.




                                                                                                       Page 7
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 1 - Significant Accounting Policies, continued

Fund Balance with Treasury
Most CCC disbursements are made by either checks or electronic payments drawn against its account at
Treasury. Generally, disbursements and receipts for which CCC is responsible are processed by the Federal
Reserve Banks (FRB’s), their branches, and the Treasury, which then report the activity to the Corporation.

Cash
Treasury requirements for the Federal Agencies Centralized Trial Balance System II (FACTS II), used for the
preparation of Treasury and the OMB yearend reports, require that the Fund Balance with Treasury (FBWT)
amount reported via FACTS II be in agreement with what is reflected in Treasury’s records. To adhere to
these requirements, cash timing differences due to deposits in-transit or outstanding checks are reported as
“in-transit”. The cash balance consists of these timing differences as a result of varying processing times and
cut-off dates between CCC, Treasury, and other USDA entities.

CCC does not maintain cash in commercial bank accounts.

Accounts Receivable
Accounts receivable arise from claims to cash or other assets against other entities, either based on legal
provisions, such as payment due date, or goods or services provided.

Accounts receivable are adjusted by a valuation allowance based on historical collection, write-off information,
and other analysis, which reduces the receivables to their estimated net realizable value.

Commodity Loans
CCC makes both recourse and nonrecourse loans to producers of designated agricultural commodities. In
the case of nonrecourse loans, producers have the option to: (a) repay the principal plus interest; (b) for
certain announced commodities, repay the loan at the market rate; or (c) at maturity, forfeit the commodity in
satisfaction of the loan. These loans are not subject to the accounting and reporting requirements of Credit
Reform (Note 5) because these loans are less than 12 months in duration.

Interest is accrued on the unpaid principal balance of commodity loans and is included in the reported net
commodity loans receivable.

Commodity loans are reported net of an allowance for doubtful accounts, which reduces the loans to their
estimated net realizable value. The allowance is based on the estimated loss on ultimate disposition, when it
is more likely than not that the loans will not be fully collected. The allowance also takes into account losses
anticipated on the disposition of inventory acquired through loan forfeiture. When forfeited commodities are
subsequently disposed, any loss on the disposition is realized as either a cost of sales or donation, depending
on the type of disposition.

Tobacco Transition Payment Program (TTPP)
The American Jobs Creation Act of 2004, which included the Fair and Equitable Tobacco Reform Act (the
Law), effectively ended the tobacco loan program for CCC, which provided recourse loans to tobacco
producers or quota holders. The quota holders are the landowners of the farm where a tobacco quota was
assigned. Quota was the quantity of tobacco required to meet the national domestic needs during the year.
That national amount was allocated among all the prior year quota holders to establish the quantity of tobacco
that each individual quota holder could market during the program year.

The Act required CCC to dispose of its outstanding loan portfolio and establish contracts with and make
payments to tobacco producers and quota holders to transition from the previous price support program to a
free market. This transition period will occur over ten years. The Law authorized a total maximum of $10.14
billion over the period to cover the losses related to disposing of the tobacco loan collateral,


                                                                                                        Page 8
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 1 - Significant Accounting Policies, continued

making payments to producers and quota holders, and other eligible expenses. CCC estimates that
payments made, over the 10-year period, will be approximately $6.7 billion to quota holders. Approximately
$2.9 billion will be paid to tobacco producers over the 10-year period. All quota holder and producer
payments began in FY 2005. The total source of revenue or other financing for the program is intended to be
derived from assessments levied upon manufacturers and importers of tobacco products and collected
quarterly. Manufacturers and importers are expected to pass these costs on to consumers of tobacco
products through increased sales prices. All collections from the tobacco industry are deposited into the
Tobacco Trust Fund.

Generally, payments are made to quota holders and producers in January, which is prior to the quarterly
collection of assessments from the tobacco manufacturers and importers. Because of the difference in timing
of the collections and assessments, collections will not match disbursements on an annual basis. The Law
allows CCC’s revolving fund to make payments to the quota holders and producers and allows for
reimbursement from the Tobacco Trust Fund. The assessments collected from the tobacco industry are
shown as revenue in the Tobacco Trust Fund. These amounts are transferred to CCC’s revolving fund to
reimburse CCC’s revolving fund for the payments made to quota holders and producers based on approved
contracts.

In FY 2005, CCC recognized a public receivable for the present value of the expected future collections from
the manufacturers and importers over the 10-year period ending in 2014. In addition, CCC recognized an
accrued liability for the present value of the remaining pay-out amount to the quota holders and producers.
Because the trust fund collections from the tobacco manufacturers and importers are intended to fund the
payments to quota holders and producers, the present value of the public receivable and the liability were
reported in equal amounts on the balance sheet in FY 2005. As actual activity is occurring each fiscal year,
the receivable and accrued liability estimates are adjusted to reflect the expected cash flows for the remaining
period of the contracts, as well as the historical collection and disbursement activity.

During FY 2005, CCC disposed of its tobacco loan portfolio by calling the loans and taking the tobacco loan
collateral into CCC inventory. This action closed all loan balances. The tobacco inventory was disposed of
through an exchange with the tobacco associations, where the No Net Cost Tobacco Account funds were
used to purchase tobacco inventory, and auction sales, where the highest bidder received the tobacco
inventory. All tobacco inventory was disposed of during FY 2005 and the majority of the approximately $292
million loss realized was invoiced to the tobacco industry as part of the September 30, 2005 quarterly
assessment invoice.

Credit Program Receivables
CCC has several credit programs subject to Credit Reform requirements. Credit program receivables consist
of:

•   direct credits extended under PL 83-480 (PL 480) programs and the Food for Progress Program;
•   receivables in the Debt Reduction Fund (see Note 5);
•   loans made to grain producers to build or upgrade farm storage and handling facilities;
•   loans made to apple producers who incurred losses due to low market prices; and
•   a loan made to the Texas Boll Weevil Eradication Foundation

These receivables (including related interest), for both pre- and post-Credit Reform, are recognized as assets
at the present value of their estimated net cash inflows. The difference between the outstanding principal of
these receivables and the present value of their net cash inflows is recognized as an allowance. CCC uses
the Balances Approach Reestimate Calculator (BARC) for computing the subsidy reestimates for its foreign
Credit Reform programs and the Treasury Credit Reform Certificate Program guidelines and SFFAS No. 2,
Accounting for Direct Loans and Loan Guarantees, for the accounting and reporting of its loan subsidy cost
reestimation and amortization.


                                                                                                        Page 9
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 1 - Significant Accounting Policies, continued

Consistent with other USDA agencies, in order to meet reporting requirements, CCC calculates and pays
Treasury interest income and expense for its Credit Reform programs based on actual data through August
31, rather than September 30.

Capitalized Interest
Rescheduling agreements frequently allow CCC to add uncollected interest to the principal balance of foreign
credit and other foreign receivables (capitalized interest). In such circumstances, CCC records an allowance
to reduce the receivable, including the capitalized interest, to the net present value of future cash flows.
Interest income is recognized only when, in management's judgment, debtors have demonstrated the ability
to repay the debt in the normal course of business.

Commodity Inventories
Commodity inventories, referred to as goods held under price support and stabilization programs in the
SFFAS No. 3, Accounting for Inventory and Related Property, issued by the Federal Accounting Standards
Advisory Board, represent commodities acquired by the Corporation for donation or price support purposes.
They are eventually sold or otherwise disposed of to help satisfy economic goals.

Inventories are initially recorded at acquisition cost plus processing and packaging costs incurred after
acquisition. Acquisition cost is the amount of the loan settlement, excluding interest, or the amount of the
purchase settlement price. Since loan rates and income support levels are established by statute, inventory
acquisitions are usually recorded at a cost higher than market value.

Commodity inventories are reported at the lower of cost or net realizable value through the use of a
commodity valuation allowance. This allowance is based on the estimated loss on commodity dispositions,
including donations (for which a 100 percent allowance is established).

Generally, disposition costs are based on the average cost of the commodity in inventory at the end of the
previous month. In other cases, the cost is computed on the basis of actual (historical) cost of the commodity.
Actual cost is used with: (a) simultaneous acquisition and disposition for commodity export programs; and (b)
dispositions of commodities previously pledged as price support loan collateral, which are acquired and
simultaneously disposed of by CCC during the exchange of commodity certificates. Commodity certificates
are negotiable instruments issued by CCC, which can be exchanged for a commodity owned or controlled by
the Corporation.

In accordance with Treasury guidance, the cost of commodity inventories sold to other Federal entities is
classified as an expense with the public since the commodities being sold are originally purchased or
otherwise acquired from a public source.

General Property and Equipment
General property and equipment purchases are recorded at the acquisition cost plus expenditures related to
placing the asset into service, such as freight, installation, and testing. Purchases of personal property valued
at $25,000 or more, with a useful life of 2 years or greater are capitalized. Personal property and equipment
is depreciated on a straight-line basis. Automated Data Processing (ADP) equipment has a service life of 5
years, while non-expendable administrative property, such as computer equipment, is depreciated over a
service life range of 5 to 10 years. There is no salvage value associated with personal property and
equipment.

In addition, internal use software valued at $100,000 or more with a useful life of 2 years or greater is
capitalized. Internal use software development costs are accumulated and capitalized upon completion. In
accordance with SFFAS No. 10, Accounting for Internal Use Software, capitalized software development
costs include contractor developed software, purchased software, and internally developed software.
Capitalized internal use software costs are amortized over a period of 5 years, beginning with the first year
the software is fully operational. Also included are costs incurred by FSA which are reflected
                                                                                                        Page 10
                                     COMMODITY CREDIT CORPORATION
                                      Notes to the Financial Statements
                                         Fiscal Years 2006 and 2005

Note 1 - Significant Accounting Policies, continued

as software-in-development on CCC’s financial statements until such time as the software is completed and
put into operation. At that time, amortization will begin.

Producer Assistance Advances
Public Law 107-25 (commonly referred to as the Agricultural Economic Assistance Act) authorized three grant
programs whereby the Corporation disbursed funds to State governments for various purposes, such as
promoting agriculture and supporting activities for specialty crops. The disbursements are accounted for as
advances on the Other Assets line of the Balance Sheet and are recognized as expenses based on the
States’ reporting of their use of the funds.

Liabilities
Depending on the type of transaction, CCC recognizes a liability in one of two ways. If an exchange
transaction occurs (i.e., receipt of goods or services in return for a promise to provide money or other
resources in the future), a liability is recognized in the period in which the exchange occurred. If a
nonexchange transaction occurs (i.e., government programs where there is a one-way flow of resources or
promises), a liability is recognized for any unpaid amounts due as of the reporting date. Liabilities not
covered by budgetary resources, disclosed in Notes 11 and 12, result from the accrual of unpaid amounts due
for various CCC programs. Budgetary resources for the programs will not be made available until the
subsequent fiscal year.

Resources Payable to Treasury
Resources payable to Treasury represent the net resources of the pre-Credit Reform programs. These net
resources are held as working capital until funds are no longer needed to fund liabilities, at which time they
are returned to Treasury.

Credit Guarantee Liabilities
CCC’s Export Credit Guarantee program provides guarantees to buyers in countries where credit is
necessary to maintain or increase U.S. sales. CCC underwrites credit extended by the private banking sector
under GSM-102 and GSM-103 programs. Credit guarantee liabilities represent the estimated net cash
outflows (loss) of the guarantees on a net present value basis. To this effect, CCC records a liability and an
expense to the extent, in management's estimate, CCC will be unable to recover claim payments under the
Credit Reform Export Credit Guarantee programs.

Allocation Transfers and Shared Appropriations
CCC engages in what are defined by OMB as “parent/child” relationships with several agencies. OMB
guidance requires that if an allocation transfer is material to the child’s financial statements, the child should
report the activity relating to the allocation transfer in all of its financial statements, except the SBR, which is
reported in the parent’s financial statements. Accordingly, as a parent agency, CCC reports none of the
allocation transfer activity with USAID in its financial statements, except for the SBR.

The purpose of the allocation transfer to USAID is to fund PL 480 Title II transportation and other
administrative costs in connection with foreign donations. Under the same principle, as a child, CCC does
not include budgetary transaction activity related to FSA allocation transfer programs on CCC’s SBR. Those
transactions are recorded in FSA’s SBR. As a child agency, CCC records the transfer activities with FSA in
the Statement of Net Costs.

The Hazardous Waste Departmental activity is recorded in a shared account under USDA that retains the
fund symbol identified with the original appropriation from which monies are advanced. CCC’s portion of this
activity is included in these financial statements.




                                                                                                             Page 11
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 1 - Significant Accounting Policies, continued

Credit Reform Accounting
Credit reform accounting measures more accurately the costs of Federal credit programs and places the cost
of credit programs on a budgetary basis equivalent to other Federal spending. It applies to direct loans and
loan guarantees.

Direct loans are a disbursement of funds by the Government to non-Federal borrowers under contracts that
require the repayment of such funds with or without interest. It includes the purchase of, or participation in, a
loan made by another lender and financing arrangements that defer payment for more than 90 days. Direct
loans are not for the acquisition of federally guaranteed loans in satisfaction of default claims or the price
support loans of CCC. Loan guarantees are insurance or other pledge with respect to the payment of all or a
part of the principal or interest on any debt obligation of a non-Federal borrower to a non-Federal lender, but
do not include the insurance of deposits, shares, or other withdrawable accounts in financial institutions.

The cost of direct loans is accounted for on a net present value (NPV) basis, at the time when the direct loan
is disbursed. It includes the cash flows of loan disbursements; repayments of principal; and payments of
interest and other payments by or to the Government over the life of the loan. The NPV computation also
contains adjustments for estimated defaults, prepayments, fees, penalties, and other recoveries, including
any effects of changes in loan terms resulting from the exercise by the borrower of any option included in the
loan contract.

The cost of loan guarantees is also accounted for on a NPV basis, at the time when the guaranteed loan is
disbursed. It also contains the estimated cash flows of payments by CCC to cover defaults and
delinquencies, interest subsidies, or other payments; and payments to CCC including origination and other
fees, penalties and recoveries, including the effects of changes in loan terms resulting from the exercise by
the guaranteed lender of any option included in the loan guarantee contract, or by the borrower of an option
included in the guaranteed loan contract.

In estimating net present values, the discount rate is the average interest rate on marketable Treasury
securities of similar maturity to the cash flows of the direct loan or loan guarantee for which the estimate is
being made. When funds are obligated for a direct loan or loan guarantee, the estimated cost is based on the
current assumptions, adjusted to incorporate the terms of the loan contract, for the fiscal year in which the
funds are obligated.

The credit program account is the budget account into which an appropriation to cover the cost of a direct
loan or loan guarantee program is made and from which such cost is disbursed to the financing account. The
financing account is the non-budget account or accounts associated with each credit program account that
holds balances, receives the cost payment from the credit program account, and also includes all other cash
flows to and from CCC resulting from direct loan obligations or loan guarantee commitments made on or after
October 1, 1991. The liquidating account is the budget account that includes all cash flows to and from CCC
resulting from direct loan obligations or loan guarantee commitments made prior to October 1, 1991. These
accounts are shown in the budget on a cash basis.

Collections resulting from direct loans obligated or loan guarantees committed prior to October 1, 1991, are
credited to the liquidating accounts. The amounts credited are available, to the same extent that they were
available to liquidate obligations arising from such direct loans obligated or loan guarantees committed prior
to October 1, 1991, including repayment of any obligations held by the Secretary of the Treasury or the
Federal Financing Bank. The unobligated balances of such accounts that are in excess of current needs must
be transferred to the general fund of the Treasury. Transfers are made at least once each year.




                                                                                                         Page 12
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 1 - Significant Accounting Policies, continued

Tax Status
CCC, as a Federal agency, is not subject to Federal, State, or local income taxes, and accordingly, no
provision for income tax is necessary.

Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect
the reported amounts of assets, liabilities and disclosure of contingent assets and liabilities at the date of the
financial statements, and the reported amounts of revenues and expenses during the reporting period. Actual
results will invariably differ from those estimates.

Implementation of New Accounting Standards

SFFAS 29 – Heritage Assets and Stewardship Land
The Federal Accounting Standards Advisory Board’s SFFAS No. 29, Heritage Assets and Stewardship Land,
became effective beginning in FY 2006 and continuing through FY 2009. This new standard amends SFFAS
No. 6, Accounting for Property, Plant, and Equipment, SFFAS No. 8, Supplementary Stewardship Reporting,
and SFFAS No. 14, Amendments to Deferred Maintenance Reporting, and rescinds SFFAS No. 16,
Amendments to Accounting for PP&E: Multi-Use Heritage Assets, by:

    x   reclassifying all stewardship land information as basic except for condition information, which is
        reclassified as required supplementary information (RSI) (effective FY 2006);

    x   referencing a note on the balance sheet that discloses information about stewardship land, without
        showing an asset dollar amount (effective FY 2006);

    x   requiring two new disclosures for stewardship land: entity stewardship policies and an explanation of
        how stewardship land relates to the mission of the entity (effective FY 2006); and

    x   requiring a description of each major category of stewardship land use and quantification of
        stewardship land in terms of physical units (effective in phases FY 2007 to FY 2008).

In FY 2006, CCC has disclosed its stewardship land program, the Wetland Reserve Program, in the RSI and
notes in accordance with the requirements of SFFAS No. 29 effective in FY 2006.

Reclassifications
Certain reclassifications have been made to prior year amounts to conform to the current year presentation.




                                                                                                         Page 13
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 2 - Fund Balance with Treasury

Fund balances with Treasury, by type of fund, as of September 30, are as follows:

                                                                                    (In Millions)

                                                                           2006                       2005

Revolving Funds                                                    $               (287)     $               1,049
Appropriated Funds                                                                2,027                      1,732

Total Fund Balance with Treasury                                   $              1,740      $               2,781



The status of fund balances with Treasury as of September 30, is as follows:

                                                                                      (In Millions)

                                                                            2006                       2005
Unobligated Balance:
 Available                                                             $           1,795         $             3,828
 Unavailable                                                                       1,021                         254
Obligated Balance not yet Disbursed                                                7,015                       7,400
Subtotal                                                               $           9,831         $            11,482

Less: Borrowing Authority not yet Converted to Fund Balance                        (8,091)                    (8,701)

Total Fund Balance with Treasury                                       $           1,740         $             2,781

The unavailable balance represents unobligated resources not yet apportioned by OMB and unobligated
appropriations from prior years that are no longer available for new obligations. Total unobligated balances
and obligated balances not yet disbursed do not agree with the corresponding fund balance with Treasury
amounts presented above because CCC borrows funds from Treasury at the time certain obligations are
disbursed. Borrowing authority not yet converted to fund balance represents unobligated and obligated
amounts recorded at September 30, 2006 and 2005, which will be funded by future borrowings. In addition,
amounts presented in the above schedule do not agree with the corresponding line items on the SBR due to
OMB reporting requirements for allocation transfers. The total of the unobligated and obligated not yet
disbursed balances on the SBR is $10.7 billion and $12.3 billion as of September 30, 2006 and 2005,
respectively. The difference of $869 and $792 million, respectively, represents allocation transfer activity with
USAID and FSA. See Note 1 for information on CCC’s allocation transfer relationships.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11, Preparation and
Submission of Budget Estimates, of $30 billion. The Corporation’s borrowing authority is made up of both
interest and non-interest bearing notes. These notes are drawn upon daily when disbursements exceed
deposits, as reported by the FRB’s, their branches and CCC’s financing office. Due to month end
cash-in-transit timing differences, disbursements exceed deposits, including borrowing from Treasury, as of
September 30, 2006 causing a negative fund balance in CCC’s revolving funds in the amount of
$287 million. There are no unreconciled differences between CCC’s general ledger and the balances per
Treasury’s records. See Note 1 for a discussion on the treatment of timing differences.



                                                                                                               Page 14
                                  COMMODITY CREDIT CORPORATION
                                   Notes to the Financial Statements
                                      Fiscal Years 2006 and 2005

Note 3 - Accounts Receivable, Net

Accounts receivable as of September 30, are as follows:

                                                                             (In Millions)

                                                                    2006                     2005
Intragovernmental:
  Due from Department of Treasury                             $              25       $              136
  Due from Department of Transportation                                     122                      248
  Due from Other Federal Agencies                                            27                        3

Total Intragovernmental Accounts Receivable, Net              $             174       $              387

Public:
 Claims Receivable                                            $               73      $                67
 Notes Receivable                                                              7                        9
 Interest Receivable                                                          12                       12
 Tobacco Receivable                                                        6,336                    7,214
 Other                                                                        19                      342
Subtotal                                                      $            6,447      $             7,644

Less: Allowances for Doubtful Accounts                                       (51)                     (72)

Total Public Accounts Receivable, Net                         $            6,396      $             7,572


CCC records a receivable due from the Department of Treasury. The receivable is related to the collection of
credit subsidy for the Debt Reduction Fund. Since this Fund does not have a program fund account, CCC set
up a separate receivable to capture the transaction with Treasury.

The Cargo Preference provisions of the Food Security Act of 1985 provide for the reimbursement of certain
transportation costs the Corporation incurs under foreign assistance programs. In accordance with the cargo
preference provision, CCC established a receivable from the Department of Transportation (DOT) for freight
costs exceeding 20 percent of the total cost related to the donated commodities and ocean freight expenses.
This is authorized by Section 901d(b) of the Merchant Marine Act, 1938. CCC received $227 million and
$469 million in payments from DOT in FY 2006 and 2005, respectively.

Other public receivables consist of amounts due as a result of program overpayments under such programs
as Market Loss Assistance, Conservation Reserve Program, Price Support, and Direct and Counter Cyclical.

In FY 2005, CCC recognized a public receivable in the amount of $7.2 billion under the TTPP. The receivable
is valued at the present value of the remaining expected receipts in the Tobacco Trust Fund over the 10-year
period ending in 2014. Payments received from manufacturers and importers on a quarterly basis are
transferred to CCC’s revolving fund to reimburse it for disbursements made to the tobacco quota holders and
producers, and losses incurred on the calling of the tobacco loans. As of September 30, 2006, the balance of
the receivable is $6.3 billion. See Note 1 under TTPP discussion.




                                                                                                       Page 15
                                 COMMODITY CREDIT CORPORATION
                                  Notes to the Financial Statements
                                     Fiscal Years 2006 and 2005



Note 4 - Commodity Loans, Net

Commodity loans receivable, by commodity, as of September 30, are as follows:

                                                                           (In Millions)

                                                                  2006                     2005

Wheat                                                       $             196       $              330
Corn                                                                      234                      280
Soybeans                                                                  264                      153
Rice                                                                      189                      179
Cotton                                                                    502                       80
Other Commodities                                                          78                       86

Total Commodity Loans                                       $            1,463      $             1,108

Accrued Interest Receivable                                                29                       16

Less: Allowances for Losses                                              (132)                      (93)

Total Commodity Loans, Net                                  $            1,360      $             1,031




                                                                                                     Page 16
                                    COMMODITY CREDIT CORPORATION
                                     Notes to the Financial Statements
                                        Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net

CCC’s foreign programs provide economic stimulus to both the U.S. and foreign markets, while also giving
humanitarian assistance to the most needy people throughout the world, through both credit guarantee and
direct credit programs.

Descriptions of CCC’s direct credit and loan programs, and credit guarantee programs are presented below.

Direct credit and loan obligations and credit guarantee commitments made after FY 1991, and the resulting
direct credits and loans or credit guarantees, are governed by the Federal Credit Reform Act of 1990, as
amended. Credit Reform requires agencies to estimate the cost of direct credits and loans, and credit
guarantees at present value for the President’s Budget. Additionally, the present value of the subsidy costs
(i.e., interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other cash flows)
associated with direct credits and loans, and credit guarantees are recognized as a cost in the year the direct
credit and loan or credit guarantee is disbursed. The net present value of direct credits and loans and
defaulted guarantee receivables at any point in time is the amount of the gross direct credit and loan
receivable and defaulted guarantee receivable less the present value of the subsidy at that time.

Net credit program receivables, or the value of assets related to direct credits and loans, and the defaulted
credit guarantees, are not the same as the proceeds that would be expected to be received from selling the
credits/loans.

Credit Guarantee Programs
CCC’s Export Credit Guarantee programs encourage exports of U.S. agricultural products to buyers in
countries where credit is necessary to maintain or increase U.S. sales, but where financing may not be
available without such credit guarantees. The Corporation underwrites credit extended by the private banking
sector in the U.S. (or, less commonly, by the exporter) under the GSM-102 (credit terms up to 3 years) and
GSM-103 (credit terms up to 10 years) programs. Under these programs, CCC does not provide financing,
but guarantees payments due from foreign banks. Typically, 98 percent of principal and a portion of interest
at an adjustable rate are covered. All guarantees under these programs are denominated in U.S. dollars.

Under the Supplier Credit Guarantee Program (SCGP), CCC guarantees a portion of payments due under
short-term financing arrangements (up to 180 days) that exporters have extended directly to the importers for
the purchase of U.S. agricultural products. All guarantees under this program are denominated in U.S.
dollars.

The Facility Guarantee Program provides payment guarantees to facilitate the financing of manufactured
goods and services exported from the United States to improve or establish agriculture-related facilities in
emerging markets. The guarantees can have payment terms from 1 to 10 years. All guarantees under this
program are denominated in U.S. dollars.

In the event that CCC pays a claim under the guarantee programs, CCC assumes the debt and treats it as a
credit receivable for accounting and collection purposes. At September 30, 2006 and 2005, there are no
guarantees issues prior to 1991 that are subject to new claims. While the debt is still outstanding, the period
to file a claim is expired.

Direct Credit Programs
Under the PL 480 Title I Program, CCC finances the sales of U.S. agricultural commodities to countries in
need of food assistance on favorable credit terms (at low rates of interest for up to 30 years with grace
periods of up to 7 years). PL 480 Title I provides for government-to-government (and some government-to-
private entity) sales of U.S. agricultural commodities to developing countries on credit terms or for local
currencies. Priority goes to countries with the greatest need for food that are undertaking economic
development to improve food security and agricultural development, alleviate poverty, and promote broad



                                                                                                            Page 17
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

based, equitable and sustainable development. All credits under this program are denominated in U.S.
dollars.

The Food for Progress Program provides for a responsive food aid mechanism to encourage and support the
expansion of private enterprise in recipient countries and is meant to help countries seeking to implement
democratic and market reforms.

The Debt Reduction Fund is used to account for modified debt. Debt is considered to have been modified if
the original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is
rescheduled, only the date of payment is changed. Rescheduled debt is carried in the original fund until paid.

Paris Club
CCC permits debtor nations to reschedule debt under the aegis of the Paris Club. The Paris Club is an
internationally recognized organization whose sole purpose is to address, on a case-by-case basis, liquidity
problems faced by the world’s most severely economically disadvantaged countries. While the Paris Club
has no charter or formal operating procedures, it has been operating since 1978 under the leadership of the
French Ministry of Economics and Finance. The general premise of the Paris Club’s activities is to provide
disadvantaged countries short-term liquidity relief to enable them to re-establish their credit worthiness. The
Departments of State and Treasury lead the U.S. delegation and negotiations for all U.S. agencies. Only
country-to-country debt is considered. For CCC, this includes PL 480 direct credits and claims paid under the
GSM programs for which a sovereign entity is liable.

The Departments of State and Treasury may also negotiate bi-lateral agreements with sovereign debtors for
debt not qualifying for treatment by the Paris Club.

Economic Factors and Outlook Affecting Subsidy Reestimates
The foreign credit subsidy reestimates are affected by four basic components:

x   cash flow data (disbursements, collections including fees, original subsidy and scheduled future
    payments),
x   interest rates,
x   defaults, and
x   Inter-Agency Risk Assessment System (ICRAS) country grades.

Cash flow data may be modified to reflect pending reschedulings. Otherwise, the reestimate process is such
that these elements permit little discretionary change by CCC. The interest rates used in the reestimate are
developed and published by Treasury for use government-wide. OMB mandates the default calculation
methodology. ICRAS grades are a product of the Inter-Agency Risk Assessment Committee and their use is
also mandated.

After analyzing foreign credits government-wide, OMB determined that actual performance on foreign credits
was better than had been previously forecasted and, therefore, mandated a change to the default calculation
methodology. This is a major contributor to the significant downward subsidy reestimates for CCC’s foreign
Credit Reform programs, resulting in a net downward reestimate of $453 million and $818 million in FY 2006
and 2005, respectively.

Sovereign and non-sovereign lending risks are regularly analyzed and sorted into one of eleven risk
categories in a manner similar to ratings generated by private rating agencies, such as Standard and Poors,
and Moody’s. Each of the eleven risk categories is also associated with a default estimate. The average
spread between the yield to maturity of dollar denominated bonds of like-rated sovereigns and comparable
maturity Treasuries were used to generate the default estimate for each rating.


                                                                                                       Page 18
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

Changes in Economic Conditions Having Measurable Effects Upon Subsidy Rates and Reestimates
Current world events and government initiatives have a major impact upon CCC’s foreign receivables. For
example, the U.S. is currently considering forgiveness or reduction of debt to poor countries under the Paris
Club's Heavily Indebted Poor Countries (HIPC) Initiative. Discussions are currently in progress with a
number of countries which, if successful, may affect CCC. These countries include: Bangladesh, Eritrea and
Sri Lanka.

Other than as stated above, CCC is unaware of any measurable events or pending legislation at this time that
may affect subsidy rates and reestimates in the future.

Direct Loan Programs
The Farm Storage Facility Loan (FSFL) Program was implemented to provide low cost financing for producers
to build or upgrade on-farm commodity storage and handling facilities. The loans have a term of 7 years with
a requirement of annual repayment installments. Interest on these loans is accrued monthly from the date of
disbursement at the rate equivalent to the rate of interest charged on the Treasury securities of comparable
maturity.

The Boll Weevil Program made available to the Texas Boll Weevil Eradication Foundation an interest-free $10
million loan to be repaid over 10 years.

The Apple Loan Program provided loans to apple producers who suffered hardships due to low prices
following the 1998 - 1999 growing season when apple prices fell to their lowest levels in nearly 10 years.
Eligible applicants obtained loans up to $300 per acre of apple trees in production in 1999 or 2000, up to a
maximum indebtedness of $500,000. The Apple Loan Program was not funded in FY 2006 or 2005.

Interest Income on Direct Credits and Credit Guarantees
Interest is accrued monthly on both performing and non-performing direct credits and credit guarantee
receivables as it is earned using simple interest calculations based upon a 365-day year. A non-performing
direct credit or credit guarantee receivable is defined as a repayment scheduled under a credit agreement,
with an installment payment in arrears more than 90 days. For those non-performing receivables, interest is
not recognized as income; rather, it is deferred until the interest is received or the receivable is returned to
performing status.

Based on the Federal Credit Reform Act of 1990 and SFFAS No. 2, Accounting for Direct Loans and Loan
Guarantees, all credit reform loans initiated after September 30, 1991 need to be presented on a present
value basis. For loans initiated before 1992(Pre-1992), restatement of loan value on a present value basis is
permitted but not required. Since CCC elected to restate the Pre-1992 loan receivables from nominal value to
net present value starting in 2001, the accounting treatment, including revenue recognition and subsidy
allowance calculation, has been applied consistently to Pre-1992 and Post-1991 Direct Loan and Loan
Guarantee programs. For Pre-1992 and Post-1991 loan interest receivable, the portion related to non-
performing loans is deferred and presented net of the loan receivable line item in balance sheet.




                                                                                                         Page 19
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

A summary of CCC’s net credit program receivables as of September 30, is as follows:

                                                                                         (In Millions)

                                                                               2006                          2005
Direct Credit and Loan Programs:
  Pre-1992:
    PL 480 Title I                                                      $              3,098        $               3,354

  Post-1991:
   PL 480 Title I                                                                      1,196                        1,280
   Debt Reduction Fund                                                                   137                          160
   Farm Storage Facility                                                                 202                          211
   Boll Weevil Program                                                                     -                            -
   Apple Loan Program                                                                      1                            1

Defaulted Credit Guarantees:
 Pre-1992 Export Credit Guarantees                                                       386                        1,294
 Post-1991 Export Credit Guarantees                                                      803                          937

Total Credit Program Receivables, Net                                   $              5,823        $               7,237


PL 480, Title I direct credits outstanding that were obligated prior to FY 1992 and related interest receivable
as of September 30, are as follows:

                                                                     (In Millions)

                                                                                 Allowances
                                 Credit                   Interest            for Uncollectible          Credit Program
 2006:                     Receivable, Gross      Receivable, Gross                  Accounts           Receivables, Net
 PL 480 Title I            $          5,600       $                  68       $           (2,570)        $           3,098



                                                                       (In Millions)

                                                                                     Allowances
                                  Credit                   Interest               for Uncollectible          Credit Program
 2005:                     Receivable, Gross       Receivable, Gross                   Accounts              Receivables, Net

 PL 480 Title I             $             5,909       $                 69        $         (2,624)          $          3,354




                                                                                                                       Page 20
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

PL 480 direct credits and direct loans for FSFL, Boll Weevil, and apple loans that were obligated after
FY 1991 and related interest receivable outstanding as of September 30, are as follows:

                                                             (In Millions)

                                                                         Allowances
                               Credit              Interest           for Uncollectible    Credit Program
 2006:                    Receivable, Gross    Receivable, Gross          Accounts        Receivables, Net

 PL 480 Title I            $          2,166     $             33      $         (1,003)   $          1,196
 Debt Reduction Fund                    382                    1                  (246)                137
 Farm Storage Facility                  248                   25                   (71)                202
 Boll Weevil Program                     10                    -                   (10)                  -
 Apple Loan Program                       -                    -                     1                   1

 Total                     $          2,806     $             59      $        (1,329)    $          1,536

                                                             (In Millions)

                                                                         Allowances
                               Credit              Interest           for Uncollectible    Credit Program
 2005:                    Receivable, Gross    Receivable, Gross          Accounts        Receivables, Net

 PL 480 Title I            $          2,273     $             35      $         (1,028)   $          1,280
 Debt Reduction Fund                    521                    2                  (363)                160
 Farm Storage Facility                  210                   22                   (21)                211
 Boll Weevil Program                     10                    -                   (10)                  -
 Apple Loan Program                       -                    -                     1                   1

 Total                     $          3,014     $             59      $        (1,421)    $          1,652




                                                                                                          Page 21
                                  COMMODITY CREDIT CORPORATION
                                   Notes to the Financial Statements
                                      Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued
Defaults on credit guarantees made prior to FY 1992 and related interest receivable as of September 30, are
as follows:

                                                           (In Millions)

                                                                       Allowances
                              Credit              Interest          for Uncollectible     Credit Program
 2006:                   Receivable, Gross    Receivable, Gross         Accounts         Receivables, Net

 Export Credit
 Guarantee Programs       $           516      $             7      $          (137)     $          386

                                                           (In Millions)

                                                                       Allowances
                              Credit              Interest          for Uncollectible     Credit Program
 2005:                   Receivable, Gross    Receivable, Gross         Accounts         Receivables, Net

 Export Credit
 Guarantee Programs       $          1,401     $            15      $          (122)     $         1,294

Defaults on credit guarantees made after FY 1991 and related interest receivable as of
September 30, are as follows:

                                                           (In Millions)

                                                                       Allowances
                              Credit              Interest          for Uncollectible     Credit Program
 2006:                   Receivable, Gross    Receivable, Gross         Accounts         Receivables, Net

 Export Credit
 Guarantee Programs       $          1,189     $            20      $          (406)     $          803

                                                           (In Millions)

                                                                       Allowances
                              Credit              Interest          for Uncollectible     Credit Program
 2005:                   Receivable, Gross    Receivable, Gross         Accounts         Receivables, Net

 Export Credit
 Guarantee Programs       $          1,604     $            24      $          (691)     $          937




                                                                                                    Page 22
                                  COMMODITY CREDIT CORPORATION
                                   Notes to the Financial Statements
                                      Fiscal Years 2006 and 2005



Note 5 - Credit Program Receivables, Net, continued

The changes in the subsidy allowance for outstanding direct credits and loans that were obligated after
FY 1991 as of September 30, 2006 are as follows:

                                                                              (In Millions)

                                                                     2006                     2005

Subsidy Allowance - Beginning of Fiscal Year                   $            1,421      $             1,828
Subsidy Expense for Current Year Disbursements:
 Interest Rate Differential                                                   17                       20
 Default Costs (Net of Recoveries)                                             7                        5
 Other Subsidy Costs                                                          (3)                       1
Total Subsidy Expense                                          $              21       $               26

Adjustments:
 Loan Modifications                                                             -                       6
 Subsidy Allowance Amortization                                                11                      56
 Loans Written Off / Forgiven                                                 (97)                    (43)
 Other                                                                         14                    (110)

Balance Before Reestimates                                     $            1,370      $             1,763

Subsidy Reestimates:
 Interest Rate Reestimate                                      $                5      $                2
 Technical/Default Reestimates                                                (46)                   (344)
Total Subsidy Reestimates                                      $              (41)     $             (342)

Subsidy Allowance - End of Fiscal Year                         $            1,329      $             1,421




                                                                                                        Page 23
                                          COMMODITY CREDIT CORPORATION
                                           Notes to the Financial Statements
                                              Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

For fiscal years ended September 30, subsidy expenses for the current year disbursements of post-1991
direct credits and loans, modifications (Mods.) and subsidy reestimates are as follows:

                                                                           (In Millions)

 2006:                      Subsidy Expense for New Direct Loans Disbursed            Mods.                     Reestimates
                                                Fees and
                         Interest                 Other                                              Interest                              Grand
                        Differential Defaults    Collect.    Other      Total            Total         Rate      Technical        Total    Total

PL 480 Title I          $      18     $     4    $     -    $     -    $     22      $           -   $     -      $   (99)    $     (99)   $   (77)
Debt Reduction Fund             -           -          -          -           -                  -         -           11            11         11
Boll Weevil                     -           -          -          -           -                  -         -            -             -          -
Farm Storage Facility          (1)          3          -         (3)         (1)                 -         5           42            47         46

Total                   $      17    $      7   $      -   $     (3)   $     21      $           -   $     5      $   (46)    $     (41)   $   (20)




                                                                           (In Millions)

 2005:                      Subsidy Expense for New Direct Loans Disbursed            Mods.                     Reestimates
                                                Fees and
                         Interest                 Other                                              Interest                              Grand
                        Differential Defaults    Collect.    Other      Total            Total         Rate      Technical        Total    Total

PL 480 Title I          $      21     $     4    $     -    $    1     $     26      $       6       $     -      $ (414)     $ (414)      $ (382)
Debt Reduction Fund             -           -          -         -            -              -             -          70          70           70
Boll Weevil                     -           -          -         -            -              -             1           3           4            4
Farm Storage Facility          (1)          1          -         -            -              -             1          (3)         (2)          (2)

Total                   $      20    $      5   $      -   $     1     $     26      $       6       $     2      $ (344)     $ (342)      $ (310)



Subsidy reestimates are calculated on cumulative disbursements for all cohorts, budget fiscal years.




                                                                                                                                     Page 24
                                    COMMODITY CREDIT CORPORATION
                                     Notes to the Financial Statements
                                        Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

For the fiscal years ended September 30, current and prior year disbursements of post-1991 direct credits
and loans are as follows:

                                                                          (In Millions)

                                                                                               Curent Year
                                                                                               Over (Under)
                                                      2006                   2005               Prior Year

 PL 480 Title I                                  $            16      $               46   $             (30)
 Farm Storage Facility                                        82                      59                  23

 Total                                           $            98      $              105   $              (7)

As of September 30, post-1991 credit guarantees outstanding are as follows:

                                                             (In Millions)

                                           Face Value                               Guaranteed*
 2006:                          Post-1991            Post-1991             Post-1991          Post-1991
                               Outstanding          Outstanding           Outstanding        Outstanding
                                 Principal            Interest              Principal           Interest
 Export Credit
 Guarantee Programs        $           3,022     $           193      $           2,925    $             93

                                                             (In Millions)

                                           Face Value                               Guaranteed*
 2005:                          Post-1991            Post-1991             Post-1991          Post-1991
                               Outstanding          Outstanding           Outstanding        Outstanding
                                 Principal            Interest              Principal           Interest
 Export Credit
 Guarantee Programs        $           4,240     $           203      $           4,098    $            103


* Outstanding principal and interest guaranteed represents a contingent liability for amounts owed by foreign
banks to exporters or assignee U.S. financial institutions participating in the program.




                                                                                                         Page 25
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

The change in the liability for post-1991 credit guarantees as of September 30, is as follows:

                                                                               (In Millions)

                                                                       2006                    2005

Credit Guarantee Liability - Beginning of Fiscal Year           $             260       $             240
Subsidy Expense for Current Year Disbursements:
 Default Costs (Net of Recoveries)                                             78                     181
 Fees and Other Collections                                                    (9)                    (16)
Total Subsidy Expense                                           $              69       $             165

Adjustments:
 Fees Received                                                                 10                       16
 Claim Payments to Lenders                                                    (19)                    (185)
 Other                                                                        248                      499

Balance Before Reestimates                                      $             568       $             735

Subsidy Reestimates:
 Interest Rate Reestimate                                       $               23      $             (287)
 Technical/Default Reestimates                                                (371)                   (188)
Total Subsidy Reestimates                                       $             (348)     $             (475)

Credit Guarantee Liability - End of Fiscal Year                 $             220       $             260




                                                                                                        Page 26
                                        COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements
                                            Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

Subsidy expenses, net of fees and other collections, for current year disbursements related to credit
guarantees made after FY 1991, and subsidy reestimates for the fiscal years ended September 30, are as
follows:

                                                                    (In Millions)

2006:                    Subsidy Expense for New Direct Loans Disbursed                            Reestimates
                                             Fees and
                       Interest                Other                                    Interest                           Grand
                     Supplement Defaults      Collect.    Other      Total                Rate      Technical      Total   Total
Export Credit
Guarantee Programs   $          -   $    78   $     (9)    $    -      $     69         $    23      $ (371)     $ (348)   $ (279)



                                                                    (In Millions)

2005:                    Subsidy Expense for New Direct Loans Disbursed                            Reestimates
                                             Fees and
                       Interest                Other                                    Interest                           Grand
                     Supplement Defaults      Collect.    Other      Total                Rate      Technical      Total   Total
Export Credit
Guarantee Programs   $          -   $   181   $    (16)    $    -      $   165          $ (287)      $ (188)     $ (475)   $ (310)



Subsidy reestimates are calculated on cumulative disbursements for all cohorts.

For the fiscal years ended September 30, current and prior year credit guarantee disbursements are as
follows:

                                                                       (In Millions)

                                                  2006                                                      2005
                                Outstanding               Outstanding                   Outstanding                  Outstanding
                                 Principal,                Interest,                     Principal,                   Interest,
                                Face Value                Guaranteed                    Face Value                   Guaranteed
 Export Credit
 Guarantee Programs         $             1,568       $             1,451           $               2,956        $          2,678

Administrative expenses on direct credit and loan programs were $5 million in both FY 2006 and 2005 and
$5 million and $4 million for the credit guarantee programs in FY 2006 and 2005, respectively.




                                                                                                                               Page 27
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

FY 2006 and 2005 subsidy rates (percentage) for direct credits and loans are as follows:


                                                                 Fees
 2006:                          Interest                       and Other
                               Differential     Defaults       Collections          Other                Total

P.L. 480 Programs                    44.39          11.01              -                  -                   55.40
Farm Storage Facility                 0.04           6.76            (0.11)             (7.31)                (0.62)
Sugar Store Facility Loans            0.36           0.90              -                  -                    1.26




                                                                   Fees
 2005:                           Interest                        and Other
                                Differential     Defaults        Collections          Other               Total

P.L. 480 Programs                     45.85           10.13                -                   -               55.98
Farm Storage Facility                 (1.68)           0.51              (0.11)              (0.15)            (1.43)
Sugar Storage Facility Loans          (6.20)           0.96                -                   -               (5.24)

The Boll Weevil and Apple Loan Programs are one year programs, cohort 2001.

FY 2006 and 2005 subsidy rates (percentage) for credit guarantee programs are as follows:

                                                                                 Fees
 2006:                                                                         and Other
                                                              Defaults         Collections            Total
 Export Credit
 Guarantee Programs                                                9.50              (0.57)               8.93


                                                                                 Fees
 2005:                                                                         and Other
                                                              Defaults         Collections            Total
 Export Credit
 Guarantee Programs                                                7.48              0.65                8.13

Subsidy rates are used to compute each year’s subsidy expenses as disclosed above. The subsidy rates
disclosed pertain only to the current year’s cohorts. These rates cannot be applied to the direct credits and
loans and credit guarantees disbursed during the current reporting year to yield the subsidy expense. The
subsidy expense for new direct credits and loans and credit guarantees reported in the current year could
result from disbursements from both current year and prior year(s) cohorts. The subsidy expense reported in
the current year also includes modifications and reestimates.




                                                                                                          Page 28
                                  COMMODITY CREDIT CORPORATION
                                   Notes to the Financial Statements
                                      Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

The principal balance of CCC direct credit and credit guarantee receivables in a non-performing status at
September 30, 2006 and 2005, totaled $1.5 billion and $2.9 billion, respectively, compared to a total principal
balance (performing and non-performing) at September 30, 2006 and 2005, of $9.9 billion and $11.7 billion,
respectively. If interest had been reported on these non-performing receivables, instead of reported only to
the extent of the collections received, direct credit and credit guarantee interest income would have increased
by $130 million from a total of $575 million in FY 2006, and increased by $16 million from a total of
$486 million reported in FY 2005. During the entire delinquency period, if interest had been reported on these
non-performing receivables, instead of reported only to the extent of the collections received, interest income
would have increased to $1 billion and $888 million through September 30, 2006 and 2005, respectively.

Direct credit and credit guarantee principal receivables under rescheduling agreements as of
September 30, 2006 and 2005, were $4.2 billion and $5.5 billion, respectively.

During FY 2006, there were no new Paris Club agreed minutes to reschedule PL-480 debt or GSM debt.
However, reschedulings and claims on refinancing agreements entered into force in FY 2006 totaled
$116.7 million in principal and interest. An agreement is considered to have “entered into force” when all
agreed upon domestic prerequisite conditions have been satisfied by the debtor. The following table provides
an itemization of those agreements entering into force in FY 2006:

   In Force Date          Country            Amount (In Millions)
      10/20/05       Republic of Congo       $               15.9
      11/17/05           Sri Lanka                           25.7
      01/09/06       Republic of Congo                       15.9
      04/28/06       Dominican Republic                      50.9
      06/02/06            Georgia                             3.7
      06/02/06            Georgia                             2.3
      07/26/06            Georgia                             2.3
                           Total             $            116.7



Other Significant Events
During FY 2006, Russia prepaid $1.1 billion of its outstanding debt to CCC.

During FY 2005, Russia, Poland and Lithuania prepaid debts in the amounts of $1 billion, $825 million and
$61 million, respectively.

CCC expects to receive prepayments of approximately $565 million from Algeria and $7 million from Bulgaria
in early FY 2007.

Changes in the Export Credit Guarantee Programs
As the result of actions by the World Trade Organization (WTO) with respect to farm subsidies, USDA
implemented new guarantee fee rates under CCC’s Export Credit Guarantee Program (GSM-102) and SCGP.
The new fee rates use a risk-based structure based on a country risk scale, as well as different repayment
terms. USDA has decided not to conduct business in countries that are rated below the risk scale of six. As
a result, significant declines in program levels were anticipated for FY 2006 and are expected to continue in
subsequent program years.

There was no SCGP program in FY 2006.



                                                                                                      Page 29
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

PL 480 Title I Direct Credit Trend Analysis

Reestimates
The balances approach method is used to reestimate PL 480 Title I direct loan subsidy costs. With this
approach, the NPV of remaining cash flows for a cohort is compared to the balance on deposit with Treasury
for the cohort. It is necessary to make sure payments are made to service debt with Treasury before
reestimates are performed each year to avoid excess cash balances that could affect the outcome of
reestimates.

ICRAS risk ratings and associated default rates can have a major impact on export program subsidy
calculations. ICRAS country risk ratings are developed by an interagency task force to reflect government-
wide experience with debtor countries. These ratings, which are provided annually, are used for reestimates
and may not reflect USDA’s specific experience with a given country. Similarly, ICRAS default rates are
provided annually by OMB and reflect government-wide experience.

FY 2006 Reestimate
There was a total downward reestimate of $56 million. Of that amount, $10.5 million was due to changes in
the default rates. $24.3 million was due to changes in the ICRAS grades. Prepayments and balances with
Treasury comprise the difference.

FY 2005 Reestimate
In the 2005 reestimate, 79 percent of the total downward reestimate of $239 million was explained by the
activity in three cohorts, 1993, 1997 and 1999. This activity is examined in further detail below:

                         Downward Reestimates
                             (In Millions)
 Cohort           Reestimate              Interest on Reest
   1992       $                  (8)      $                (12)
   1993                         (58)                       (71)
   1994                          (3)                        (4)
   1995                          (4)                        (4)
   1996                         (13)                       (11)
   1997                         (24)                       (16)
   1998                         (14)                        (7)
   1999                        (109)                       (50)
   2000                          (1)                          -
   2001                            -                          -
   2002                          (2)                        (1)
   2003                            -                          -
   2004                          (3)                          -
   2005                            -                          -

  Total       $                (239)      $                (176)

Trend Analysis - 1993 Cohort
For the 1993 cohort, the major factor in the reestimate was a $17 million prepayment by Lithuania. Although
there was approximately $5 million in scheduled interest payments for the remainder of the loan term that will
not be received, the prepayment removed all default projections for Lithuania, a grade D country. For the
remaining cash flows in the 1993 cohort, regular repayments for the cohort are


                                                                                                      Page 30
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

scheduled through FY 2024. However, there are rescheduled agreements with Pakistan that require
repayment through FY 2039 ($37 million in principal and interest payments), a factor that did not exist in
the previous reestimate. Overall, the NPV of remaining cash flows for the cohort is $319 million. Net
liabilities, which include balances owed to Treasury of $297 million less balances on deposit of
$103 million, total $194 million. Expected repayments exceed liabilities, resulting in a significant downward
reestimate, before current year interest, of $124 million. FY 2005 interest on the reestimate for the cohort
was $4 million. The total downward reestimate for the 1993 cohort is $129 million.

Trend Analysis - 1997 Cohort
The 1997 cohort was also impacted to some extent by Lithuania’s prepayment of their portfolio and
rescheduled agreements with Pakistan. In the 1997 cohort, Lithuania’s prepayment was $6.4 million, with
interest payments due in the out-years of $1.7 million. The Pakistan rescheduled agreements also extend to
2039 ($72 million in principal and interest payments), a change from the previous reestimate. Other
repayments for the cohort are scheduled through FY 2028. The Net Present Value (NPV) of remaining cash
flows for the cohort is $73 million. Net liabilities, which include balances owed to Treasury of $37 million less
balances on deposit of $2 million, total $35 million. Expected payments exceed liabilities, resulting in a
downward reestimate, before current year interest, of $38 million. FY 2005 interest on the reestimate for the
cohort is $1.2 million. The total downward reestimate for the 1997 cohort is $40 million.

Trend Analysis - 1999 Cohort
For the 1999 cohort, there are very few rescheduled agreements, and no recoveries are projected. Principal
and interest repayments for the cohort are scheduled through FY 2030 for a total of $739 million. During FY
2005, cash receipts exceeded scheduled principal and interest due in FY 2005 by $32.4 million. While this
does not impact the NPV of the remaining cash flows, it contributed to the balance on deposit with Treasury.

ICRAS grades improved for four of the countries in the 1999 cohort, and no countries in the 1999 cohort were
downgraded. Specific dollar amounts attributable to the change in ICRAS grades are not readily discernable,
but the countries that experienced improved ratings comprise only $77 million of the scheduled principal and
interest repayments of $739 million. Default rates used in the 2005 reestimates are lower across the board
than those used in 2004. This is most noticeable in terms of the default rate for grade F countries, which
changed from 78 percent across all years in the 2004 reestimates, to a gradual increase from 22.8 percent in
year 1 up to 78 percent in year 22, and 83 percent in year 50. Of the 46 countries in the 1999 cohort, 36 fall
into ICRAS categories which had lower default rates in 2005 than in 2004.

The NPV of remaining cash flows for the 1999 cohort is $337 million. Net liabilities, which include balances
owed to Treasury of $238 million less balances on deposit of $55 million, total $183 million. Expected
repayments greatly exceed liabilities, resulting in a large downward reestimate, before current year interest, of
$154 million. FY 2005 interest on the reestimate for the cohort is $5 million. The total downward reestimate
for the 1999 cohort is $159 million.

Trend Analysis – General Sales Manager (GSM) Export Credit Guarantee Program
The Export Credit Guarantee Program consists of GSM 102, GSM 103, Supplier Credit Guarantee and
Facilities Guarantees.

FY 2006 Reestimates
There has a net downward reestimate of $348 million in FY 2006. Of this amount, $9 million was due to
changes in default rates and $118 million was due to changes in ICRAS grades. A significant portion of the
reestimate that is not accounted for by either a changes due to ICRAS grade or default rate, relates to
balances with Treasury.




                                                                                                         Page 31
                                    COMMODITY CREDIT CORPORATION
                                     Notes to the Financial Statements
                                        Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

Change in balance on deposit with Treasury netted to $230 million. The cohorts that had major changes in
the balances on deposit with Treasury are 2002, 2003 and 2004 (down by $119 million, $73 million and
$75.7 million respectively), but there are other cohorts that had changes in the opposite direction.

The major changes in balances owed occur in cohorts 1992 (down by $261 million) and 2001 (up by
$49 million).

GSM 103
The reestimate consisted of $5 million in technical adjustments and $5.2 million in interest under the
reestimate.

Supplier Credit
Incurred an upward reestimate of $79 million, for the most part in the 2005 cohort, reflects a net balance with
Treasury of $78 million.

FY 2005 Reestimate
The two main programs which meet the established criteria for analysis and are considered material are GSM
102 and Supplier Credit. Discussion on the two programs follows:

GSM 102
(In Millions)
                Downward Reestimates
 Cohort         Reestimate    Interest on Reest
 1992                     -55                -60
 1993                     -18                -14
 1996                      -3                 -2
 1997                      -7                 -5
 1998                      -6                 -3
 1999                       0                  0
 2000                       0                  0
 2001                     -65                -12
 2002                   -109                 -14
 2003                     -71                 -4
 2004                     -64                 -3
 2005                     -24                 -1
 Total                  -422                -118

GSM 102 processed several cohorts with large downward reestimates, specifically, those of 1992, 1993 and
2001 through 2005. GSM uses the Balance Approach Reestimate Calcultor (BARC) in determining the
upward or downward reestimate for each cohort.

Other factors contributing to the large downward reestimate are the recoveries scheduled for cohorts 1992
and 1993 out to 2016 and 2012, respectively. For the 2004 cohort, 98 percent of the recoveries are from the
Former Soviet Union and Russia. For the 1993 cohort, again 98 percent of the recoveries scheduled come
from Ukraine. These projected recoveries contributed to the GSM 102 program’s large downward reestimate.




                                                                                                         Page 32
                                 COMMODITY CREDIT CORPORATION
                                  Notes to the Financial Statements
                                     Fiscal Years 2006 and 2005

Note 5 - Credit Program Receivables, Net, continued

Supplier Credit Guarantee
           Upward Reestimates                   Downward Reestimates
 Cohort    Reestimate   Interest on Reest       Reestimate    Interest on Reest
 2002                 -                     -              -1                   -
 2003                 -                     -              -4                   -
 2004               47                      2               -                   -
 2005               14                      -               -                   -
 Total              61                      2              -5                   -

The Supplier Credit Guarantee program was initiated in 1997 and reestimates had typically been downward
for the most cohorts, but never of material significance. Cohort years 2004 and 2005 comprise 99.9 percent
of the total downward reestimates due to large claims paid for both Indonesia and Mexico. For Cohort 2005,
100 percent of the claims paid were for Mexico.




                                                                                                   Page 33
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005



Note 6 - Commodity Inventories, Net

Inventory activities for the fiscal years ended September 30, are as follows:

                                                                                 (In Millions)

                                                                       2006                      2005

Commodity Inventories - Beginning of Fiscal Year                 $             304        $            950
Acquisitions                                                                 6,017                   7,172
Cost of Sales                                                               (5,339)                 (6,146)
Donations                                                                     (753)                 (1,276)
Other Dispositions, Additions and Deductions                                    (3)                   (396)

Commodity Inventories - End of Fiscal Year                       $              226       $             304

Less: Allowance for Losses                                                      (171)                   (275)

Commodity Inventories, Net                                       $               55       $              29


Commodity loan forfeitures during the fiscal years ended September 30, 2006 and 2005, were
$133 million and $79 million, respectively. Future commodity donations are estimated to be
$37 million. An analysis of the change in inventory by commodity for FY 2006 and 2005 is provided in the
Other Accompanying Information Section (unaudited).

Restrictions on Commodity Inventory
In accordance with the Bill Emerson Humanitarian Trust (BEHT) Act of 1998, CCC currently maintains a
commodity reserve of 34 million bushels of wheat valued at $124 million for use when domestic supplies are
so limited that quantities cannot meet the availability criteria under PL 480. In addition, if commodities that
meet unanticipated needs under Title II of PL 480 cannot be made available in a timely manner, the Secretary
may release up to 500,000 metric tons of wheat or an equivalent value of eligible commodities, plus up to
500,000 metric tons of eligible commodities that could have been released, but were not released, under this
authority in prior fiscal years. Commodities are to be used solely for emergency food assistance. BEHT
stocks can be exchanged for other U.S. agricultural commodities of equal value to meet emergency food
needs. The reserve is established at 2 million metric tons and is replenished through purchases or by
designation of commodities owned by CCC. The authority to replenish the reserve expires at the end of
FY 2007. Since the Corporation is legislatively limited in how it may dispose of the wheat reserve, an
allowance equal to 100 percent of the wheat inventory valued at $124 million has been established.




                                                                                                          Page 34
                                 COMMODITY CREDIT CORPORATION
                                  Notes to the Financial Statements
                                     Fiscal Years 2006 and 2005



Note 7 - General Property and Equipment, Net

General property and equipment as of September 30, is as follows:

                                                                        (In Millions)

 2006:                                            Acquisition           Accumulated           Net book
                                                    Value               Depreciation           Value

 ADP Equipment                                $             58      $              (58)   $               -
 Capitalized Software Development Costs                     87                     (35)                  52

 Total General Property and Equipment         $            145      $              (93)   $              52


                                                                        (In Millions)

 2005:                                            Acquisition           Accumulated           Net book
                                                    Value               Depreciation           Value

 ADP Equipment                                $             76      $              (76)   $               -
 Capitalized Software Development Costs                     74                     (22)                  52

 Total General Property and Equipment         $            150      $              (98)   $              52




                                                                                                         Page 35
                                  COMMODITY CREDIT CORPORATION
                                   Notes to the Financial Statements
                                      Fiscal Years 2006 and 2005



Note 8 - Debt to the Treasury

Debt to the Treasury, categorized as interest bearing and non-interest bearing notes, as of
September 30, is as follows:

                                                                              (In Millions)

                                                                      2006                    2005
Debt - Beginning of Fiscal Year:
 Principal: Interest Bearing                                    $         23,103       $         12,397
 Accrued Interest Payable                                                    323                     72
Total Debt Outstanding - Beginning of Fiscal Year               $         23,426       $         12,469

New Debt:
 Principal: Interest Bearing                                    $         27,596       $         26,977
 Accrued Interest Payable                                                    557                    383
Total New Debt                                                  $         28,153       $         27,360

Repayments:
 Principal: Interest Bearing                                    $        (31,414)      $        (16,306)
 Accrued Interest Payable                                                   (453)                  (132)
Total Repayments                                                $        (31,867)      $        (16,438)

Interest Refinanced                                                           56                     35

Debt - End of Fiscal Year
 Principal: Interest Bearing                                    $         19,341       $         23,103
 Accrued Interest Payable                                                    427                    323
Total Debt Outstanding - Ending of Fiscal Year                  $         19,768       $         23,426


CCC may borrow interest-free up to the amount of its unreimbursed realized losses. For interest bearing
notes, monthly interest rates ranged from 3.875 percent to 5.250 percent during FY 2006 and from
2.00 percent to 3.875 percent during FY 2005. Repayments are applied to non-interest bearing notes first.
Once these are liquidated, repayments are then applied to interest bearing notes. CCC had no non-interest
bearing notes in FY 2006 and 2005.

The total amount of debt principal and interest refinanced was $11.6 billion and $13.6 billion in FY 2006 and
2005, respectively. These amounts are included in the total amounts of new debt and repayments in the table
above. These amounts include the outstanding principal rolled over in FY 2006 and 2005, respectively.
Accrued interest rolled over into notes payable was $56 million in FY 2006 and $35 million in FY 2005.

Interest expense incurred on Treasury borrowings was $552 million and $379 million for FY 2006 and 2005,
respectively.

The FY 2006 and 2005 interest rates on long-term borrowings under the permanent indefinite borrowing
authority for the Credit Reform programs are calculated using the OMB Credit Subsidy Calculator. For the
2001 and future cohorts, the single effective interest rate produced from the calculator, along with budget
assumptions, is used to calculate interest expense.




                                                                                                      Page 36
                                  COMMODITY CREDIT CORPORATION
                                   Notes to the Financial Statements
                                      Fiscal Years 2006 and 2005

Note 8 - Debt to the Treasury, continued

The repayment terms for borrowings made for the GSM programs range from under 3 years up to 10 years.
Currently, maximum loan terms do not exceed 7 years, while the repayment term for PL 480 program
borrowing is 30 years. The repayment term is 7 years for direct loans under the FSFL program, 3 years for
direct loans under the Apple Loan Program, and 10 years for the direct loan made under the Boll Weevil
program. For all Credit Reform programs, principal repayments are required only at maturity, but are
permitted at any time during the term of the loan.

CCC has a separate permanent indefinite borrowing authority for the Credit Reform programs to finance
disbursements on post-Credit Reform direct credit and loan obligations and credit guarantees. On October 1,
CCC borrows from Treasury for the entire fiscal year, based on annual estimates of the difference between
the amount appropriated (subsidy) and the amount to be disbursed to the borrower. CCC may repay under
loan agreement, in whole or in part, prior to maturity by paying the principal amount of the borrowings plus
accrued interest up to the date of repayment. Interest is paid on these borrowings based on weighted
average interest rates for the cohort to which the borrowings are associated. Interest expense incurred on
borrowings associated with the Credit Reform programs amounted to $194 million and $212 million in
FY 2006 and 2005, respectively.

CCC has an authorized capital stock of $100 million held by the Treasury, with the authority to have
outstanding borrowings of up to $30 billion at any one time. Interest on borrowings from the Treasury (and on
capital stock) is paid at a rate based upon the average interest rate of all outstanding marketable obligations
(of comparable maturity date) of the U.S. government as of the preceding month. CCC incurred $5 million and
$4 million in interest expense on capital stock for the fiscal year ended
September 30, 2006 and 2005, respectively.




                                                                                                      Page 37
                                  COMMODITY CREDIT CORPORATION
                                   Notes to the Financial Statements
                                      Fiscal Years 2006 and 2005

Note 8 - Debt to the Treasury, continued

Total debt outstanding, by program and maturity date, as of September 30, 2006, is as follows:

                 Program                    Debt (In Millions)               Maturity Date
CCC Borrowing Authority                   $                16,595                         January 1, 2007
Export Credit Guarantees                                      237                     September 30, 2007
                                                               16                     September 30, 2009
                                                               64                     September 30, 2010
                                                              111                     September 30, 2011
                                                                1                     September 30, 2013
                                                                1                     September 30, 2014
                                                               49                     September 30, 2015
                                                              457                     September 30, 2016
                                                                3                     September 30, 2017
                                                              100                     September 30, 2019
P.L. 480 Direct Credits                                       104                     September 30, 2018
                                                              257                     September 30, 2019
                                                               48                     September 30, 2020
                                                               41                     September 30, 2021
                                                               62                     September 30, 2022
                                                               70                     September 30, 2023
                                                               64                     September 30, 2024
                                                              332                     September 30, 2025
                                                               47                     September 30, 2026
                                                               43                     September 30, 2027
                                                               48                     September 30, 2031
                                                               32                     September 30, 2032
                                                               24                     September 30, 2033
                                                               20                     September 30, 2034
Debt Reduction                                                 17                     September 30, 2012
                                                               17                     September 30, 2018
                                                                9                     September 30, 2021
                                                               56                     September 30, 2022
                                                               22                     September 30, 2023
                                                               16                     September 30, 2024
                                                               26                     September 30, 2026
                                                                3                     September 30, 2028
Farm Storage Facility Loans                                    10                     September 30, 2008
                                                               29                     September 30, 2009
                                                               26                     September 30, 2010
                                                               41                     September 30, 2011
                                                               49                     September 30, 2012
                                                               69                     September 30, 2013
                                                              120                     September 30, 2014
Boll Weevil                                                     4                     September 30, 2008
Apple Loans                                                     1                     September 30, 2007
Total Debt Outstanding                    $                19,341




                                                                                                      Page 38
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005



Note 9 - Deposit and Trust Liabilities

Deposit and trust liabilities are amounts advanced to or deposited with CCC, on behalf of other entities. The
balances, categorized as intragovernmental and public, as of September 30, are as follows:

                                                                                 (In Millions)

                                                                         2006                    2005
Intragovernmental:
  Agricultural Marketing Service/Food and Nutrition Service        $             748      $             513
  Animal and Plant Health Inspection Service                                       -                      1
  Foreign Agricultural Service                                                   142                    111
  Natural Resources Conservation Service                                         108                    114

Total Intragovernmental Deposit and Trust Liabilities (Note 17)    $             998      $             739

Public:
 No-Net Cost Tobacco Program                                       $               -      $               8
 Other                                                                             1                     20

Total Public Deposit and Trust Liabilities                         $               1      $              28


Within USDA, AMS and Food and Nutrition Service (FNS) coordinate with FSA/CCC to purchase certain
commodities for domestic feeding programs. AMS funds the purchase of commodities for the purpose of
facilitating additional sales in world markets at competitive prices. FNS funds the purchase of commodities for
the National School Lunch and many other domestic feeding programs administrated by voluntary
organizations, which help to fight hunger worldwide. The commodities purchased are meats, poultry, fish,
fruit, vegetables, egg products, dry beans, and tree nuts. FNS coordinates the purchase through competitive
bids or negotiated contracts to assure the quantity, quality, and variety of commodities purchased meets the
needs of schools and institutions participating in the domestic nutrition programs. These purchases also
assist farmers, commodity producers, and processors by helping to maintain stable commodity prices.




                                                                                                        Page 39
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005



Note 10 - Other Liabilities

Other liabilities as of September 30 are as follows:

                                                                                       (In Millions)

                                                                               2006                    2005

Intragovernmental:
  Accrued Reimbursable Agreements                                       $               1       $               -
  Accrued Conservation Reserve Program Technical Assistance                            28                       -
  Excess Subsidy Payable to Treasury                                                  458                     905
  Other                                                                                20                      21

Total Intragovernmental Other Liabilities                               $             507       $             926

Public:
 Payable to Producers                                                   $               -       $              33
 Other                                                                                 58                       -

Total Public Other Liabilities                                          $              58       $              33



The majority of the balance on Payable to Producers relates to Marketing Assistance Loans.

The Marketing assistance loans provide producers interim financing at harvest time to meet cash flow needs
without having to sell their commodities when market prices are typically at harvest-time lows. Allowing
producers to store production at harvest facilitates more orderly marketing of commodities throughout the
year.

Other Public Liabilities consists of $45 million related to accruals for Credit Reform Loan programs and
$10 million for No Net Cost Assessment program (NNCA).


Note 11 - Environmental and Disposal Liabilities

The Corporation formerly operated approximately 4,500 grain storage facilities in the U.S. To date, at
approximately 120 of these facilities, Carbon Tetrachloride (a fumigant commonly used at grain storage
facilities during that time) was discovered in groundwater. CCC recorded an estimate of the total liability for
investigation and remediation of affected sites of $11 million both at September 30, 2006 and 2005,
respectively, based on actual cleanup costs at similar sites. This liability is not covered by budgetary
resources.




                                                                                                         Page 40
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005



Note 12 - Accrued Liabilities

Accrued liabilities as of September 30 are as follows:

                                                                                 (In Millions)

                                                                        2006                     2005

Liabilities Covered by Budgetary Resources:
  Income Support Programs
    Direct and Counter-Cyclical Payments                         $             5,378      $             5,440
    Milk Income Loss Contract                                                     89                        -
    Other                                                                         27                      241
  Export Programs                                                                 86                      121
  Cotton User Marketing Certificates                                               9                       68
  Conservation Programs                                                            -                        4

Subtotal                                                         $             5,589      $             5,874

Liabilities Not Covered by Budgetary Resources:
  Conservation Reserve Programs (Note 13)                                      1,779                    1,695
  Tobacco Transition Payment Program:
    Liability to Tobacco Quota Holders                                         4,293                    4,948
    Liability to Tobacco Producers                                             1,844                    2,127

Subtotal                                                         $             7,916      $             8,770

Total Accrued Liabilities                                        $          13,505        $         14,644


Liabilities covered by budgetary resources are considered current.

Liabilities not covered by budgetary resources include a $1.8 billion current liability for Conservation Reserve
Programs. The liability of $6.1 billion under TTPP includes $954 million as a current liability; the remaining
balance is a long term liability. See Note 1 for TTPP discussion.




                                                                                                           Page 41
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005



Note 13 - Commitments and Contingencies

Commitments

Wetland Reserve Program (WRP)
Under WRP, CCC purchases easements, based on agricultural value, to restore wetlands that have
previously been drained and converted to agricultural uses, to protect or enhance wetlands on the owner’s
property. WRP also provides an opportunity for landowners to receive cost-share payments to restore,
protect, or enhance a wetland without selling an easement. Program expenses for the fiscal years ended
September 30, 2006 and 2005, were $19 million and $16 million, respectively.

In accordance with the provisions of the Federal Accounting Standards Advisory Board’s SFFAS No. 29,
Heritage Assets and Stewardship Land, CCC is disclosing the required information related to stewardship
land in a separate note. For further details about the program operation and policy, please see Note 14.

Market Access Program (MAP)
The MAP was authorized by the Agriculture Trade Act of 1978, as amended, to encourage the development,
maintenance, and expansion of commercial export markets for agricultural commodities through cost-share
assistance to eligible trade organizations that implement a foreign market development program. CCC makes
funds available to reimburse program participants for authorized promotional expenses. Program expenses
for the fiscal years ended September 30, 2006 and 2005, were $158 million and $139 million, respectively. At
September 30, 2006 and 2005, CCC’s undelivered orders on current contracts were $205 million and
$192 million, respectively.

Noninsured Crop Disaster Assistance Program (NAP)
The NAP was authorized as a CCC program under the 1996 Act. The NAP is a standing crop disaster aid
program for crops that are not covered by catastrophic risk protection crop insurance that provides financial
assistance to producers of non-insurable crops when a low yield crop, loss of inventory, or prevented planting
occurs due to natural disasters. The crops must be non-insurable commodity for which the catastrophic risk
protection level of crop insurance is not available. Program expenses for the FY 2006 and 2005 were
$65 million and $108 million, respectively.

Commodity Acquisition
Commitments to acquire commodities represent the contract value of commodities not yet delivered under
CCC purchase contracts. Such commitments amounted to $87 million and $143 million at September 30,
2006 and 2005, respectively.

Conservation Reserve Program (CRP)
Through CRP, participants sign 10-15 year contracts to remove land from production in exchange for an
annual rental payment. The participants also receive a one-time payment equal to not more than 50 percent
of the eligible costs of establishing conservation practices on the reserve acreage. CCC estimates that the
future liability for CRP rental payments through FY 2016 will be $1.9 billion annually. This estimate is based
on current program levels with the assumption that expiring lands are re-enrolled or replaced with lands of
equal value. At September 30, 2006 and 2005, accrued liabilities for CRP totaled approximately $1.7 billion.




                                                                                                       Page 42
                                  COMMODITY CREDIT CORPORATION
                                   Notes to the Financial Statements
                                      Fiscal Years 2006 and 2005

Note 13 - Commitments and Contingencies, continued

Leases
As of September 30, 2006, future minimum rental payments required under FSA operating leases for State
office space, for which CCC is directly liable, consisted of the following:

                (In Millions)
  Year       Rent Expense
  2007       $          4
  2008                  4
  2009                  2
  2010                  2
  2011                  1
Total        $         13


Allocated rent expense, net of reimbursements, was $64 million and $66 million for the fiscal years ended
September 30, 2006 and 2005, respectively. This allocated rent expense is recognized as part of the CCC’s
imputed financing sources and imputed costs.

Contingencies

Hazardous Waste Program
Payments for site inspection, cleanup, as well as operations and maintenance, totaled $7 million and
$4 million for FY 2006 and 2005. respectively. At September 30, 2006, CCC estimates the range of potential
loss to be between $11 million and $55 million.

Legal Disputes and Claims
In the normal course of business, CCC becomes involved in various legal disputes and claims. CCC
vigorously defends its position in such actions through the Office of the General Counsel (OGC) and the U.S.
Department of Justice. At September 30, 2006 legal disputes and claims are considered to be immaterial.




                                                                                                    Page 43
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005




Note 14 – Disclosures Related to Stewardship Land

Wetland Reserve Program (WRP)
The NRCS administers WRP programs using CCC funding. WRP is a voluntary program that provides
technical and financial assistance to eligible landowners to address wetland, wildlife habitat, soil, water, and
related natural resource concerns on private lands in an environmentally beneficial and cost-effective manner.
The program provides an opportunity for landowners to receive financial incentives to enhance wetlands in
exchange for retiring marginal land from agriculture. Landowners who choose to participate in WRP may sell
a conservation easement or enter into a cost-share restoration agreement with USDA to restore and protect
wetlands. The landowner voluntarily limits future use of the land, yet retains private ownership. The
landowner and NRCS develop a plan for the restoration and maintenance of the wetland. This program
complies with CCC’s strategic goals under conserving natural resources and enhancing the environment.

The program offers landowners three options: permanent easements, 30-year easements, and restoration
cost-share agreements with a minimum 10-year duration.

1. Permanent Easement. This is a conservation easement in perpetuity. Easement payment will be the
   lesser of: the agricultural value of the land, an established payment cap, or an amount offered by the
   landowner. In addition to paying for the easement, USDA pays 100 percent of the costs of restoring the
   wetland.
2. 30-Year Easement. This is a conservation easement lasting 30 years. Easement payments are
   75 percent of what would be paid for a permanent easement. USDA also pays 75 percent of restoration
   costs.
3. Restoration Cost-Share Agreement. This is an agreement (generally for a minimum of 10 years in
   duration) to re-establish degraded or lost wetland habitat. USDA pays 75 percent of the cost of the
   restoration activity. This does not place an easement on the property. The landowner provides the
   restoration site without reimbursement.

To offer a conservation easement, the landowner must have owned the land for at least 12 months prior to
enrolling it in the program, unless the land was inherited, the landowner exercised the landowner’s right of
redemption after foreclosure, or the landowner can prove the land was not obtained for the purpose of
enrolling it in the program. To participate in a restoration cost-share agreement, the landowner must show
evidence of ownership. To be eligible for WRP, land must be restorable and be suitable for wildlife benefits.
This includes:

    x   Wetlands farmed under natural conditions;
    x   Farmed wetlands;
    x   Prior converted cropland;
    x   Farmed wetland pasture;
    x   Farmland that has become a wetland as a result of flooding;
    x   Range land, pasture, or production forest land where the hydrology has been significantly degraded
        and can be restored;
    x   Riparian areas which link protected wetlands;
    x   Lands adjacent to protected wetlands that contribute significantly to wetland functions and values;
    x   Previously restored wetlands that need long-term protection.

Ineligible land includes wetlands converted after December 23, 1985; lands with timber stands established
under a Conservation Reserve Program contract; Federal lands; and lands where conditions make restoration
impossible. Access to the land under WRP easement is controlled by the landowner, who may lease the land
for hunting, fishing, and other undeveloped recreational activities. At any time, a participant may request that
additional activities be evaluated to determine if they are compatible uses for the site. This request may
include such items as permission to cut hay, graze livestock, or harvest wood products. Compatible uses are
allowed if they are fully consistent with the protection and enhancement of the wetland.
                                                                                                       Page 44
                                   COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements
                                       Fiscal Years 2006 and 2005



Note 15 – Disclosures Related to the Statement of Net Cost

Earned Revenue
Earned revenue for the fiscal years ended September 30, is as follows:

                                                                               (In Millions)

                                                                      2006                     2005
Intragovernmental Earned Revenue:
  Commodity Inventory Sales                                     $             529       $              745
  Interest Income                                                              89                      118
  Other                                                                       147                        -
  Less: Intra-Agency Eliminations                                            (519)                    (732)

Total Intragovernmental Earned Revenue                          $             246       $              131

Earned Revenue from the Public:
 Commodity Inventory Sales                                      $            4,177      $             4,479
 Interest Income                                                               545                      495
 Other                                                                          62                    8,129

Total Earned Revenue from the Public                            $            4,784      $         13,103

Total Earned Revenue                                            $            5,030      $         13,234


Other Income under Intragovernmental Earned Revenue consists of $147 million accrued for the year end
collection of ocean freight differential costs from DOT related to the commodity shipments to foreign countries
under PL 480 Title I and Title II programs. See Note 3 for reference.

Intragovernmental commodity inventory sales decreased from $745 million in FY 2005 to $529 million in
FY 2006 due to the decrease on PL 480 Title I concession sales and Title II donations to developing countries
in FY 2006.

Public commodity inventory sales decreased from $4.5 billion in FY 2005 to $4.2 billion in FY 2006 due to
higher upland cotton market prices, which affected commodity certificate exchanges in FY 2006.

Other earned revenue from the public for FY 2006 includes $34 million related to reviewing fees in CRP,
$13 million related to TTPP billings to manufacturers and importers that were not accrued at
FY 2005, and $9 million related to the service fees in NAP.

Revenue and expense are recognized based on SFFAS No. 7, Accounting for Revenue and Other Financing
Sources. CCC follows the implementation guideline for classifying, recognizing, and measuring inflows of
resources. Program costs are the full costs of each program’s output, which consists of direct, indirect and
the costs of identifiable supporting services provided by other segments. Earned revenues are exchange
revenues, which arise when a Federal entity provides goods and services to the public or to another
government entity for a price.

OMB Circular A-136, Financial Reporting Requirements, requires that the presentation of the Statement of
Net Costs align directly with the major goals and outputs described in the agency’s strategic and performance
plans, required by the Government Performance and Results Act.



                                                                                                         Page 45
                                  COMMODITY CREDIT CORPORATION
                                   Notes to the Financial Statements
                                      Fiscal Years 2006 and 2005


Note 15 – Disclosures Related to the Statement of Net Cost, continued

CCC’s strategic goals are as follow:

    x   Supporting productive farms and ranches
    x   Supporting secure and affordable food and fiber
    x   Conserving natural resources and enhancing the environment
    x   Support international economic development and trade capacity building

Under supporting productive farms and ranches, program areas include Income Support and Disaster
Assistance. CCC provides financial assistance in the form of short term financing to stabilize, support, and
protect farm income and prices due to the fluctuation of commodity market prices or income support due to
damage caused by natural disaster. Direct Loans, TTPP, and Disaster Assistance programs comprise major
program activity.

Under supporting secure and affordable food and fiber, program areas include Commodity Operations.
CCC’s Dairy Price Support and Food Security Reserve programs protect the nation’s agriculture and food
supply through a uniform regulatory system for the storage of agricultural products and ensure the timely
provision of food products procured for domestic and international food assistance programs and market
development programs.
Under conserving natural resources and enhancing the environment, the Conservation Reserve Program
safeguards natural resources by paying farmers to take environmentally sensitive crop land out of production,
and plant long-term resource-conserving covers (such as grasses and trees). These covers improve the
quality of water and air, control soil erosion, and enhance wildlife habitat.
Under support international economic development and trade capacity building, program areas include Export
Credit, Market Expansion and Trade Building. FAS and CCC form cooperative agreements with other
nonprofit agricultural trade commodity groups to encourage development, maintenance and expansion of
commercial export markets for agricultural commodities. Major programs include Food Aid, Foreign Market
Development and Export Credit Guarantee.




                                                                                                     Page 46
                                                                          COMMODITY CREDIT CORPORATION
                                                                            Notes to Financial Statements
                                                                             Fiscal Years 2006 and 2005



Note 15 – Disclosures Related to the Statement of Net Cost, continued
Net cost of operations as of September 30, 2006 (In Millions), is as follows:
                                                                                     Commodity         Income Support and                                        Foreign
                                                                                     Operations         Disaster Programs         Conservation Programs         Programs         Eliminations       Total
Supporting Productive Farms and Ranches
    Intragovernmental Cost                                                       $          601    $                    960                                                                     $       1,561
    Public Cost                                                                             156                      21,061                                                                            21,217
    Total Cost                                                                   $          757    $                 22,021                                                                     $      22,778

    Intragovernmental Earned Revenue                                             $            -    $                      9                                                                     $           9
    Public Earned Revenue                                                                    24                       4,273                                                                             4,297
    Total Earned Revenue                                                         $           24    $                  4,282                                                                     $       4,306

Supporting Secure and Affordable Food and Fiber
    Intragovernmental Cost                                                       $           41                                                                                                 $             41
    Public Cost                                                                               6                                                                                                                6
    Total Cost                                                                   $           47                                                                                                 $             47

    Intragovernmental Earned Revenue                                             $             -                                                                                                $               -
    Public Earned Revenue                                                                    19                                                                                                               19
    Total Earned Revenue                                                         $           19                                                                                                 $             19

Conserving Natural Resources and Enhancing the Environment
   Intragovernmental Cost                                                                                                     $                      284                                        $         284
   Public Cost                                                                                                                                     2,082                                                2,082
   Total Cost                                                                                                                 $                    2,366                                        $       2,366

    Intragovernmental Earned Revenue                                                                                          $                         -                                       $               -
    Public Earned Revenue                                                                                                                             35                                                      35
    Total Earned Revenue                                                                                                      $                       35                                        $             35

Support International Economic Development and Trade Capacity Buildings
    Intragovernmental Cost                                                                                                                                  $          719                      $         719
    Public Cost                                                                                                                                                        653                                653
    Total Cost                                                                                                                                              $        1,372                      $       1,372

    Intragovernmental Earned Revenue                                                                                                                        $          757                      $         757
    Public Earned Revenue                                                                                                                                              433                                433
    Total Earned Revenue                                                                                                                                    $        1,190                      $       1,190

Intra-entity Eliminations
     Intragovernmental Cost                                                                                                                                                  $            (520) $           (520)
     Public Cost                                                                                                                                                                             -                  -
     Total Cost                                                                                                                                                              $            (520) $           (520)

    Intragovernmental Earned Revenue                                                                                                                                         $            (520) $           (520)
    Public Earned Revenue                                                                                                                                                                    -                  -
    Total Earned Revenue                                                                                                                                                     $            (520) $           (520)

Total Gross Cost                                                                 $          804    $                 22,021   $                    2,366 $           1,372 $              (520) $      26,043
Less: Total Earned Revenue                                                                   43                       4,282                           35             1,190                (520)         5,030
Net Cost of Operations                                                           $          761    $                 17,739   $                    2,331 $             182 $                 - $       21,013




                                                                                                                                                                                                        Page 47
                                                                          COMMODITY CREDIT CORPORATION
                                                                            Notes to Financial Statements
                                                                             Fiscal Years 2006 and 2005

Note 15 - Disclosures Related to the Statement of Net Cost, continued
Net cost of operations as of September 30, 2005 (In Millions), is as follows:
                                                                                    Commodity          Income Support and
                                                                                    Operations          Disaster Programs     Conservation Programs    Foreign Programs        Eliminations       Total
Supporting Productive Farms and Ranches
    Intragovernmental Cost                                                      $           440    $                    913                                                                   $       1,353
    Public Cost                                                                           8,564                      24,620                                                                          33,184
    Total Cost                                                                  $         9,004    $                 25,533                                                                   $      34,537

    Intragovernmental Earned Revenue                                            $             - $                        17                                                                   $          17
    Public Earned Revenue                                                                 8,125                       4,508                                                                          12,633
    Total Earned Revenue                                                        $         8,125 $                     4,525                                                                   $      12,650

Supporting Secure and Affordable Food and Fiber
    Intragovernmental Cost                                                      $            40                                                                                               $             40
    Public Cost                                                                            (415)                                                                                                          (415)
    Total Cost                                                                  $          (375)                                                                                              $           (375)

    Intragovernmental Earned Revenue                                            $            -                                                                                                $               -
    Public Earned Revenue                                                                   62                                                                                                              62
    Total Earned Revenue                                                        $           62                                                                                                $             62

Conserving Natural Resources and Enhancing the Environment
   Intragovernmental Cost                                                                                                     $                 187                                           $         187
   Public Cost                                                                                                                                1,970                                                   1,970
   Total Cost                                                                                                                 $               2,157                                           $       2,157

    Intragovernmental Earned Revenue                                                                                          $                    -                                          $               -
    Public Earned Revenue                                                                                                                         2                                                          2
    Total Earned Revenue                                                                                                      $                   2                                           $              2

Support International Economic Development and Trade Capacity Buildings
    Intragovernmental Cost                                                                                                                             $          1,024                       $       1,024
    Public Cost                                                                                                                                                    (117)                               (117)
    Total Cost                                                                                                                                         $            907                       $         907

    Intragovernmental Earned Revenue                                                                                                                   $            846                       $         846
    Public Earned Revenue                                                                                                                                           407                                 407
    Total Earned Revenue                                                                                                                               $          1,253                       $       1,253

Intra-entity Eliminations
     Intragovernmental Cost                                                                                                                                                $            (733) $           (733)
     Public Cost                                                                                                                                                                           -                  -
     Total Cost                                                                                                                                                            $            (733) $           (733)

    Intragovernmental Earned Revenue                                                                                                                                       $            (733) $           (733)
    Public Earned Revenue                                                                                                                                                                  -                  -
    Total Earned Revenue                                                                                                                                                   $            (733) $           (733)

Total Gross Cost                                                                $         8,629    $                 25,533   $               2,157    $            907 $               (733) $      36,493
Less: Total Earned Revenue                                                                8,187                       4,525                       2               1,253                 (733)        13,234
Net Cost of Operations                                                          $           442    $                 21,008   $               2,155    $           (346) $                 - $       23,259




                                                                                                                                                                                                      Page 48
                                COMMODITY CREDIT CORPORATION
                                  Notes to Financial Statements
                                   Fiscal Years 2006 and 2005


Note 16 - Disclosures Related to the Statement of Budgetary Resources

The SBR is a combined statement and, as such, intra-agency transactions have not been eliminated.

As of September 30, 2006, there are no obligations incurred under apportionment category A, which is
funded on a quarterly basis, while obligations incurred under apportionment category B, which are funded
annually, consist of $4.3 billion direct obligations and $38.9 billion reimbursable obligations.

As of September 30, 2005, there were no obligations incurred under apportionment category A, while
obligations incurred under apportionment category B consisted of $4.5 billion direct and $40.7 billion
reimbursable obligations.

The majority of the amounts reported as permanently not available represent redemption of debt or the
amount of principal repayments paid to the Treasury on CCC's outstanding borrowings. The remaining
balance represents rescissions of budgetary authority. The amounts were $51.8 billion and $34.3 billion
as of September 30, 2006 and 2005, respectively.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11, Preparation and
Submission of Budget Estimates, of $30 billion. The Corporation’s borrowing authority is made up of both
interest and non-interest bearing notes. These notes are drawn upon daily when disbursements exceed
deposits, as reported by the FRB’s, their branches and CCC’s financing office. When deposits exceed
disbursements, CCC makes repayments on its notes. Deposits (financing sources) flowing through
CCC’s revolving fund include proceeds from the sale of CCC commodities, loan repayments, interest
income and various program fees. CCC’s notes payable under its permanent indefinite borrowing
authority have a term of 1 year.

On January 1 of each year, CCC refinances its outstanding borrowings, including accrued interest, at the
January borrowing rate. The amount of available borrowing authority as of September 30, 2006, is
$11 billion.

CCC receives an annual appropriation to fund subsidy costs incurred. In addition, CCC has permanent
indefinite appropriation authority to finance disbursements made under the liquidating accounts related to
the pre-Credit Reform program activities, which are not covered by available working capital.

Unobligated budget authority is the difference between the total unexpended appropriation balance and
the obligated balance. An appropriation expires on the last day of its period of availability and is no
longer available for new obligations. The amounts for undelivered orders are $9.4 billion and $9.7 billion
as of September 30, 2006 and 2005, respectively. Unobligated balances retain their fiscal year identity in
an “expired account” for that appropriation for an additional 5 fiscal years.

The unobligated balance remains available to make legitimate obligation adjustments (i.e., to record
previously unrecorded obligations and to make upward adjustments in previously under-recorded
obligations).

Since CCC has indefinite borrowing authority to support payments made from its revolving fund, no
unobligated balance carries forward to the following year.

No contributed capital was received during the reporting periods.

The SF-133, Report on Budget Execution, which is currently used by CCC to report and certify obligation
balances, is also used to populate some portions of the Program and Financing Schedules (P&F
Schedules). The information contained in those schedules will be used as input for the actual column of
the FY 2006 President’s Budget that will be published in FY 2007.



                                                                                                  Page 49
                                COMMODITY CREDIT CORPORATION
                                  Notes to Financial Statements
                                   Fiscal Years 2006 and 2005

Note 16 - Disclosures Related to the Statement of Budgetary Resources, continued

Since the Budget of the US Government P&F Schedules for 2006 are not available, the reconciliation
between the President’s Budget and the SBR for FY 2006 cannot be performed. The 2006 Budget of the
United States Government is expected to be published in February 2007 and will be available on OMB’s
website (www.whitehouse.gov/omb) at that time.

The SF-133 and the SBR for FY 2005 have been reconciled to the FY 2005 actuals on the P&F
Schedules presented in the Budget of the United States Government. A table presenting this comparison
appears on the following page.

The SF-133 and the SBR for FY 2006 will be reconciled to the FY 2006 actuals on the P&F Schedules
presented in the Budget of the United States Government once released.

Amounts reported in the SBR for FY2005 are different from the SF-133 submitted by USAID due to a
difference in the balance for undelivered orders, accounts payable, and disbursements in the amounts of
$47.1 million, $102.8 million, and $47.1 million, respectively. CCC recorded these FY 2005 USAID
transactions in FY 2006.




                                                                                               Page 50
                                                COMMODITY CREDIT CORPORATION
                                                  Notes to Financial Statements
                                                   Fiscal Years 2006 and 2005

     Note 16 - Disclosures Related to the Statement of Budgetary Resources, continued

     The comparison of selected line items of the FY 2005 SBR to the actuals on the FY 2005 P&F Schedules
     presented in the Budget of the United States Government is as follows:

                                                                                           (In Millions)

                                                                                                                                                     Portion of
                                                                                                                                                     Difference
                                                                                                                                                   Resulting From
                                                                                 SBR                 P&F                                             Reporting
                                                                                                                                      1/
                                  Line                                          Amount              Amount               Difference                Requirements
                                                                                                                                             2/
Total Budgetary Resources/Status of Resources                                    $ 49,291           $      49,471    $          (180)                           5
                                                                                                                                             2/
Total New Obligations                                                               45,292                 45,473               (181)                           0
Offsetting Collections-Collected                                                    18,547                 18,547                            0                  0
Offsetting Collections-Receivable                                                    (271)                  (272)                            1                  0
Appropriations Received                                                             15,444                 15,444                            0                  0
                                                                                                                                             3/
Authority to Borrow                                                                 46,045                 44,198               1,847                           0
                                                                                                                                             4/
Budgetary Resources/Unobligated Balance-Net Transfers                               (2,837)                (2,150)              (687)                           0
                                                                                                                                             5/
Portion to Repay Debt                                                                      0            (29,437)               29,437                           0
                                                                                                                                      3, 4, 5/
Capital Transfer to General Fund                                                   (34,316)                (3,709)        (30,607)                             (9)
Recoveries of Prior Year Obligations                                                 2,839                  2,840                          (1)                  0
                                                                                                                                           2, 6/
Unobligated Balance – Beginning Balance                                              3,840                  4,010              (170)                           13
Unobligated Balance – End of Year                                                    3,999                  3,998                            1                  5
                                                                                                                                           2, 8/
Obligated Balance – Beginning Year                                                   5,367                  5,180               187                             4
                                                                                                                                             2/
Obligation Incurred                                                                 45,292                 45,473               (181)                           0
                                                                                                                                             7/
Gross Outlays                                                                       39,602                 39,551                     51                        1
Obligated Balance Transfer, Net                                                      (216)                  (216)                            0                  0
Recoveries of Prior Year Obligations                                                 2,839                  2,840                          (1)                  0
Change in Uncollected Customer Payments from Federal Sources                             271                  272                          (1)                  0
                                                                                                                                           7, 8/
Obligated Balance-End of Year                                                        8,274                  8,318               (44)                            3
                                                                                                                                             7/
Outlays                                                                             21,054                 21,004                     50                        1

1/
     Difference which is not specifically identified is a result of rounding.

     2/
      The variances in Total Budgetary Resources/Status of Budgetary Resources, Total New Obligations, Unobligated Balance –
     Beginning of Year, Obligated Balance – Beginning of Year, and Obligation Incurred of $184 million is due to an inconsistency
     between the FY2004 ending and the FY2005 beginning Unobligated Balance on the P&F.
3/
 The P&F includes actual reductions of borrowing authority on this line. The SBR reports actual reductions of borrowing authority on
a different line. The variance in Authority to Borrow of $1.8 billion is offset in Capital Transfer to General Fund.
4/
  The P&F crosswalk for Budgetary Resources/Unobligated Balance – Net Transfers (Line 4) excludes capital transfers, which are
crosswalked to Capital Transfer to General Fund of $695 million in 12X1336.
5/
  The P&F crosswalk for Line 6 separates Permanently not available resources into the Portion to Repay Debt and Capital Transfers
to the General Fund. The SBR does not separate these amounts. Therefore the total variance shown in the portion to Repay Debt of
$29.4 billion is offset in Capital Transfer to General Fund.
6/
 This line item includes expired Treasury Symbols 1204336 and 1213302. Expired Treasury Symbols are not reported on the P&F
schedule. The variance total is $13 million.
7/
 The majority of the variance in Obligated Balance-End of Year, Gross Outlays, and Outlays is due to $47 million of activity involving
USAID in funds 12X4336 and (72) 12X4336.
8/
  The departmental shared appropriated amounts for CCC’s portion of the Hazardous Waste Fund, 12X0500, in the amount of
$3 million, are not included in the P&F amounts presented here. This fund is reported at the Departmental level in the Budget of the
United States Government and, therefore, is not presented by agency. However, the SBR amounts presented here do include this
fund activity. For this reason, a portion of the difference ($187 million) includes the activity for this fund.



                                                                                                                                             Page 51
                                 COMMODITY CREDIT CORPORATION
                                   Notes to Financial Statements
                                    Fiscal Years 2006 and 2005

Note 17 - Disclosures Related to the Statement of Financing

As of September 30, 2006, CCC’s Liabilities Not Covered by Budgetary Resources as disclosed in
Note 12 was approximately $8 billion. The current year transactions which include current year accruals,
as well the reversal of prior year accruals are reported on the Resources That Fund Expenses
Recognized In Prior Periods line of the Statement of Financing.

As discussed in Note 1, CCC engages in what are defined by OMB as “parent/child” relationships with
several agencies. OMB guidance requires that if an allocation transfer is material to the child’s financial
statements, the child should report the activity relating to the allocation transfer in all of its financial
statements, except the SBR which is reported in the parent’s financial statements. Accordingly, as a
parent agency, CCC reports none of the allocation transfer activity with USAID in its financial statements,
except for the SBR. Under the same principle, as a child CCC does not include budgetary transaction
activity related to FSA allocation transfer programs on CCC’s SBR. Those transactions are recorded in
FSA’s SBR. The Hazardous Waste Departmental activity is recorded in a shared account under USDA
that retains the fund symbol identified with the original appropriation from which monies are advanced.
CCC’s portion of this activity is included in USDA’s financial statements.

The reconciling item related to the USAID allocation transfer amounted to $886 million in FY 2006. It is
included as part of the Other Resources or Adjustments to Net Obligated Resources That Do Not Affect
Net Cost of Operations line of the Statement of Financing, totaling ($1) billion as of September 30, 2006.
For further illustration on the Other Resources or Adjustment to Net Obligated Resources, please see the
table below.

Other budgetary offsetting collections and receipts that do not affect net cost of operations as of
September 30, are as follows:

                                                                                 (In Millions)

                                                                        2006                     2005

Loans Receivable - Commodity Loans Repaid                        $             5,932      $           10,111
Foreign Loans Receivable                                                           -                     242
Refund Receivables/Repayments                                                    463                       -
Other Non-Credit Reform Collections                                              472                       -
Miscellaneous                                                                    200                      16
Total                                                            $             7,067      $           10,369




                                                                                                        Page 52
                                 COMMODITY CREDIT CORPORATION
                                   Notes to Financial Statements
                                    Fiscal Years 2006 and 2005

Note 17 - Disclosures Related to the Statement of Financing, continued

Other resources or adjustments to net obligated resources that do not affect net cost of operations as of
September 30, are as follows:

                                                                              (In Millions)

                                                                      2006                    2005

Allocation Transfer - USAID                                     $            (886)     $             (192)
Claim Disbursements                                                          (901)                    103
Debt Reduction Disbursement                                                     -                    (416)
Intra-Agency Transfers                                                         81                       -
Miscellaneous                                                                  56                     (34)
Total                                                           $          (1,650)     $             (539)




Other components requiring or generating resources in future periods as of September 30, are as follows:


                                                                              (In Millions)

                                                                      2006                    2005
Tobacco Transition Program                                      $               -      $             7,415
Price Support Certificate Exchange                                           (213)                       -
Miscellaneous                                                                  21                        -
Total                                                           $            (192)     $             7,415




To conform with USDA’s presentation concerning lines 13 and 23 in the SoF, certain reclassifications
have been made to prior year amounts to be consistent with current year’s presentation.




                                                                                                     Page 53
                               COMMODITY CREDIT CORPORATION
                                 Notes to Financial Statements
                                  Fiscal Years 2006 and 2005



Note 17 - Disclosures Related to the Statement of Financing, continued

Other components not requiring or generating resources as of September 30, are as follows:

                                                                               (In Millions)

                                                                      2006                     2005

Allocation Transfers from FSA for the Conservation Programs     $              142      $               178
Bad Debt Expenses                                                              433                     (658)
Cost of Donations                                                              753                    1,276
Cost of Sales                                                                5,339                    6,175
Upward Credit Subsidy Reestimate Accurals                                        -                      208
Miscellaneous                                                                  (30)                      38

Total                                                           $            6,637      $             7,217




                                                                                                  Page 54
                                 COMMODITY CREDIT CORPORATION
                                   Notes to Financial Statements
                                    Fiscal Years 2006 and 2005



Note 18 - Disclosures Not Related to a Specific Statement

Related Party Transactions
CCC makes disbursements for many FSA programs, which are funded through allocation transfers from
FSA. During FY 2006 and 2005, FSA transferred to CCC $216 million and $306 million, respectively.
These transfers plus prior year carryovers were used to make payments by CCC in the approximate
amount of $752 million and $144 million, respectively.

As noted in Note 9, the Corporation also provides services to other USDA agencies to carry out their
authorities and responsibilities. As of September 30, 2006 and 2005, the related deposit and trust
liabilities for AMS and FNS were $494 million and $434 million, respectively.

CCC donates commodities for use under domestic feeding programs administered by FNS. The value of
commodities donated for these domestic purposes, including related transportation and storage costs, for
the fiscal years ended September 30, 2006 and 2005, were $170 million and $228 million, respectively.

CCC transferred $4 million to FAS for FY 2006 and 2005 and an additional $5 million and
$4 million, respectively, to FSA for salaries and expenses for administering the foreign Credit Reform
programs.

During FY 2006 and 2005, outlays under reimbursable agreements with other USDA agencies amounted
to $6 million and $36 million, respectively.

During the fiscal years ended September 30, 2006 and 2005, the Corporation transferred $60 million and
$169 million, respectively, to the Animal and Plant Health Inspection Service (APHIS) for the eradication
of animal and plant diseases.

A $142 million and $111 million deposit and trust liability to cover payments for the McGovern-Dole
International Food for Education and Child Nutrition Program and the Trade Adjustment Assistance
Program were established on behalf of FAS as of September 30, 2006 and 2005, respectively.
Additionally, there was a deposit and trust liability as of September 30, 2006 and 2005, of $254 million
and $79 million, respectively, with AMS to cover payments for the Cattle Feed Program, Livestock Feed
Program, Lamb Meat Adjustment Assistance Program and the Florida Hurricane Charlie Citrus Disaster
Program.

As of FY 2006 and 2005, CCC made several authorized transfers to other USDA agencies. CCC
transferred $15 million to FNS for the Senior's Farmers Market Nutrition Program and $2 million to the
office of the Chief Economist for the Biobased Products Program.

As of September 30, 2006, CCC also made authorized transfers in the amounts of $5 million to the Risk
Management Agency (RMA) for the Agricultural Management Assistance Program (AMAP); $50 million to
FSA to provide emergency assistance to producers who suffered losses due to natural disasters and
$2 million to AMS for AMAP.

As of September 30, 2006 and 2005, CCC also made authorized transfers to AMS in the amounts of
$2 million for AMAP and $90 million for the 2004 hurricane losses in Florida, respectively; $5 million and
$15 million, respectively, to Forest Service for the Forest Land Enhancement Program and private
landowner disaster assistance.

During FY 2006 and 2005, under the 2002 Farm Bill, CCC transferred a total of $1.8 billion and $1.9
billion, respectively, to NRCS for various conservation programs and technical assistance. In addition,
during FY 2006, CCC disbursed $77 million to NRCS for CRP technical assistance. These programs
included WRP, Environmental Quality Incentive Program (EQIP), Farmland Protection Program, Wildlife
Habitat Incentives Program, Klamath Basin, Ground, and Surface Water Conservation Program,
Grassland Reserve Program (GRP), Biomass Research and Development and the
                                                                                                  Page 55
                                 COMMODITY CREDIT CORPORATION
                                   Notes to Financial Statements
                                    Fiscal Years 2006 and 2005

Note 18 - Disclosures Not Related to a Specific Statement, continued

Conservation Security Program. NRCS is responsible for the administration of these programs. For
EQIP and GRP, NRCS has entered into a memorandum of understanding with CCC to disburse funds
using the services and facilities of CCC. A deposit and trust liability to cover the program payments on
behalf of NRCS for these programs and other conservation programs was $108 million and $114 million
as of September 30, 2006 and 2005, respectively.

It should be noted that, although NRCS has been receiving funding for the EQIP since 2003; CCC
continues to receive separate funding for the 2002 and earlier program years.

CCC received a $12 million charge from FSA for the allocation of internal software capitalization cost
during FY 2006. Currently CCC reimburses FSA for the cost incurred in the development of software
used to administer agriculture programs. See Note 1 for a discussion under General Property and
Equipment.



Custodial Activity
CCC’s custodial activities involve the collection and transfer of funds received from the public on behalf of
U.S. Treasury, FSA, and other USDA agencies. These collections include amounts related to FSA’s
Farm Loan Program, as well as other interest, fees, and penalties due to Treasury and other USDA
agencies.

Custodial activities as of September 30, are as follows:

                                                                                (In Millions)

                                                                       2006                     2005
Sources of Collections
 Repayment of Farm Credit Loans                                  $            1,366      $             1,540
 Admininstrative and Other Service Fees                                          19                       22
Total Revenue Collected                                          $            1,385      $             1,562

Disposition of Collection:
  Amounts Transferred to the Farm Service Agency                              1,375                    1,544
  Other USDA Agencies                                                            12                        1
  Department of Treasury                                                          2                        2
Total Disposition of Collections                                 $            1,389      $             1,547

(Increase)/Decrease in Amounts Yet to be Transferred                             (4)                     15

Net Custodial Activity                                           $                -      $                 -




                                                                                                       Page 56
REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)
Required Supplementary Information

Schedule 1

Wetlands Reserve Program – Condition Assessment

The emphasis for purchasing land easements in the Wetlands Reserve Program (WRP) is to protect,
restore, and enhance the functions and values of wetland ecosystems. These lands are used to increase
habitat for migratory birds and wetland dependent wildlife (including threatened and endangered species),
protect and improve water quality, attenuate water flows due to flooding, protect and enhance open space
and aesthetic quality, protect native flora and fauna contributing to the Nation’s natural heritage, and
contribute to educational and scientific scholarship. Once land has been deemed eligible and enrolled in
the WRP, the land’s condition is no longer material as it has become part of a long-term restoration and
conservation plan. This program complies with CCC’s strategic goals under Conserving natural
resources and enhancing the environment

In FY 2002, funding responsibility for Wetlands Reserve Program (WRP) returned to NRCS; however,
CCC remains responsible for easements using funding prior to the signing of the 2002 Farm Bill. Listed
below are acres purchased using CCC funds.

The change in acres covered by these easements for the fiscal years ended September 30, are as
follows:

                                                                                 2006           2005
Easement Acreage Acquired - Beginning of Fiscal Year                            1,007,746      1,007,076
Additions                                                                          18,364            670

Easement Acreage Acquired – End of Fiscal Year                                  1,026,110      1,007,746
Schedule 2
Required Supplementary Information (Unaudited)

Commodity Credit Corporation
Supporting Schedule to the Combined Statements of Budgetary Resources
Budgetary Accounts

For the Fiscal Year Ended September 30, 2006
(Dollars in Mllions)
                                                        12X4336       (72)12X4336       12X1336       12X2277       12X2278         Other        Total Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:    $       950   $           14    $      104    $       88    $       51    $        92    $            1,299
Recoveries of prior year unpaid obligations               4,738              113           -             -              94            -                   4,945
Budget authority
  Appropriation                                     $         -   $          -      $      197    $       68    $     1,500   $   26,347     $           28,112
  Borrowing Authority (Note 16)                          44,465   $          -             -             -              -            -                   44,465
  Spending authority from offsetting collections:
   Earned:
    Collected                                            13,411              -             -              11           221         1,424                 15,067
    Change in receivables from Federal sources               54              -             -             -             -             -                       54
  Change in unfilled customer orders:
   Advance received                                         259              -             -             -              -             -                      259
  Expenditure transfers from trust funds                    891              -             -             -              -             -                      891
  Subtotal                                          $    59,080              -      $      197    $       79 $        1,721 $      27,771    $            88,848
Nonexpenditure transfers, net actual                     22,371            1,189           -             -              -         (25,432)               (1,872)
Permanently not available                               (48,783)             -             -               (1)          (12)       (1,356)              (50,152)
Total Budgetary Resources                           $    38,356 $          1,316    $      301    $      166 $        1,854 $       1,075    $            43,068


Status of Budgetary Resources
Obligations incurred:
  Direct                                            $       -     $          -      $      139    $      127    $     1,774   $      930     $            2,970
  Reimbursable                                           37,747            1,185           -             -              -            -                   38,932
  Subtotal                                          $    37,747   $        1,185    $      139    $      127    $     1,774   $      930     $           41,902
Unobligated balance:
  Apportioned                                       $        79   $          -      $       81    $       36    $        75   $       92     $              363
  Exempt from apportionment                                 530              -             -             -              -              3                    533
  Subtotal                                          $       609   $          -      $       81    $       36    $        75   $       95     $              896
Unobligated balance not available                           -                131            81             3              5           50                    270
Total status of budgetary resources                 $    38,356   $        1,316    $      301    $      166    $     1,854   $    1,075     $           43,068
Schedule 2

Required Supplementary Information (Unaudited), continued

Commodity Credit Corporation
Supporting Schedule to the Combined Statements of Budgetary Resources
Budgetary Accounts

For the Fiscal Year Ended September 30, 2006
(Dollars in Millions)
                                                                   12X4336       (72)12X4336       12X1336       12X2277       12X2278        Other        Total Budgetary
Change in Obligated Balance
Obligated Balance, net, beg. of period
  Unpaid obligations, brought forward, October 1               $     7,424   $          922    $      166    $       76    $     1,043   $      18     $            9,649
  Less: Uncollected customer payments from Federal sources,
  brought forward, October 1                                        (1,221)             -             -             -              -           -                   (1,221)
  Total unpaid obligated balance, net                          $     6,203 $            922 $         166 $          76 $        1,043 $        18     $             8,428
Obligations incurred, net                                           37,747            1,185           139           127          1,774         930                  41,902
Less: Gross outlays                                                (33,621)          (1,039)         (137)          (85)        (1,515)       (928)               (37,325)
Less: Recoveries of prior year unpaid obligations, actual           (4,738)            (113)          -             -              (94)        -                   (4,945)
Change in uncollected customer payments from Federal sources           (54)             -             -             -              -            -                     (54)
Total Change in Obligated Balance                              $     5,537 $            955    $      168    $      118    $     1,208   $       20    $            8,006
Obligated balance, net,end of period:
 Unpaid obligations                                            $     6,812   $          955    $      168    $      118    $     1,208   $      20     $            9,281
  Less: Uncollected customer payments from Federal sources          (1,275)             -             -             -              -            -                  (1,275)
 Total, unpaid obligated balance, net, end of period           $     5,537 $            955    $      168    $      118    $     1,208   $       20    $             8,006
Net Outlays
 Gross outlays                                                 $    33,621 $          1,039    $      137    $       85 $        1,515 $        928    $            37,325
 Less: Offsetting collections                                      (14,562)             -             -             (11)          (221)      (1,424)              (16,218)
 Net Outlays                                                   $    19,059 $          1,039    $      137    $       74 $        1,294 $       (496)   $            21,107
Schedule 2

Required Supplementary Information (Unaudited), continued

Commodity Credit Corporation
Supporting Schedule to the Combined Statements of Budgetary Resources
Non-Budgetary Credit Program Financing Accounts

For the Fiscal Year Ended September 30, 2006
(Dollars in Millions)


                                                        12X4337       12X4049       12X4158       Other       Total Non-Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:    $     1,157   $     1,458   $       29    $     55    $                 2,699
Recoveries of prior year unpaid obligations                 -             -              4         -                            4
Budget authority
  Borrowing Authority (Note 16)                     $      233    $      437    $      135    $     19    $                  824
  Spending authority from offsetting collections:
   Earned:
    Collected                                               709           265           62         138                      1,174
    Change in receivables from Federal sources              (29)          -            -           -                          (29)
  Subtotal                                          $       913 $         702 $        197 $       157  $                   1,969
Permanently not available                                  (537)         (978)         (76)        (99)                   (1,690)
Total Budgetary Resources                           $     1,533 $       1,182 $        154 $       113 $                   2,982

Status of Budgetary Resources
Obligations incurred:
  Direct                                            $      638    $      557    $      131    $     29    $                 1,355
  Subtotal                                          $      638    $      557    $      131    $     29    $                 1,355
Unobligated balance:
  Apportioned                                       $       661   $        26   $        4    $     57    $                   748
  Subtotal                                          $       661   $        26   $        4    $     57    $                   748
Unobligated balance not available                           234           599           19          27                        879
Total status of budgetary resources                 $     1,533   $     1,182   $      154    $    113    $                 2,982
Schedule 2
Required Supplementary Information (Unaudited), continued

Commodity Credit Corporation
Supporting Schedule to the Combined Statements of Budgetary Resources
Non-Budgetary Credit Program Financing Accounts

For the Fiscal Year Ended September 30, 2006
(Dollars in Millions)
                                                                   12X4337        12X4049        12X4158          Other       Total Non-Budgetary
Change in Obligated Balance
Obligated Balance, net, beg. of period
 Unpaid obligations, brought forward, October 1                $          -   $          2   $       47       $    -      $                   49
  Less: Uncollected customer payments from Federal sources,
  brought forward, October 1                                         (160)           (43)           -              -                        (203)
 Total unpaid obligated balance, net                           $     (160) $         (41) $          47       $    -      $                 (154)
Obligations incurred, net                                             638            557            131             29                      1,355
Less: Gross outlays                                                  (637)          (557)          (102)           (29)                   (1,325)
Less: Recoveries of prior year unpaid obligations, actual             -              -                  (4)        -                          (4)
Change in uncollected customer payments from Federal sources           29            -              -              -                          29
Total Change in Obligated Balance                              $     (130) $         (41) $          72       $    -      $                  (99)
Obligated balance, net,end of period:
 Unpaid obligations                                            $          1   $          2   $       72       $    -      $                   75
  Less: Uncollected customer payments from Federal sources           (131)           (43)           -              -                        (174)
 Total, unpaid obligated balance, net, end of period           $     (130) $         (41) $          72       $    -      $                  (99)
Net Outlays
 Gross outlays                                                 $      637     $      557     $      102       $     29    $                 1,325
 Less: Offsetting collections                                        (709)          (265)           (62)          (138)                   (1,174)
 Less: Distributed Offsetting receipts                               (551)          (415)            (4)           (17)                     (987)
 Net Outlays                                                   $     (623) $        (123) $          36 $         (126) $                   (836)
Schedule 3
Other Accompanying Information (Unaudited)

Commodity Credit Corporation
Change in Inventory by Commodity

For Fiscal Year 2006
(In Thousands)
                                            Beginning Inventory                                                                                                                                                                    Ending Inventory
                                             October 1, 2005                Acquisitions               Cost of Sales a/               Donations                   Other Dispositions b/             Deductions, Net c/             September 30, 2006
                                  Unit of
                                 Measure      Quantity       Value         Quantity        Value       Quantity         Value         Quantity        Value         Quantity         Value          Quantity        Value            Quantity         Value

Feed Grains:
 Barley                         Bushels              19               35         648          1,215         (591)           (1,048)          (39)         (134)              0                 0            0               0               36    $          69
 Corn                           Bushels             939            2,213     289,053        561,067     (287,678)         (558,127)         (837)       (2,251)             (0)                0         (112)           (112)           1,365    $       2,791
 Corn Meal                      Pounds           20,098            2,120     279,715         28,883     (287,612)          (29,786)       (2,971)         (255)              0                 0            0               0            9,230    $         962
 Oats                           Bushels               0                0          70             83          (70)              (83)            0             0               0                 0            0               0               (0)   $           0
 Sorghum                        Bushels             111              356      23,660         68,324      (23,594)          (68,065)         (169)         (601)              0                 0            0               0                7    $          14
 Sorghum Grits                  Pounds                0                0      13,861          1,989      (13,861)           (1,989)            0             0              (0)               (0)           0               0               (0)   $           0
 Total Feed Grains                                   xxx $         4,725          xxx $     661,561           xxx $       (659,098)           xxx $     (3,241)             xxx $             (0)          xxx $         (112)              xxx   $       3,835

Wheat                           Bushels          46,460       171,055         56,803        239,777      (27,855)         (134,374)      (31,994)     (117,486)              (0)              (0)          (7)              (54)        43,406 $        158,919
Wheat Flour                     Pounds                0             0        134,483         17,431     (123,111)          (15,630)      (11,372)       (1,800)              (0)              (0)           0                 0              0 $              0
Wheat Products, Other           Pounds           22,046         2,226        378,760         45,673     (380,937)          (45,776)       (1,102)         (121)               0               (0)           0                 0         18,766 $          2,002

Rice Products:
Rice Products                   Cwt.                  0                0       1,747         25,883        (1,474)         (21,642)        (273)        (4,241)              (0)               0               0             0               0 $            (0)
Rice, Rough                     Cwt.                292            2,025      20,927        134,317       (21,161)        (136,009)           0              0                0                0               0             0              57 $           334
Rice, Brown                     Pounds                0                0           0              0             0                0            0              0                0                0               0             0               0 $             -

Cotton, Extra Long Staple       Bales                    0            0            0               0            0               0                0            0                0               0               0             0                  0 $           -
Cotton, Upland                  Bales                    2          633       16,220       4,261,503      (16,218)     (4,260,932)               0            0                0               0               0             0                  5 $       1,204

Dairy Products:
Nonfat Dry Milk                 Pounds          104,646           94,497      62,190         49,726       (27,682)         (24,795)     (82,349)       (75,475)          (6,163)          (5,966)       (1,488)          2,918          49,153    $      40,906
Butter                          Pounds                0                0           0              0             0                0            0              0                0                0             0               0               0    $           -
Cheese Regular Price Support    Pounds              707              700         198            230          (745)            (609)        (277)          (258)             (61)            (116)          177              54               0    $           0
Ultra High Temperature Milk     Pounds                0                0      11,481          5,294             0                0      (11,481)        (5,294)               0                0             0               0               0    $           -
 Total Dairy Products                                xxx $        95,197          xxx $      55,250            xxx $       (25,404)          xxx $     (81,027)              xxx $        (6,082)           xxx $        2,972              xxx   $      40,906

Oils & Oilseeds:
Flaxseed                        Cwt.                  0               0           13            122           (9)              (82)           0               0              0                 0            0                0               4    $           40
Sunflower Seed                  Cwt.                  0               0          206          1,930         (206)           (1,930)           0               0              0                 0            0                0               0    $            -
Sunflower Seed Oil, Processed   Pounds                0               0            0              0            0                 0            0               0              0                 0            0                0               0    $            -
Canola Seed                     Cwt.                  0               4            8             70           (3)              (27)           0               0              0                 0            0                0               5    $           47
Safflower Seed                  Cwt.                  0               0            0              0            0                 0            0               0              0                 0            0                0               0    $            -
Crambe Oilseed                  Cwt.                  0               0            0              0            0                 0            0               0              0                 0            0                0               0    $            -
Mustard Seed                    Cwt.                  0               0            0              0            0                 0            0               0              0                 0            0                0               0    $            -
Sunflower Seed Non-Oil          Cwt.                  0               0           62            587          (62)             (587)           0               0              0                 0            0                0               0    $           (0)
  Total Oils and Oilseeds                            xxx $            4           xxx $         657           xxx $           (614)          xxx $            -             xxx $              -           xxx $             -              xxx   $           47

Continued on Next Page
Schedule 3
Other Accompanying Information (Unaudited)

Commodity Credit Corporation
Change in Inventory by Commodity

For Fiscal Year 2006
(In Thousands)
                                                Beginning Inventory                                                                                                                                                                          Ending Inventory
                                                 October 1, 2005               Acquisitions                Cost of Sales a/                 Donations                      Other Dispositions b/              Deductions, Net c/             September 30, 2006
                                      Unit of
                                     Measure      Quantity         Value      Quantity         Value       Quantity           Value         Quantity           Value         Quantity           Value         Quantity           Value         Quantity         Value
Peanuts                            Pounds            65,244          12,656    1,176,293        210,664    (1,190,514)         (213,866)               0               0                0               0                0               0        51,023    $      9,454
Peanuts Raw                        Pounds                  0              0            0              0             0                 0                0               0                0               0                0               0              0   $          -

Soybeans                           Bushels                7             37       15,255          79,257       (12,827)          (64,290)       (1,470)           (9,747)                0               0                0               0           965 $          5,257
Soybean Products                   Pounds                 0              0      142,145          14,709       (15,762)           (1,521)     (126,382)          (13,188)                0               0                0               0            (0) $             -

Dry Edible Beans                   Cwt.                   9             206         639          13,895         (573)           (12,117)          (42)           (1,042)              (0)               (0)              0               0            34    $         941
Blended Foods                      Pounds             9,612           1,552     286,315          37,052     (292,454)           (38,113)            0                 0                0                 0               0               0         3,472    $         491
Dry Whole Peas                     CWT.                 258           2,939       2,173          22,423       (2,365)           (24,732)            0                 0               (0)                0               0               0            66    $         630
Lentils Dry                        CWT.                  97           1,734       1,805          24,799       (1,847)           (25,794)          (11)             (144)               0                 0               0               0            44    $         594
Plants & Seeds                     Pounds                 0               0           0               0            0                  0             0                 0                0                 0               0               0             0    $           -
Corn Seed                          Pounds                 0               0           0               0            0                  0             0                 0                0                 0               0               0             0    $           -
Potatoes Dehydrated                Pounds                 0               0       1,940             767         (507)              (254)       (1,433)             (514)               0                 0               0               0            (0)   $          (0)
Sugar, Raw Cane                    Pounds                 0               0           0               0            0                  0             0                 0                0                 0               0               0             0    $           -
Sugar, Refined Beet                Pounds                 0               0           0               0            0                  0             0                 0                0                 0               0               0             0    $           -
Sugar, Refined Cane                Pounds                 0               0           0               0            0                  0             0                 0                0                 0               0               0             0    $           -
In Process Beet Sugar              Pounds                 0               0           0               0            0                  0             0                 0                0                 0               0               0             0    $           -
Honey                              Pounds                 0               0           0               0            0                  0             0                 0                0                 0               0               0             0    $           -
Meat                               Pounds                 0               0           0               0            0                  0             0                 0                0                 0               0               0             0    $           -
Pork Bellies                       Pounds                 0               0           0               0            0                  0             0                 0                0                 0               0               0             0    $           -
Corn Oil                           Pounds                 0               0         (11)             (6)           0                  0            11                 6                0                 0               0               0             0    $           -
Soybean Salad Oil                  Pounds                 0               0     181,997          42,270     (131,194)           (30,186)      (50,804)          (12,084)               0                 0               0               0             0    $          (0)
Vegetable Oil                      Pounds            22,421           9,092     309,763         116,462     (297,642)          (111,857)      (30,995)          (12,311)               0                 0               0               0         3,547    $       1,386
Fruit Cnd Cranberry Sauce          Pounds                 0               0           0               0            0                  0             0                 0                0                 0               0               0             0    $           -
Fish, Canned Salmon                Pounds                 0               0         287             265            0                  0          (287)             (265)               0                 0               0               0             0    $           -
Pudding                            Pounds                76             107       6,749          10,381            0                  0        (6,826)          (10,488)              (0)               (0)              0               0            (0)   $          (0)
Raisins                            Pounds                                                                                                                                                                                                              -                -

Tobacco:
Burley                             Pounds                 0              0            0               0             0                  0            0                  0              0                 0             0                  0             0    $           -
Cigar                              Pounds                 0              0            0               0             0                  0            0                  0              0                 0             0                  0             0    $           -
Dark Air Cured                     Pounds                 0              0            0               0             0                  0            0                  0              0                 0             0                  0             0    $           -
Fire Cured                         Pounds                 0              0            0               0             0                  0            0                  0              0                 0             0                  0             0    $           -
Flue Cured                         Pounds                 0              0            0               0             0                  0            0                  0              0                 0             0                  0             0    $           -
Virginia Fire Cured                Pounds                 0              0            0               0             0                  0            0                  0              0                 0             0                  0             0    $           -
                                                         xxx $           -           xxx $            -            xxx $               -           xxx $               -             xxx $              -            xxx $               -            xxx   $           -

Emergency Food Ration Bars         Pounds                 0              0            0               0             0                  0            0                  0              0                 0             0                  0             0    $           -
Mohair                             Pounds                 0              0            2              17            (2)               (17)           0                  0              0                 0             0                  0             0    $           -
Tallow                             Pounds                 0              0            0               0             0                  0            0                  0              0                 0             0                  0             0    $           -
Subtotal                                                 xxx $           -           xxx $           17            xxx $             (17)          xxx $               -             xxx $              -            xxx $               -            xxx   $           -

Elimination of Sales to P.L. 480                          0              0            0               0             0          (485,244)               0       (485,244)                0               0                0               0             0    $           -

Total Inventory Operations                               xxx   $    304,186          xxx   $   6,017,059           xxx   $    (5,338,993)          xxx     $   (752,938)             xxx    $      (6,082)           xxx     $      2,806             xxx   $     226,039



Note: Inventories of commodities as shown in this report include commodities committed to sale or otherwise obligated.

a/ Includes commodities subsequently exported and financed under P.L. 480.
b/ Includes inventory quantity gains under the Export Program, and the losses incurred for conversion, incurred casualties and transit, and shrinkage and spoilage of
   commodities.
c/ Includes the net of over-deliveries, premiums, under-deliveries and discounts resulting from warehouse operations; the net change in value and quantity of inventory
   exchanged or in process of exchange; and processing end packaging costs and related quantitative gains and losses in processing operations and items which are footnoted
   individually.
Schedule 3
Other Accompanying Information (Unaudited)

Commodity Credit Corporation
Change in Inventory by Commodity

For Fiscal Year 2005
(In Thousands)
                                             Beginning Inventory                                                                                                                                                                  Ending Inventory
                                              October 1, 2004               Acquisitions               Cost of Sales a/           Donations                      Other Dispositions b/            Deductions, Net c/              September 30, 2005
                                   Unit of
                                  Measure     Quantity        Value       Quantity        Value       Quantity      Value        Quantity           Value         Quantity           Value       Quantity           Value          Quantity        Value

Feed Grains:
 Barley                         Bushels              17 $          31          665 $    1,186              (664) $   (1,182)              - $             -                 - $            -              - $             -               19 $          35
 Corn                           Bushels          11,780        21,660       98,954    204,284           (96,636)   (198,417)       (13,143)         (25,279)                1             (5)          (17)             (29)             939         2,213
 Corn Meal                      Pounds                 -            -      247,086     24,599          (226,578)    (22,420)              -               -             (410)            (60)             -               -           20,098         2,120
 Oats                           Bushels              40            52          199        255              (239)       (306)              -               -                 -              -              -               -                 0           (0)
 Sorghum                        Bushels              25            50       15,892     43,492           (15,806)    (43,183)              -               -                (0)            (2)             -               -              111           356
 Sorghum Grits                  Pounds                 -            -       17,438      2,135           (17,421)     (2,133)              -               -              (17)             (2)             -               -                (0)          (0)
 Total Feed Grains                                   xxx $     21,793           xxx $ 275,952                xxx $ (267,641)            xxx $       (25,279)              xxx $          (70)           xxx $           (29)              xxx $      4,725

Wheat                           Bushels          80,993   $ 291,081         68,222   $ 286,936          (71,492) $ (295,088)       (31,261) $ (111,864)                   (0) $           (2)           (3) $               (8)       46,460   $   171,055
Wheat Flour                     Pounds                -           -        227,538      26,042         (188,209)    (21,239)       (38,067)     (4,641)               (1,263)           (162)            -                   -             0            (0)
Wheat Products, Other           Pounds            3,585         355        289,694      28,726         (270,603)    (26,784)             1           0                  (631)            (72)            -                   -        22,046         2,226

Rice Products:
Rice Products                   Cwt.               251    $     2,903        2,273   $      30,331       (2,124) $ (27,340)          (392) $         (5,804)              (7) $          (91)               -   $            -            0    $        (0)
Rice, Rough                     Cwt.                23            144       67,906         450,310      (67,637)   (448,429)            -                 -                -               -                -                -          292          2,025
Rice, Brown                     Pounds               -              -       13,222           1,703      (13,222)     (1,703)            -                 -                -               -                -                -            -              -

Cotton, Extra Long Staple       Bales                 2   $       673            1   $         386           (3) $   (1,059)                -   $            -               -   $           -              -   $            -            (0) $          -
Cotton, Upland                  Bales                 0             7       17,402       4,469,349      (17,400) (4,468,723)                -                -               -               -              -                -             2           633

Dairy Products:
Nonfat Dry Milk                 Pounds          661,148 $ 594,615           33,703 $        26,484     (185,524) $ (164,346)      (276,108) $ (258,814)              16,927 $         14,308      (145,499) $ (117,749)             104,646 $       94,497
Butter                          Pounds              138        164                -              -         (137)       (163)              -          -                    (0)             (0)             -          -                    0             (0)
Cheese Regular Price Support    Pounds            8,306     10,765           9,553          17,093       (9,140)    (10,950)        (9,713)    (17,304)                (117)          (1,022)        1,818       2,118                  707            700
Ultra High Temperature Milk     Pounds                 -         -           9,806           4,506             -          -         (9,806)     (4,506)                    -               -              -          -                     -             -
 Total Dairy Products                                xxx $ 605,543              xxx $       48,082           xxx $ (175,459)            xxx $ (280,624)                  xxx $        13,285            xxx $ (115,631)                  xxx $      95,197

Oils & Oilseeds:
Flaxseed                        Cwt.                  - $             -            - $           -            - $           -            - $                 -             - $               -           - $                 -             - $             -
Sunflower Seed                  Cwt.                  -               -            -             -            -             -            -                   -             -                 -           -                   -             -               -
Sunflower Seed Oil, Processed   Pounds                -               -         (59)           (20)           -             -          59                   20             -                 -           -                   -             -               -
Canola Seed                     Cwt.                  -               -           6             57          (6)           (52)           -                   -             -                 -           -                   -            0                4
Safflower Seed                  Cwt.                  -               -           2             16          (2)           (16)           -                   -             -                 -           -                   -             -               -
Crambe Oilseed                  Cwt.                  -               -            -             -            -             -            -                   -             -                 -           -                   -             -               -
Mustard Seed                    Cwt.                  -               -            -             -            -             -            -                   -             -                 -           -                   -             -               -
Sunflower Seed Non-Oil          Cwt.                  -               -            -             -            -             -            -                   -             -                 -           -                   -             -               -
  Total Oils and Oilseeds                           xxx $             -          xxx $          72          xxx $         (68)         xxx $                 -           xxx $               -         xxx $                 -           xxx $             4

Continued on Next Page
Schedule 3
Other Accompanying Information (Unaudited)

Commodity Credit Corporation
Change in Inventory by Commodity

For Fiscal Year 2005
(In Thousands)
                                                    B eg i nni ng I nvent o r y                                                                                                                                                                                                 End i ng I nvent o r y
                                                      O ct o b er 1, 2 0 0 4                  A cq uisi t i o ns              C o st o f Sal es a/                D o nat io ns                    Ot her D isp o si t io ns b /             D ed uct i o ns, N et c/          Sep t emb er 3 0 , 2 0 0 5
                                       U ni t o f
                                      M easur e      Quant i t y           V alue        Quant it y          V al ue      Q uant i t y         V alue          Quant i t y           V alue         Quant it y           V al ue         Q uant i t y           V al ue        Q uant i t y         V al ue
Peanut s                             Pounds                        -   $            -      310,674       $      57,866      (245,430)      $      (45,210)                   -   $            -                  -   $              -                   -   $              -       65,244       $      12,656
Peanut s Raw                         Pounds                        -                -               -                -                 -                -                    -                -                  -                  -                   -                  -                -               -

Soybeans                             Bushels                   2       $            11          6,117    $     32,019          (5,630)     $      (29,143)           (441)       $     (2,637)                (0)    $             (4)            (41)      $       (208)                  7    $          37
Soybean Product s                    Pounds                    -                     -        97,625            8,835               -                   -         (97,627)             (8,835)                 2                    -               -                  -                   0               (0)

Dry Edible Beans                     Cwt .                  228        $      5,799               720    $      22,178           (868)     $      (25,632)              (64)     $      (1,949)                (7)   $        (190)                -        $              -              9     $        206
Blended Foods                        Pounds              34,807               4,448          455,350           66,970       (479,208)            (69,696)                 17                  3           (1,508)             (219)              154                      46         9,612              1,552
Dry Whole Peas                       CWT.                   120                1,544            2,471          28,258          (2,264)           (26,036)               (66)              (750)                (4)              (77)               -                       -           258             2,939
Lent ils Dry                         CWT.                    153              2,479              2,151         40,392          (2,204)            (41,068)                 0                 (0)               (2)             (70)                -                       -             97             1,734
Plant s & Seeds                      Pounds                    -                   -            2,205             347          (2,205)                (347)                -                  -              -                 -                 -                    -                -                  -
Corn Seed                            Pounds                    -                   -                 -               -              -                     -                -                  -              -                 -                 -                    -                -                  -
Pot atoes Dehydrat ed                Pounds                    -                   -                 0               2              -                     -                -                 (2)             -                 -                 -                    -                   0                 (0)
Sugar, Raw Cane                      Pounds                    -                   -                 -               -              -                     -                -                  -                 -                 -                -                       -              -                  -
Sugar, Refined Beet                  Pounds              32,000                7,616          48,000            10,555       (80,000)               (18,171)               -                  -                 -                 -                -                       -              0                  -
Sugar, Refined Cane                  Pounds                    -                   -                 -               -              -                     -                -                  -                 -                 -                -                       -              -                  -
In Process Beet Sugar                Pounds                    -                   -                 -               -              -                     -                -                  -                 -                 -                -                       -              -                  -
Honey                                Pounds                    -                   -                 -               -              -                     -                -                  -                 -                 -                -                       -              -                  -
M eat                                Pounds                    -                   -                 -               -              -                     -                -                  -                 -                 -                -                       -              -                  -
Pork Bellies                         Pounds                    -                   -                 -               -              -                     -                -                  -                 -                 -                -                       -              -                  -
Corn Oil                             Pounds                    -                   -             1,102             551              -                     -          (1,102)               (551)                -                 -                -                       -              -                  -
Soybean Salad Oil                    Pounds                    -                   -          159,772          38,213        (112,378)           (26,624)         (47,395)             (11,589)                 0                (0)               -                       -             (0)                 0
Veget able Oil                       Pounds               7,530               3,312          443,108          179,890        (413,351)           (167,879)          (14,121)             (5,851)            (745)            (380)                 -                       -        22,421             9,092
Fruit Cnd Cranberry Sauce            Pounds                    -                   -                 -               -              -                     -                -                  -                 -                 -                -                       -              -                  -
Fish, Canned Salmon                  Pounds                    -                   -                 -               -              -                     -                -                  -                 -                 -                -                       -              -                  -
Pudding                              Pounds                    -                   -           71,331          82,600               -                     -        (71,267)           (82,493)                 13                 -                -                       -             76                107
Raisins                              Pounds                    -                   -                 -               0              -                     -                -                 (0)                -                 -                -                       -              -                  -

Tobacco:
Burley                               Pounds                    -       $          -          118,482     $    525,607        (81,893)      $    (363,294)                -       $            -         (36,589)     $    (162,314)                  -      $              -                -   $          (0)
Cigar                                Pounds                    -                  -      $          -             384             (112)             (228)                -                    -              112               (156)                 -                     -                -              (0)
Dark Air Cured                       Pounds                    -                  -              332              997            (105)               (314)               -                    -            (227)              (683)                  -                     -              (0)              (0)
Fire Cured                           Pounds                    -                  -             4,713          10,931          (3,563)            (8,263)                -                    -           (1,150)           (2,667)                  -                     -               0                0
Flue Cured                           Pounds                1,965              2,495          156,287          446,595        (113,981)          (323,459)                -                    -         (44,270)          (125,631)                  -                     -              (0)               -
Virginia Fire Cured                  Pounds                    -                  -              234              655            (133)              (372)                -                    -             (101)             (283)                  -                     -               0               (0)
                                                              xxx      $      2,495                xxx   $    985,169               xxx    $    (695,930)               xxx      $            -               xxx    $    (291,735)                xxx      $              -              xxx   $          (0)

Emergency Food Rat ion Bars          Pounds                        -   $            -                -   $           -                -    $              -                  -   $            -                  -   $              -                   -   $              -                -   $            -
Tallow                               Pounds                        -                -                -               -                -                   -                  -                -                  -                  -                   -                  -                -                -
Subt otal                                                     xxx      $            -              xxx   $           -              xxx    $              -             xxx      $            -               xxx    $              -              xxx      $              -              xxx   $            -

Eliminat ion of Sales t o P.L. 480                                 -   $            -               0    $           -               0     $     (732,841)                   -   $ (732,841)                     -   $              -                   -   $              -                -   $            -

Tot al Invent ory Operat ions                                 xxx      $   950,204                 xxx   $    7,171,715             xxx    $   (6,146,428)              xxx      $(1,275,688)                 xxx    $ (279,786)                   xxx      $     (115,831)              xxx    $    304,186



Not e: Invent ories of commodit ies as shown in t his report include commodit ies committ ed to sale or otherwise obligat ed.

a/ Includes commodit ies subsequently export ed and f inanced under PL 480.
b/ Includes inventory quant ity gains under t he Export Program, and t he losses incurred for conversion, incurred casualt ies and t ransit , and shrinkage and spoilage of
   commodities.
c/ Includes the net of over-deliveries, premiums, under-deliveries and discounts resulting f rom warehouse operat ions; t he net change in value and quant it y of inventory
   exchanged or in process of exchange; and processing end packaging costs and relat ed quant it ative gains and losses in processing operat ions and items which are footnot ed
   individually.
